                2004
United States Air Force
   Annual Financial Statement
United States Air Force 2004
   Annual Financial Statements




        Financing the Fight
Table of Contents
Message from the Secretary of the Air Force . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .ii
Message from the Assistant Secretary of the Air Force, Financial Management and Comptroller . . . . . .iii
          Management Discussion and Analysis
                     General Fund
                                   Air Force in Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
                     Air Force Organizations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
                                   Major Commands, Direct Reporting Units and Field Operating Agencies . . . . . . . . . . . . . . . . .2
                     Fiscal Year 2004 Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
                                   Budget by Appropriation Categories . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
                     Performance Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
                                   Education and Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
                                   Rated Retention . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
                                   Operational Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
                     Financing the Fight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
                     Working Capital Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8
                                   Sustained Exceptional Logistics Support to the Warfighter . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9
                                   Supply Management Activity Group . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10
                                   Depot Maintenance Activity Group . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12
                                   Information Services Activity Group . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13
          Financial Statements
                     General Fund
                                   Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .17
                                   Footnotes to the Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .25
                                   Consolidating and Combining Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .71
                                   Required Supplementary Stewardship Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .83
                                   Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .93
                                   Audit Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .103
                     Working Capital Fund
                                   Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .113
                                   Footnotes to the Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .121
                                   Consolidating and Combining Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .155
                                   Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .167
                                   Audit Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .171




                                                                                                                                                                                  i
       United States Air Force • 2004 Annual Financial Statement



                                       SECRETARY OF THE AIR FORCE
                                                    WASHINGTON




                                                   November 2004



                                    Message from the Secretary of the Air Force




     Fiscal Year 2004 saw the Airmen of the United States Air Force consistently rise to ever-greater
     challenges. Whether conducting operations in Afghanistan, Iraq, over the Homeland or elsewhere,
     they continued to prove America is home to the greatest air and space force in history.

     The dedication shown by our Airmen is rooted in the fact that the Air Force is a team—a team of
     professionals. Every Airman is part of a cohesive whole. Financial managers are certainly important
     contributors and enable the efforts of the entire force. If strategic planning is the brain of any
     successful organization, and a talented workforce the heart, then superb financial management is the
     lifeblood of a dynamic, world-class enterprise.

     I am proud of the Air Force’s responsible stewardship of resources. In the past year we launched
     our Financial Management Strategic Plan, providing a unifying vision for better service, performance,
     oversight and visibility. Air Force financial management professionals have embraced our continuing
     adaptation of processes, improving support to all Airmen.

     These financial statements illustrate both the success of the Air Force over the past year and our specific
     financial management success. They comply with the requirements of the Chief Financial Officer Act.
     The financial information addresses both our General Fund and Working Capital Fund activities.

     The Airmen responsible for financial management—Active, Reserve, Guard, and Civilian—are models
     of leadership and accountability. They are, indeed, “Financing the Fight” and providing the best
     capabilities for the Air Force and for our country.




ii
                                 DEPARTMENT OF THE AIR FORCE
                                              WASHINGTON DC
                                       OFFICE OF THE ASSISTANT SECRETARY




                                              November 2004

                                             Message from the
                                    Assistant Secretary of the Air Force,
                                  Financial Management and Comptroller



I am pleased to report that during Fiscal Year 2004, the Air Force Financial Management professionals
continued their outstanding support to ongoing military operations and made great strides in improving our
financial management processes and systems throughout the world. Even as the Air Force as a whole
responded to the tremendous demands of operations IRAQI FREEDOM and ENDURING FREEDOM,
along with other global commitments, our financial managers provided improved support to our
warfighters and home stations alike.

One crucial key to this success was the continued implementation of our Strategic Plan, unveiled last
October. It effectively links our financial management vision, mission, goals and objectives with those of
the Air Force so that we are fully aligned as an enterprise. Further, it focuses our attention on our
three most important strategic elements: the warfighter, strategic resourcing and cost management, and
information reliability, and integration. The plan has been the foundation of our relentless drive to con-
tinually improve our financial services delivery based on performance-based principles.

We have also continued our steady progress in our Transformation imperative across the Air Force. These
efforts have matured into a broad program of continuous improvement that is now firmly rooted in the
culture of Air Force financial management. I am extremely proud of the way our professionals have
embraced the concept of using the best ideas to achieve greater efficiencies and improve our support.

The Fiscal Year 2004 Financial Statements likewise reflects this evolution and efficiency. You will notice it
contains a more concise Management Discussion and Analysis section that more effectively summarizes the
great achievements of the Air Force over the past year. It also fulfills the requirements of the Chief
Financial Officer Act, documents the expenditures devoted to our General Fund and Working Capital
Fund (addressed in the accounting statements) and reviews selected performance measures established
as part of the Government Performance and Results Act.

America can be proud of the good stewardship of our resources provided by Air Force financial man-
agement professionals. They are indeed supporting our nation by “financing the fight” with integrity,
selfless service, and excellence.




                                             Financing the Fight


                                                                                                                iii
Management Discussion and Analysis
 “Our United States Air Force reflects the visions of the founders of airpower. We foster ingenuity in the
 development of the world’s most professional Airmen. We thrive on transitioning new technologies into
 joint warfighting systems and drive relentlessly toward integration to realize the potential of our air and
 space capabilities. We are America’s Airmen—confident in our capability to provide our Nation with dom-
 inance in air and space.”
                                                                                                General John Jumper, USAF
                                                                                                              Chief of Staff




 General Fund                                                    In line with these investments, we have worked to enhance
                                                                 the systems that enable our Airmen to meet the threat
 Air Force in Action                                             now and into the future. While America’s adversaries
 Global vigilance, reach, and power—This is the vision of        pursue capabilities to compete with our dominance, we are
 America’s Air Force: A vision that continued to be realized     seeking to enhance and expand our capabilities with
 during fiscal year 2004. The Air Force proved its ability to    aircraft, space systems, and technology using transforma-
 produce unprecedented success across the spectrum of            tional advances in air and space systems, and technology to
 conflict, around the world and in space. Continued domi-        allow us continued dominance.
 nance in this new era requires new thinking and new flexi-
                                                                 While our Airmen ensure our quality force, our legacy
 bility. Our Airmen responded with astonishing effective-
                                                                 systems cannot always ensure air and space dominance in
 ness in the Global War on Terrorism, during Operation
                                                                 future fights. Our systems and platforms must keep pace
 IRAQI FREEDOM and Operation ENDURING FREEDOM.
                                                                 with our people. We owe it to our dedicated Airmen
 From a combat controller in the desert to a B-2 crew, our
                                                                 today, and in the future, to continue these investments.
 Airmen respond to the challenges of a new era using their
                                                                 We owe it to them to continue Financing the Fight.
 skill and innovative technology to respond to insidious and
 asymmetric threats from terrorists and rogue states.

 America’s Airmen have adapted leadership, training, and
 technology to meet today’s threat and prepare for tomor-
 row’s. As you will read in this report, we recognize the
 talents of our Airmen as our greatest resource. We have,
 therefore, invested in leadership development, training, and
 education to foster the skills required of a 21st century
 force. Going a step beyond, we also invested in quality of
 life for our Airmen and their families to help them cope
 with the separations and sacrifices we demand of them
 every day. We have invested in the key technologies that
 will create an integrated force of intelligence capabilities.
 We have invested in manned, unmanned, and space tech-
 nology. But most importantly, we have invested in the
 training required for our highly-skilled personnel to achieve
 their fullest potential.



                                                                                                                               1
                 United States Air Force • 2004 Annual Financial Statement




    Air Force Organizations                                          Training Command (AETC), and Air Force Materiel
                                                                     Command (AFMC).
    In FY 2004, Air Force active duty members, Air National
    Guardsmen, Reservists, and civilians responded to unprece-       Direct Reporting Unit (DRU)
    dented challenges with unprecedented performance.                DRU is a subdivision of the Air Force, directly subordinate
    Calling upon the Air Force Core Values of “Integrity First –     to the Chief of Staff, US Air Force. A DRU performs a mis-
    Service Before Self – Excellence In All That We Do,” Air Force   sion that does not fit into any of the MAJCOMs. A DRU
    people proved time and time again that they comprise the         has many of the same administrative and organizational
    preeminent air and space power on the planet.                    responsibilities as a MAJCOM. Examples of DRUs are the
    The integrated components of our Air and Space                   Air Force Academy (USAFA), the Air Force Studies and
    Expeditionary Force were involved in operations including        Analysis Agency (AFSAA), and the Air Force Operational
    major theater war, homeland security, and humanitarian           Test and Evaluation Center (AFOTEC).
    relief. Air Force people and organizations operated with         Field Operating Agency (FOA)
    unprecedented effectiveness and efficiency, all while con-
                                                                     FOA is a subdivision of the Air Force, directly subordinate
    stantly preparing to face the challenges of the future.
                                                                     to a Headquarters US Air Force functional manager. An
    Major Commands, Direct Reporting Units,                          FOA performs field activities beyond the scope of any of
    Field Operating Agencies                                         the major commands. The activities are specialized or
                                                                     associated with an Air Force-wide mission and do not
    The Air Force is organizationally aligned into 9 Major
                                                                     include functions performed in management headquarters,
    Commands (MAJCOMs, including the Air Force Reserve
                                                                     unless specifically directed by a Department of Defense
    and Air National Guard), with 13 Field Operating Agencies
                                                                     (DoD) authority. Examples of FOAs are the Air Force
    (FOAs), and four Direct Reporting Units (DRUs).
                                                                     Intelligence Analysis Agency (AFIAA), the Air Reserve
    Major Command (MAJCOM)                                           Personnel Center (ARPC), and the Air Force Services
                                                                     Agency (AFSA).
    MAJCOM is a major subdivision of the Air Force, directly
    subordinate to Headquarters US Air Force. MAJCOM                 Fiscal Year 2004 Results
    headquarters are management headquarters and thus have
    the full range of functional staff. Examples of MAJCOMs
                                                                     Budget by Appropriation Categories
    are Air Combat Command (ACC), Air Education and                  Six major appropriation categories comprised the Air Force
                                                                     FY 2004 budget, as follows:

                                                                     •   Operations and Maintenance (O&M): Pays the salaries
                                                                         and benefits of civilian employees and other day-to-day
                                                                         operating costs (e.g., fuel, spare parts).

                                                                     •   Military Personnel (MILPERS): Finances the salaries
                                                                         and benefits of uniformed personnel.

                                                                     •   Procurement (PROC): Funds Air Force investment in
                                                                         major systems.

                                                                     •   Research, Development Test and Evaluation (RDT&E):
                                                                         Funds system development.

                                                                     •   Military Contruction (MILCON): Pays for facilities
                                                                         construction.




2
•   Military Family Housing (MFH): Provides for the oper-
    ation, maintenance, and construction of housing units.

Performance Measures: Quality People
Education and Training
Training is a vital part of the Air Force mission, instructing
new Airmen and retraining Airmen on the fundamentals of
their career areas and the detailed tasks they will face. For
example, the 65-day Security Force Apprentice course and
the 79-day Security Force Officer course teach Airmen all
aspects of their multi-faceted career field missions—
missions they will perform around the globe.

This year saw the worldwide connection of Air Force
Education Centers through a web-based system called Air
Force Virtual Education Center (AFVEC). AFVEC is avail-          Commissioned Officer (ANG SatNCO) Academy at
able through the Air Force Portal and offers a wide array of     Andrews AFB, Maryland. This hybrid approach to the
on-line capabilities to empower the students to actively         traditional in-residence course allows students to attend
participate in all aspects of their education—view their         NCO PME two evenings a week for fifteen weeks, com-
education record, apply for Tuition Assistance, schedule a       pleting the final two weeks at the McGhee-Tyson ANG
counseling or testing appointment, and view their                NCO Academy, Knoxville, Tennessee. NCOs with unique
Community College of the Air Force degree progress.              duty or personal circumstances benefit as they remain at
Each Education Center uses the Air Force Automated               home station while meeting their PME requirement.
Education Management System (AFAEMS) to manage mili-             Nearly a decade old, the ANG SatNCOA Program has
tary members’ complete education record, now the official        been validated by the College for Enlisted PME and
system of record for Air Force Voluntary Education data.         Community College of the Air Force as equivalent to the
                                                                 Air Force NCO Academy in-residence school. The
The Community College of the Air Force offers numerous           SatNCOA program leverages satellite broadcast technolo-
courses leading to an associate degree and at the close of       gies to present interactive lessons through two-way audio
FY 2004 had awarded a total of 254,900 degrees.                  and one-way video live feeds, moderated by in-classroom
The newest Joint Professional Military Education (JPME)          instructors. Students are joined by others participating
course, the Joint Advanced Warfighting School, or JAWS for       from geographically-separated sites. Working on the job
short, began August 2004 at Norfolk Navy Base for eight          while concurrently enrolled in the course, both Air
select Air Force officers. JAWS was designed to produce          National Guard and active duty NCOs agree on the
graduates from all the Services able to create campaign-         practicality of immediately putting into practice lessons
quality concepts, employ all elements of national power,         learned from leadership, management, and communications
accelerate transformation and succeed as joint force opera-      discussions.
tional and strategic planners and commanders. JAWS will          Rated Retention
educate six Majors and two Lt Colonels this year.
                                                                 A special subset of the retention challenge is maintaining
Graduates will receive single phase Joint PME credit
                                                                 the health of the rated force in order to preserve the
(phase I & II) upon program completion.
                                                                 warfighting capability of the Air Force. The Air Force
In a move to explore alternative methods for completing          boasts the world’s most efficient and talented support
in-residence enlisted PME, active duty technical sergeants       force, combined with technologically superior, integrated
enrolled in the unique Air National Guard Satellite Non-         air and space systems. However, retention of skilled pilots,




                                                                                                                                3
                 United States Air Force • 2004 Annual Financial Statement



    navigators, and Air Battle Managers (ABMs) remains crucial
    to accomplishing operational missions.

    Further, at a cost of several million dollars to train and
    season, a veteran pilot is the Air Force’s most expensive
    personnel asset. Prior to September 11, 2001, a strong
    economy coupled with unprecedented airline hiring con-
    tributed to a shortage of 1,239 pilots—9% below the
    requirement by the end of FY 2001. In FY 2002 the pilot
    shortfall dropped to 690 pilots, 5% below the requirement.
    By the end of FY 2003, the pilot shortfall was 323 pilots,
    2% below the requirement. This trend has continued
    through FY 2004 with a predicted surplus of approximately
    300 pilots by the end of the year. This inventory increase is
    attributable to the decline in airline pilot hiring, combined
    with the positive retention effects of Air Force initiatives
    such as Aviator Continuation Pay (ACP), in addition to the
    Permanent Rated Recall and Retired Rated Recall programs.
    However, pilots with the right skills and experience will still
    be in short supply due to low production in the mid-1990s.
    In FY 2004, the pilot long-term bonus “take rate” (our best       hiring by the major airlines has shrunk following September
    indicator of pilot retention trends) is approximately 65%.        11th (from nearly 4,000 new hires in FY 2001 to 518 in FY
    This is a substantial increase from a 47% “take rate” in FY       2003), two important points need to be considered: 1) that
    2002 and only a 30% “take rate” in FY 2001. While airline         during lean economic times, the airlines tend to hire a
                                                                      greater percentage of former military pilots (up to 75%),
                                                                      and 2) that the long-range forecast of airline hiring shows
                                                                      increases in the coming years due to an increase in airline
                                                                      pilot retirements beginning in 2005. Even so, as FY 2004
                                                                      draws to a close, there are still 8,936 major airline pilots on
                                                                      furlough. As such, the outlook on pilot retention is improv-
                                                                      ing, but will continue to be a significant issue for the long-
                                                                      term health of Air Force warfighting capability.

                                                                      Until the bonus was offered to navigators in FY 2003, 30%
                                                                      of the navigator force was retirement eligible in the follow-
                                                                      ing two years and nearly half could have retired within four
                                                                      years. Now, as a result of the FY 2003 and FY 2004 navi-
                                                                      gator ACP program, over half of those navigators accepted
                                                                      bonus agreements, cutting the retirement eligible pool by
                                                                      50%. The bonus influenced navigators to stay in the serv-
                                                                      ice longer and provided relief for HQ staff pilot shortfalls
                                                                      (HQ level staff manning raised overall to 90%, while pilot-
                                                                      rated staff positions were manned at 79%). ABM shortfalls
                                                                      were no less acute as ABM inventory was estimated to be
                                                                      approximately 11% short of requirements. ABMs are a
                                                                      resource critical to Air Force warfighting capabilities as they



4
operate in low-density/high-demand missions and aircraft           The MAJCOMs determine the reasons for execution devia-
(AWACS, JSTARS, and GTACS). The ABM bonus has been                 tion and required course of action. These evaluations
a great success with an aggressive “take rate” of approxi-         provide insight to possible future-year requirements.
mately 73% for FY 2004. As a result, the ABM ACP has
accelerated ABM inventory wellness by three full years.            As of 30 June 2004, the Air Force executed 77.4% of the
                                                                   PB Flying Hour Program and is projected to exceed the PB
Overall, the Air Force’s integrated focus on retention initia-     for the full year. Flying Hour Program execution hours
tives will continue to emphasize long-term health of the           include active Air Force, Congressional-funded O&M hours.
rated force. Initiative options include: increasing active         They do not include incrementally funded contingency
duty service commitments, increasing compensation,                 support hours, Transportation Working Capital Fund hours,
managing operations tempo, and enhancing quality of                foreign national reimbursable training hours, Special
life programs.
                                                                   Operations hours or RDT&E.
Operational Performance                                            Weapon System Performance Metrics
Air Force Flying Hour Program                                      The Air Force uses a variety of metrics to gauge the
The Air Force Flying Hour Program was developed to                 performance of its weapon systems and organizations.
provide training opportunities to prepare units to support         Metrics are barometers for measuring the effectiveness of
their mission to the warfighting commanders. The execu-            our organizational structures, our training, manpower and
tion of the President’s Budget (PB) Flying Hour Program is         equipment levels, quality of spare parts, maintenance
impacted by contingency operations support, maintenance            actions, and a variety of other indicators of our ability to
issues, fact-of-life impacts, aircraft flight operations suspen-   provide mission-ready weapon systems to the warfighter.
sions, aircraft delivery delays, weapons system retirements,       Chief among these performance metrics are Mission
and approved program changes. Though the execution of              Capable rates, Not-Mission Capable rates, Cannibalization
                                                                   rates, and engine and supply measures.
the Flying Hour Program does not define unit readiness, it
can be a forward indicator of possible readiness issues.




                                          Mission Capable Rates
                78                   76.5%
                     75.9%                   76.1%                                      76.1%
                             75.3%                                                              75.6%
                76
                                                                      73.3%
                74
      Percent




                                                                              72%                                FY 03
                72
                                                        69.8% 70.1%                                              FY 04
                70
                68
                66
                     Aggregate           Fighter           Bomber        Strategic          Other
                                                                                            Rates as of 30 Jun 04




                                                                                                                                  5
                United States Air Force • 2004 Annual Financial Statement




    Mission Capable Rates                                          year of improving supply rates, and the lowest TNMCS
                                                                   rate since FY 1994.
    Mission Capable rates are perhaps the best-known yard-
    stick for measuring the readiness of Air Force aircraft.       Other Key Metrics
    Mission Capable rates reflect the percentage of aircraft, by
                                                                   Air Force weapon system performance measures for FY
    fleet, capable of performing at least one of its assigned
                                                                   2004 provide a snapshot of the tremendous efforts of the
    missions. As of 30 June 2004, the aggregate Mission
                                                                   logistics community to support and provide combat-capa-
    Capable rate was 75.3%, a slight decrease from the FY
                                                                   ble forces that are organized, trained, and equipped to
    2003 rate of 75.9%. This rate is based on a combined
                                                                   provide efficient and effective combat and combat support
    Mission Capable rate of A/O-10, B-1, B-2, B-52, C-141, C-
                                                                   efforts across the full spectrum of military operations.
    130, RC-135, C-5, C-17, E-3, F-15, F-15E, F-16, F-117,
    HC-130, KC-10, KC-135, HH-60, RQ-1, and U-2 aircraft,          Cannibalization (CANN) rates reflect the number of canni-
    categorized into Fighter, Bomber, Strategic, and Other.        balization actions that occur per 100 sorties for a particular
    The C-130 and RC-135 were added to the aggregate fleet         weapon system. The FY 2004 aggregate CANN rate, as of
    for FY 2004, which accounts for some of the rate change        30 June 04, dropped 19% from the FY 2003 rate. The FY
    from FY 2003.                                                  2004 rate of 6.5 CANNs per 100 sorties represents the
    Non-Mission Capable Rates                                      lowest CANN rate since FY 1994.

    Total Non-Mission Capable for Maintenance (TNMCM) is a         Engine Not Mission Capable-Supply (ENMCS), the key
    measure of a maintenance organization’s ability to fix air-    measure of engine and aircraft readiness rates for Air Force
    craft quickly and accurately and Total Non-Mission Capable     engines, dropped from 10.1% to 8.5%, the second consec-
    for Supply (TNMCS) measures spare parts availability. The      utive year of improvement, and the lowest rate in the past
    FY 2004 aggregate fleet TNMCM rate, as of 30 June 04,          six years. Major improvements in ENMCS were seen in
    rose slightly from 19.3% to 20.1%. The 30 June 04              engines powering fighter, bomber, and strategic airlift
    TNMCS rate was 10.4%, representing the fifth consecutive       aircraft. Engine-time-on-wing (ETOW) rates, a key measure




6
of durability of the aircraft fleet, improved for the fighter and
bomber groups, while declining 10% for engines powering
strategic airlift aircraft. ETOW rates for engines powering
the F-15E, B-1, and A-10 reached their highest levels
recorded since FY 1998. The number of War-Ready
Engines returned to pre-war levels as of June 2004.
Investments in engine modifications, spare parts, and
reliability-centered maintenance continued to pay “quality”
dividends for our engine fleet throughout FY 2004.

 Aircraft Mission Capable rates are but one indicator of
enhanced weapon system readiness. Programmed depot
maintenance and fleet modernization activities are also
critical to maintaining mission-ready aircraft. The Air Force
strives to make continual improvements in business                  3.   Make processes efficient and effective to produce
practices designed to increase the efficiency and                        accurate and relevant financial information comple-
effectiveness of our depot maintenance programs.                         mented by sophisticated decision support.
Financing the Fight                                                 4.   Reduce our cost structure by employing leading-edge
Financial Management Transformation                                      technologies that continuously streamline financial
                                                                         management processes and increase capabilities.
Air Force Financial Management (FM) envisions an Air
Force operating at peak effectiveness and efficiency with           5.   Provide our customers with world-class financial services.
every dollar striking the correct balance among supporting
                                                                    Translating these goals into strategy led to three distinct
the mission, maintaining the infrastructure, and taking care
                                                                    strategic themes:
of our people. We will achieve that vision by providing Air
Force leaders with accurate, relevant, and timely informa-          Warfighter Support: We will remain an expeditionary-
tion to make the right strategic choices while making               focused workforce trained and prepared to support
existing operations more effective and efficient. In addition,      deployed forces.
we see Airmen resolving pay issues without a trip to
                                                                    Strategic Resourcing and Cost Management: We will
Finance, with access to face-to-face support when needed.
                                                                    link strategy to measurable improvements in effectiveness
In October 2003, we created a roadmap that translates the           and efficiency.
vision into concrete, actionable, and measurable steps. It
integrates ongoing transformation initiatives into the
strategy and communicates priorities, focuses efforts, and
serves as a filter to help determine where to invest time,
people, and resources.

The strategic goals outlined in the plan are:

1.   Become a partner in strategic Air Force decisions.

2.   Recruit, prepare, and retain a well-trained and highly
     educated professional team for today and tomorrow.




                                                                                                                                      7
                 United States Air Force • 2004 Annual Financial Statement



    Information Reliability and Integration: We will pro-              and significantly reduced loss of funds due to non-sufficient
    vide relevant, timely, accurate, and reliable information to       fund checks or closed accounts.
    support decision-making.
                                                                       Strengthening partnerships among our community,
    FM Transformation is our catalyst to achieving the FM              personnel, logisticians, planners, programmers, and account-
    vision. In 2004, FM Transformation Initiatives resulted in:        ing services is a critical element of FM transformation.
                                                                       Effective collaboration among these groups is necessary as
    Increasing funds available at base level by implement-
                                                                       our processes, systems, and policies are integrated.
    ing new systems such has Wide Area Workflow and trans-
                                                                       Integrated transformation initiatives resulted in cross-
    forming processing of financial documents and oversight of
                                                                       functional re-engineering of processes, partnerships on pay
    transactions.
                                                                       and service delivery, and collaboration on a number of
    Improving customer services by increasing capabilities             E-Gov initiatives.
    in MyPay and LeaveWeb systems. We also provided easier
                                                                       Improving communications and learning within the
    access to those systems by strategically deploying kiosks
                                                                       FM Workforce continues to be a key transformational
    closer to where our customers work, eliminating wasted
                                                                       initiative of Air Force Financial Management. The FM
    transient time between duty locations, and finance offices.
                                                                       Knowledge Management leverages web tools to share
    Supporting the deployed environment and delivering                 information, train the workforce, and share best prac-
    tools to the Combat Comptroller. Transformation                    tices—a key enabler to transforming our workforce into
    initiatives in this arena reduced cycle time of financial trans-   the next century.
    actions from days to hours by establishing a central
                                                                       Our transformation efforts don’t stop there. We are
    processing site for deployed financial transactions.
                                                                       focused on moving forward by prioritizing key initiatives
    Transformation eliminated shipping and document storage
                                                                       and providing high-quality, less costly, customer-focused
    while achieving near-real-time system input. In addition,
                                                                       service delivery through use of the web and call center
    we expanded the ATM system so our deployed forces have
                                                                       technology. We also want to continue providing relevant
    better access to manage banking needs. Finally, military
                                                                       and reliable information, supporting decision making, and
    paper check conversion processing and the eCASHTOOL
                                                                       achieving unqualified audit opinions. We are working to
    Web site provide deployed financial managers with better
                                                                       promote cost and performance management, a govern-
    financial tools to get their jobs done quickly and accurately
                                                                       ment-wide goal of the President’s Management Agenda, by
                                                                       incorporating activity costs into our business management
                                                                       systems, beginning with functional feeder systems and
                                                                       ultimately in an Air Force-wide cost accounting system.
                                                                       Finally, through performance-based budgeting we want to
                                                                       integrate strategy, performance, and metrics into the pro-
                                                                       gramming, budgeting, and execution process, targeting
                                                                       decisions that allow us to evaluate outcomes against estab-
                                                                       lished targets. Transforming financial management leads the
                                                                       way for the financial management community to continue
                                                                       to Finance the Fight!

                                                                       Air Force Working Capital Fund
                                                                       Air Force Materiel Command (AFMC) supports Air Force
                                                                       warfighters and operations via four major business areas
                                                                       that operate as revolving funds, i.e., providers charge users
                                                                       for the goods and services provided. AFMC accounts for



8
more than 95 percent of Working Capital Fund (WCF) rev-       those flying the mission, including those who keep the
enue and expense activity (excluding the Transportation       aircraft flying.
Working Capital Fund, which is managed by the United
                                                              For the fourth straight year, the Air Force has shown
States Transportation Command). The WCF consists of
                                                              improvement across major readiness indicators. The
three functions: Supply Management, Depot Maintenance,
                                                              right application of management involvement was needed
and Information Services. These functions, referred to as
                                                              to produce these results, including direct shipments from
activity groups, supply singular goods and services to Air
                                                              vendors to warfighters and finding the fastest transporta-
Force and DoD customers. Supply Management provides
                                                              tion routes. Aggressive work and coordination among
managers expedited repair, replenishment, and inventory       AFMC, Air Mobility Command, and commercial carriers
control for spare parts and associated logistics support      led to this success.
services to fulfill Air Force needs during war and peace-
time. Depot Maintenance provides economical and               Supply Chain Managers (SCMs) continued to provide out-
responsive repair, overhaul, and modification of aircraft,    standing spares support to the warfighters across the
missiles, engines, other major end items, and their           board. Collaboration with upstream suppliers and the
associated components. The Information Services business      Defense Logistics Agency (DLA) drove significant reduc-
area provides for the maintenance and development of          tions in Customer Wait Time (CWT), improving aircraft
                                                              availability. Implementation of the Customer Oriented
automated information systems for information-related
                                                              Leveling Technique (COLT) drove significant reductions in
activities of the Air Force and DoD, along with certain
                                                              customer wait time for consumable spares to depot
other Government agencies.
                                                              maintenance. COLT uses DLA data to optimally set
WCFs allow the Air Force to accomplish the following:         consumable stock levels. Now deployed at all three AFMC
                                                              depots, COLT is directly responsible for reducing CWT
•   Ensure readiness through reduced support costs,           from a high of eight days in 2001 down to three days in
    stabilized rates, and customer service                    2004. Similar efforts for reparable items continued to reap
                                                              improvements in other areas. In FY 2004, aircraft awaiting
•   Provide flexibility to adjust customer support needs in
                                                              parts hit an all-time low of 1.7M hours, down from the FY
    response to real-world situtations
                                                              2000 level of 6.0M hours.
•   Focus management attention on net results, including
                                                              Improving mission capable rates for aircraft and engines
    costs and performance
                                                              was not the only way AFMC enhanced Air Force combat
•   Identify the total cost of providing support products     power. Since the end of FY 2000, Depot Maintenance has
    and services

•   Establish strong customer/provider relationships

Sustained Exceptional Logistics Support to
the Warfighter
AFMC personnel consistently step forward showing their
dedication toward a common goal—supporting the
warfighter. Year after year, AFMC men and women
diligently strive to ensure America’s warfighters have the
capabilities required to carry out the mission. Warfighter
sustainment experts work around the clock to get mission-
critical parts to our deployed people around the globe.
The mindset is that there is nothing more important than




                                                                                                                            9
                  United States Air Force • 2004 Annual Financial Statement



     increased the number of aircraft in the hands of the             AFMC people have risen to the challenges of supporting
     warfighter by reducing flowdays and improving on-time            ongoing Global War on Terrorism operations as they con-
     performance. Currently, on-time performance is at an all         tinue to do for Operation Noble Eagle. Simply by doing
     time high, meeting or exceeding schedule commitments             the critical work of supply, maintenance, and logistics bet-
     more than 90 percent of the time, while maintaining high         ter and faster, AFMC dramatically improved support to Air
     quality standards. More than 99 percent of our engines are       Force warfighters.
     produced defect-free and components average only three
                                                                      Supply Management Activity Group
     defects for every hundred produced. FY 2004
     aircraft production was on target (445 produced of 445           The Supply Management Activity Group (SMAG) provides
     scheduled). War Readiness Engine status is the best it’s         policy, guidance, and resources to meet Air Force needs for
     ever been. Most engine levels are at or above 100 percent.       spare parts. SMAG manages approximately two million
     Depot Maintenance, in concert with the Supply Chain              items including weapon systems spare parts, medical/dental
                                                                      supplies and equipment, and items used for non-weapon
     Managers, has worked to provide each of the operating
                                                                      systems applications. Materiel procured from vendors held
     commands with the required materiel so that mission
                                                                      in inventory is for sale to authorized customers.
     accomplishment is guaranteed.
                                                                      SMAG consists of four divisions: the Materiel Support
                                                                      Division (MSD), General Support Division (GSD),
                                                                      Medical/Dental Division, and the United States Air Force
                                                                      Academy Cadet Issue Division. AFMC manages MSD and
                                                                      GSD. Headquarters United States Air Force manages the
                                                                      Medical/Dental Division and Air Force Academy Cadet
                                                                      Issue Division. Since the onset of FY 2002, Headquarters
                                                                      Defense Logistics Agency/Defense Energy Service Center
                                                                      assumed management of the Fuels Division.

                                                                      MSD is responsible for Air Force-managed, depot-level
                                                                      reparable spare parts, and some consumable spares. The
                                                                      principal products of MSD are serviceable spare parts and
                                                                      assemblies unique to Air Force weapon systems.

                                                                      The Retail Operations of the WCF are comprised of the
     AFMC continues to be the premier Air Force Information           General Support, Medical Dental, and United States Air
     Technology (IT) center that provides market-leading IT           Force Academy Divisions. Although each division operates
     solutions that support our warfighters. During FY 2004,          independently, all purchase large quantities of commodities
     AFMC was able to upgrade a system to operate as a web-           in order to sell small quantities directly to the ultimate con-
     based asset visibility tool in a five-week period. This          sumer (supporting the warfighter). Large bulk buys allow
     request revolutionized the way the Air Force and other           the Air Force to take advantage of the economies of scale
     military and civilian groups use the vast repository of supply   and achieve significant cost savings. Additionally, each divi-
     and transformation data. To support our Security Forces, a       sion concentrates its efforts in a specific area of expertise.
     mobile computing solution was developed which uses
                                                                      The GSD items support installation maintenance and
     Personal Computing Assistants. Also, a Web-based Mission
                                                                      administrative functions, field and depot maintenance of
     Capable Asset Sourcing System (WebMASS) was developed
                                                                      aircraft and other systems. GSD supports more than 150
     for our warfighters. This project was specifically designed
                                                                      Air Force installations throughout the world.
     to help deployed users work Mission Capable support in
     low bandwidth environments. It also allows the elimination       The Surgeon General of the Air Force is responsible for the
     of the requirement to deploy a specialist to establish           overall management of the Medical/Dental Division. This
     Standard Base Supply System (SBSS) connectivity in the           peacetime operating authority provides the effective sup-
     deployment environment.                                          port necessary to maintain established norms in the health



10
care of USAF active military, retirees, and family members.     •   Logistics Enterprise Architecture (LOGEA)—LOGEA is
The war reserve materiel (WRM) requirement of this divi-            an initiative to develop a single authoritative strategic
sion is to provide medical supplies and equipment vital to          map of future Logistics business practices, systems,
support forces in combat and contingency operations.                and organizations. It is a single authoritative source
                                                                    that defines operating and systems models, aligns busi-
The United States Air Force Academy Cadet Issue Division
                                                                    ness and IT initiatives, and provides a vehicle to ensure
finances the purchase of uniforms, uniform accessories,
                                                                    transformation coordination across the Air Force and
and computers for sale to cadets. The division’s customer
                                                                    outside the Air Force.
base includes more than 4,000 cadets who receive distinc-
tive uniforms procured from a number of domestic manu-          •   Advanced Planning System (APS)—APS aims to
facturing contractors.                                              improve the process of translating warfighter needs
                                                                    into executable logistics system support plans and
Customers, Products, and Services                                   schedules. By emphasizing collaboration with cus-
In addition to the management of various inventories, the           tomers and suppliers, it seeks to optimize activities
SMAG provides a wide range of logistics support services,           and resources across the Air Force supply chain.
including requirements forecasting, item introduction, cata-
                                                                •   FY 2004 Metrics Way Ahead—HQ AFMC/LG recog-
loging, provisioning, procurement, repair, technical support,
                                                                    nizes Aircraft Availability (AA) as the organizational
data management, item disposal, distribution management,
                                                                    focus and is implementing a new approach to the FY
and transportation. SMAG provides this support to a vari-
                                                                    2004 Supply Performance Metrics. Metrics that show
ety of customers. The supply business also provides initial
                                                                    a high correlation to AA, known as Performance
provisioning support to the Air Force Acquisition Executive.
                                                                    Measures, will be formally reported. These measures
SMAG Transformation Initiatives                                     include Mission Capable hours and CWT.
The SMAG is implementing a major redesign of the spares
supply process through a set of initiatives designed to
improve support to the warfighter. These initiatives will
result in a fundamental reshaping of the internal manage-
ment processes and data systems used on a daily basis to
buy, repair, and distribute the thousands of different items
needed to maintain weapon systems in a Mission Capable
status. Five primary initiatives address key areas of oppor-
tunity within the spares process.

•   Purchasing and Supply Chain Management (PSCM)—
    When implemented, PSCM will integrate purchasing
    and supply processes into a single end-to-end process
    that spans the Air Force supply system, reducing sup-
                                                                Customer Support Performance
    ply chain operating costs and improving warfighter
                                                                Measures
    readiness.                                                  Mission Capable hours and CWT allow managers to assess
                                                                quality of spares support provided and plan corrective
•   Weapon System Supply Chain Management (WS SCM)
                                                                action when needed. Mission Capable hours are accrued in
    —WS SCM utilizes the private sector and sister servic-
                                                                a given month for items affecting mission capability that are
    es best practice of creating a supply chain manager
                                                                on backorder. For every day during the month the requisi-
    position that reports directly to the “CEO” or the Air
                                                                tion is unfilled, 24 hours are assigned to the requisition.
    Force equivalent, System Program Director (SPD). It
                                                                CWT measures the average time elapsed between issuance
    integrates the weapon system supply chain to maxi-
                                                                of a customer order and satisfaction of that order, including
    mize spares support to achieve weapon system
                                                                the wait time between the retail supply issue and delivery
    availability.
                                                                to the base customer—expressed in days.




                                                                                                                                11
                  United States Air Force • 2004 Annual Financial Statement




     Financial performance measures                                      warfighter demands. During wartime or contingencies, the
                                                                         group shifts to surge repair operations and realigns capacity
     SMAG measures financial performance based on the Net
                                                                         to support the warfighter’s immediate needs.
     Operating Result (NOR) for MSD and GSD. The NOR is
     the difference between revenue and expenses, i.e., a bot-           Customers, Products, and Services
     tom-line profit and loss indicator. The NOR objective of an
                                                                         DMAG provides major overhaul and repair of systems and
     activity group is to break even over a two-year budget
                                                                         spare parts while striving to meet or exceed required stan-
     cycle. Setting rates that effectively offset the prior year net
                                                                         dards for quality, timeliness, and cost. Both the AFMC
     profit or loss accomplishes this objective. Revenues are
                                                                         depots and contract operations accomplish these goals.
     amounts earned as a result of normal operations and usual-
     ly result from sale of, or reimbursements for, goods and            Depot maintenance supports a variety of customers includ-
     services provided to DoD activities, other federal govern-          ing the Air Force Major Commands, Air National Guard
     ment agencies, and the public. Expenses are the use of              (ANG), Air Force Reserve Command (AFRC), SMAG, and
     resources during an accounting period in carrying out the           other customers. In addition to supporting the warfighter
     DoD’s mission. They occur from rendering services, deliv-           with depot level repair of weapon systems, DMAG pro-
     ering or producing goods, or carrying out other mission             vides storage, reclamation, and regeneration for equipment
     related activities and relate to normal operating activities.       not currently used by the active forces of all military servic-
     Also used is Unit Cost Target (UCT), a limitation imposed           es. This work is done at the Aerospace Maintenance and
     by the Office of the Under Secretary of Defense                     Regeneration Center at Davis-Monthan AFB, Arizona.
     (Comptroller) on the annual operating budget (AOB),                 Contract depot maintenance is transitioning to be financed
     restricting obligations to a percentage of gross sales. The         directly by the using commands, the Supply Management
     AOB is the funding document providing the authority to              Activity Group, and other customers.
     incur costs. The UCT is determined by dividing costs by
     sales. A definition for costs is an obligation (excluding initial   The DMAG has two principal objectives. The first objec-
     and capital expenses) and credit returns.                           tive is to provide organic depot repair capability for fielded
                                                                         and emerging weapon systems, so that warfighters have the
     Depot Maintenance Activity Group                                    mission-essential equipment. Secondly, DMAG’s intent is to
                                                                         ensure the ability to rapidly respond to those warfighter
     The Depot Maintenance Activity Group (DMAG) repairs sys-
                                                                         requirements driven by contingency operations. To accom-
     tems and spare parts which support the warfighter in peace-
                                                                         plish this, short and long term strategies must be used.
     time and provide sustainment to combat forces in wartime.
                                                                         The depot maintenance strategic plan guides the DMAG to
     In peacetime, DMAG enhances readiness by efficiently and
                                                                         have the right workload capacity and capability to meet
     economically repairing, overhauling, and modifying aircraft,
                                                                         depot maintenance: (a) peacetime support, (b) surge, and
     engines, missiles, components, and software to meet the
                                                                         (c) core requirements.

                                                                         To better support the services that DMAG provides to its
                                                                         customers, an integrated suite of systems, Depot
                                                                         Maintenance Accounting and Production Systems (DMAPS),
                                                                         provides improved financial, production and material func-
                                                                         tionality in support of the warfighter’s needs for quality
                                                                         organic depot maintenance. This includes improved finan-
                                                                         cial management and reporting for organic depot mainte-
                                                                         nance activities, including substantial compliance with leg-
                                                                         islative requirements, such as the Chief Financial Officers
                                                                         (CFO) Act. The DMAPS suite of systems became fully
                                                                         functional in FY 2004.




12
Transformation Initiatives                                     Financial Performance Measures
The future financials framework being developed through        Financial Performance Indicators assess the financial per-
the Air Force logistics transformation effort will be a cen-   formance of the DMAG. These indicators are designed to
trally-managed approach for both provider (AFMC) and           achieve accountability at the appropriate level and also
customer (MAJCOMs) funds, utilizing the WCF financing          measure compliance with DMAG budget objectives. An
mechanism to enhance cost awareness and provide flexibili-     aggressive cost management focus has improved DMAG’s
ty. On the provider side, the MSD and DMAG financial           ability to achieve a target Net Operating Result (NOR)—a
management operations will be merged focusing on cost          key budget objective. This will help to minimize growth in
and output. In this simplified structure, MSD and DMAG         future sales rates.
will no longer recursively pass costs between each other
through sales prior to establishing a price to the ultimate
                                                               Information Services Activity Group
customer.                                                      Information Services Activity Group (ISAG) provides
                                                               technological support for 250 information systems, from
The Depot Maintenance Reengineering and Transformation
                                                               development of leading-edge technologies to the mainte-
(DMRT) initiatives include improvements to the budgeting
                                                               nance and modification of older legacy systems. ISAG
process. This is to be accomplished in part by using predic-
                                                               offers comprehensive support to its customers, including
tive modeling and statistical techniques to develop portions
                                                               the development, maintenance, integration, and
of the budgets. The model will also consider a reduction of
                                                               sustainment of combat support information systems.
manual effort currently required to prepare the workload
baseline for the budgets.                                      ISAG was established to develop and maintain automated
                                                               information systems for the Air Force, DoD, and other
Customer Support Performance
                                                               Government agencies. Two Air Force entities act as one
Measures
                                                               information technology provider activity under the com-
Customer Support Performance Measures for DMAG con-            mand of the Air Force Materiel Command, Electronic
sist primarily of Production Performance Measures which        Systems Center (ESC), at Hanscom Air Force Base (AFB),
are used to assess cost, schedule, and quality of the DMAG     Massachusetts. The two entities are the Materiel Systems
output. These are designed to achieve accountability at the    Group (MSG), located at Wright-Patterson AFB, Ohio, and
appropriate depot maintenance level, the Depot                 the Standard Systems Group (SSG) located at Maxwell
Maintenance Manager. Customer Support Performance              AFB-Gunter Annex, Alabama.
Measures monitor progress toward DMAG goals.
                                                               Customers, Products, and Services
DMAG produced aircraft in a more time-responsive man-
                                                               ISAG provides information products and services via two
ner and at a cost below the targeted amount. The Due
                                                               business lines—the IT solutions line (rate based) and the
Date Performance (ability of the depot to produce aircraft
                                                               commercial information technology (surcharge) line.
according to schedule) improved significantly compared to
a year ago and reached a command high of 93% (3%               The IT solutions business line develops, acquires, and sus-
above goal) in May of 2004. The depot performance of Air       tains automated information systems in two target markets:
Logistics Centers (ALCs) continues to have a direct impact     1) AFMC-level supply management and depot maintenance
on the warfighter’s ability to meet worldwide missions.        information systems, and 2) Air Force-wide, standardized
                                                               support systems. This includes a 24-hour, seven-day help
                                                               desk for customers to call for hardware and software sup-
                                                               port. The ISAG provides service based on service-level
                                                               agreements (SLAs) with known customers which specify
                                                               how many direct billable hours of service per year will be
                                                               sold to the customer and at what cost per billable hour.

                                                               The commercial information technology business line pro-
                                                               vides computer hardware, software, peripheral equipment,
                                                               and related services to the Department of the Air Force,


                                                                                                                             13
                  United States Air Force • 2004 Annual Financial Statement



     other agencies including DoD, and private parties (as             bursements for pass-through contract efforts and extraor-
     authorized by law) through its web-based “Virtual                 dinary expenses (e.g., mission-unique travel, equipment,
     Superstore” called “AFWay.” A small surcharge is embed-           and supplies), and the collection of commercial information
     ded into the price of the items, on equipment, and services       technology surcharges. Expenses (costs of operations)
     sold. Thousands of customers across the Air Force and             measure the resources consumed in filling customer
     DoD enjoy one-stop shopping from the on-line catalog of           orders. These costs include labor and non-labor expenses,
     computer and computer-related products and services.              both direct and overhead.

     ISAG Transformation Initiatives                                   Cash Management
     In response to changes in Air Force structure and operations,     DoD cash management policy recommends maintaining the
     technology, and customer needs, and to take better advan-         minimum cash balance necessary to meet both operational
     tage of industry core competencies, the ISAG is reshaping         requirements and disbursements in support of the capital
     itself to meet future information technology requirements for     program. Cash generated from operations is the primary
     the warfighter. The end result is an organization that is more    means of maintaining adequate cash levels.
     net-centric, building an object-oriented skills base, and con-
                                                                       Effective cash management is directly dependent on the
     centrating on architecture, integration, and independent test-
                                                                       availability of accurate and timely data on cash levels and
     ing to assure top performance and interoperability in the sys-
                                                                       operational results. Cash levels should be maintained to
     tems deployed to our warfighters. One key in this reshaping
                                                                       cover at least 7 to 10 days of operational costs as well as
     involves releasing military positions to be used in other
                                                                       cash adequate to meet six months of capital disbursements.
     warfighting roles as well as partnering with industry providers
     for the development of systems while leveraging our               Cash management efforts continue to focus on analyzing
     unparalleled acquisition and engineering expertise.               data and developing tools to identify changes in cash and
                                                                       forecast future needs for cash. Monthly, AFMC prepares a
     Customer Support Performance
                                                                       statement of sources and uses of cash, which is used to
     Measures
                                                                       identify areas of cash increases and drains and to monitor
     The current method of measuring ISAG financial perform-           performance to the recommended policy. Our continued
     ance is by the NOR, the difference between revenue and            focus on cash management has led to improved balances
     expenses. Revenue is earned through the sale of direct bill-      in FY 2004.
     able labor hours at the ISAG composite rate, direct reim-




14
                        United States Air Force




     Fiscal Year 2004
Annual Financial Statements




                                             15
                  United States Air Force • 2004 Annual Financial Statement




     Limitations of the Financial Statements
     The financial statements have been prepared to report the financial position and results of operations for the entity, pursuant
     to the requirements of the Title 31, United States Code, Section 3515(b).

     While the statements have been prepared from the books and records of the entity, in accordance with the formats pre-
     scribed by the Office of Management and Budget, the statements are in addition to the financial reports used to monitor and
     control budgetary resources which are prepared from the same books and records.

     To the extent possible, the financial statements have been prepared in accordance with federal accounting standards. At
     times, the Department is unable to implement all elements of the standards due to financial management systems limitations.
     The Department continues to implement system improvements to address these limitations. There are other instances
     when the Department’s application of the accounting standards is different from the auditor’s application of the standards.
     In those situations, the Department has reviewed the intent of the standard and applied it in a manner that management
     believes fulfills that intent.

     The statements should be read with the realization that they are for a component of the United States Government, a sover-
     eign entity. One implication of this is that the liabilities cannot be liquidated without legislation that provides resources to do so.

     The Federal Accounting Standards Advisory Board (FASAB) amended the Statement of Federal Financial Accounting Standard
     No. 6 to require the capitalization and depreciation of military equipment (formerly known as National Defense Property, Plant
     and Equipment) for fiscal years (FY) 2004 and beyond, and encouraged early implementation. Accordingly, the Department
     began the process of developing and reporting values for these assets in notes to the Balance Sheet, beginning in FY 2003.




16
                       United States Air Force




   General Fund

Principal Statements




                                            17
     United States Air Force • 2004 Annual Financial Statement




                           This page intentionally left blank.




18
Consolidated Balance Sheet—General Fund
As of September 30, 2004 and 2003 ($ in Thousands)

                                                                                                          2003
                                                                               2004 Consolidated
                                                                                                       Consolidated
1. ASSETS (Note 2)
    A. Intra-governmental:
      1. Fund Balance with Treasury (Note 3)
        a. Entity                                                          $          60,547,709   $       59,714,038
        b. Non-Entity Seized Iraqi Cash                                                        0                    0
        c. Non-Entity-Other                                                               53,290               52,503
      2. Investments (Note 4)                                                                711                  712
      3. Accounts Receivable (Note 5)                                                    689,871              541,429
      4. Other Assets (Note 6)                                                           443,939              339,093
      5. Total Intra-governmental Assets                                   $          61,735,520   $       60,647,775
    B. Cash and Other Monetary Assets (Note 7)                             $             311,323   $          147,926
    C. Accounts Receivable (Note 5)                                                      978,883              772,500
    D. Loans Receivable (Note 8)                                                               0              772,500
    E. Inventory and Related Property (Note 9)                                        51,340,248           51,815,831
    F. General Property, Plant and Equipment (Note 10)                               117,954,430          112,786,130
    G. Investments (Note 4)                                                                    0                    0
    H. Other Assets (Note 6)                                                          10,809,588            9,912,151
2. TOTAL ASSETS                                                            $         243,129,992   $      236,082,313
3. LIABILITIES (Note 11)
    A. Intra-governmental:
      1. Accounts Payable (Note 12)                                        $           1,900,411   $        1,413,940
      2. Debt (Note 13)                                                                        0                    0
      3. Environmental Liabilities (Note 14)                                                   0                    0
      4. Other Liabilities (Note 15 and Note 16)                                       1,726,480            1,623,905
      5. Total Intra-governmental Liabilities                              $           3,626,891   $        3,037,845
    B. Accounts Payable (Note 12)                                          $           7,707,163   $        7,080,909
    C. Military Retirement Benefits and Other Employment-Related                       1,163,442            1,262,267
       Actuarial Liabilities (Note 17)
    D. Environmental Liabilities (Note 14)                                             7,387,187            8,110,403
    E. Loan Guarantee Liability (Note 8)                                                       0                    0
    F. Other Liabilities (Note 15 and Note 16)                                         4,602,505            4,520,888
    G. Debt Held by Public                                                                     0                    0
4. TOTAL LIABILITIES                                                       $          24,487,188   $       24,012,312
5. NET POSITION
    A. Unexpended Appropriations (Note 18)                                 $          49,660,670   $       50,742,317
    B. Cumulative Results of Operations                                              168,982,134          161,327,684
6. TOTAL NET POSITION                                                      $         218,642,804   $      212,070,001
7. TOTAL LIABILITIES AND NET POSITION                                      $         243,129,992   $      236,082,313




The accompanying notes are an integral part of the financial statements.


                                                                                                                        19
                  United States Air Force • 2004 Annual Financial Statement




     Consolidated Statement of Net Cost—General Fund
     For the years ended September 30, 2004 and 2003 ($ in Thousands)
                                                                                       2004                  2003
                                                                                    Consolidated          Consolidated
     1. Program Costs
         A. Intra-governmental Gross Costs                                               28,909,864           26,846,664
         B. (Less: Intra-governmental Earned Revenue)                                    -5,002,246           -3,986,411
         C. Intra-governmental Net Costs                                       $         23,907,618   $       22,860,253
         D. Gross Costs With the Public                                                  96,505,988           99,803,267
         E. (Less: Earned Revenue From the Public)                                       -1,724,336             -836,158
         F. Net Costs With the Public                                          $         94,781,652   $       98,967,109
         G. Total Net Cost                                                     $        118,689,270   $      121,827,362
     2. Cost Not Assigned to Programs                                                             0                    0
     3. (Less: Earned Revenue Not Attributable to Programs)                                       0                    0
     4. Net Cost of Operations                                                 $        118,689,270   $      121,827,362




     The accompanying notes are an integral part of the financial statements. See notes 1 and 19.


20
Consolidated Statement of Changes in Net Position—General Fund
For the years ended September 30, 2004 and 2003 ($ in Thousands)
                                                                         2004                 2003
                                                                      Consolidated         Consolidated
CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                             $      161,327,684   $        47,443,218
2. Prior Period Adjustments (+/-)
    2.A. Prior Period Adjustments - Restated (+/-)                                 0                     0
    2.B. Beginning Balance, Restated                                     161,327,684            47,443,218
    2.C. Prior Period Adjustments - Not Restated (+/-)                             0           122,475,076
3. Beginning Balances, as adjusted                                       161,327,684           169,918,294
4. Budgetary Financing Sources:
    4.A. Appropriations received                                                   0                     0
    4.B. Appropriations transferred-in/out (+/-)                                   0                     0
    4.C. Other adjustments (rescissions, etc) (+/-)                                0                     0
    4.D. Appropriations used                                             124,686,986           113,384,126
    4.E. Nonexchange revenue                                                   8,827                     0
    4.F. Donations and forfeitures of cash and cash equivalents                2,171                 9,096
    4.G. Transfers-in/out without reimbursement (+/-)                        671,000                     0
    4.H. Other budgetary financing sources (+/-)                                   0              -678,772
5. Other Financing Sources:
    5.A. Donations and forfeitures of property                                     0                     0
    5.B. Transfers-in/out without reimbursement (+/-)                        311,130              -110,688
    5.C. Imputed financing from costs absorbed by others                     663,607               632,992
    5.D. Other (+/-)                                                               0                     0
6. Total Financing Sources                                               126,343,721           113,236,754
7. Net Cost of Operations (+/-)                                          118,689,270           121,827,362
8. Ending Balances                                                $      168,982,135   $       161,327,686


UNEXPENDED APPROPRIATIONS
1. Beginning Balances                                             $       50,742,317   $        39,543,850
2. Prior Period Adjustments (+/-)
    2.A. Prior Period Adjustments - Restated (+/-)                                 0                     0
    2.B. Beginning Balance, Restated                                      50,742,317            39,543,850
    2.C. Prior Period Adjustments - Not Restated (+/-)                             0                     0
3. Beginning Balances, as adjusted                                        50,742,317            39,543,850
4. Budgetary Financing Sources:
    4.A. Appropriations received                                         125,480,665           124,225,931
    4.B. Appropriations transferred-in/out (+/-)                            -454,456             2,179,806
    4.C. Other adjustments (rescissions, etc) (+/-)                       -1,420,870            -1,823,145
    4.D. Appropriations used                                            -124,686,986          -113,384,126
    4.E. Nonexchange revenue                                                       0                     0
    4.F. Donations and forfeitures of cash and cash equivalents                    0                     0
    4.G. Transfers-in/out without reimbursement (+/-)                              0                     0
    4.H. Other budgetary financing sources (+/-)                                   0                     0
5. Other Financing Sources:
    5.A. Donations and forfeitures of property                                     0                     0
    5.B. Transfers-in/out without reimbursement (+/-)                              0                     0
    5.C. Imputed financing from costs absorbed by others                           0                     0
    5.D. Other (+/-)                                                               0                     0
6. Total Financing Sources                                                -1,081,647            11,198,466
7. Net Cost of Operations (+/-)
8. Ending Balances                                                $       49,660,670   $        50,742,316




The accompanying notes are an integral part of the financial statements. See notes 1 and 20.


                                                                                                             21
                    United States Air Force • 2004 Annual Financial Statement




     Combined Statement of Bugetary Resources—General Fund
     For the years ended September 30, 2004 and 2003 ($ in Thousands)
                                                                           2004 Combined        2003 Combined
     BUDGETARY FINANCING ACCOUNTS
     BUDGETARY RESOURCES
     1. Budget Authority:
       1a. Appropriations received                                     $      125,483,786   $       124,235,723
       1b. Borrowing authority                                                          0                     0
       1c. Contract authority                                                           0                     0
       1d. Net transfers (+/-)                                                    -29,394             1,888,215
       1e. Other                                                                        0                     0
     2. Unobligated balance:
       2a. Beginning of period                                                  9,189,946             6,066,510
       2b. Net transfers, actual (+/-)                                            245,938               291,591
       2c. Anticipated Transfers Balances                                               0                     0
     3. Spending authority from offsetting collections:
       3a. Earned                                                                       0                     0
         1. Collected                                                           8,117,605             7,802,547
         2. Receivable from Federal sources                                       317,565              -322,918
       3b. Change in unfilled customer orders                                           0                     0
         1. Advance received                                                      188,072               213,465
         2. Without advance from Federal sources                                 -109,981               472,167
       3c. Anticipated for the rest of year, without advances                           0                     0
       3d. Transfers from trust funds                                                   0                     0
       3e. Subtotal                                                             8,513,261             8,165,261
     4. Recoveries of prior year obligations                                    1,431,079             1,955,959
     5. Temporarily not available pursuant to Public Law                                0                     0
     6. Permanently not available                                              -1,437,653            -1,806,362
     7. Total Budgetary Resources                                      $      143,396,963   $       140,796,897

     STATUS OF BUDGETARY RESOURCES
     8. Obligations incurred:
       8a. Direct                                                      $      129,913,273   $       123,375,566
       8b. Reimbursable                                                         4,447,386             8,231,386
       8c. Subtotal                                                           134,360,659           131,606,952
     9. Unobligated balance:
       9a. Apportioned                                                          8,072,566             8,320,595
       9b. Exempt from apportionment                                                2,709                 2,573
       9c. Other available                                                             -1                    -1
     10. Unobligated Balances Not Available                                       961,030               866,778
     11. Total, Status of Budgetary Resources                          $      143,396,963   $       140,796,897

     RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
     12. Obligated Balance, Net - beginning of period                  $       50,541,583   $        41,822,195
     13. Obligated Balance transferred, net (+/-)                                       0                     0
     14. Obligated Balance, Net - end of period:
       14a. Accounts receivable                                                -1,476,612            -1,159,047
       14b. Unfilled customer order from Federal sources                         -827,393              -937,374
       14c. Undelivered orders                                                 42,309,792            42,168,646
       14d. Accounts payable                                                   11,505,411            10,469,360
     15. Outlays:
       15a. Disbursements                                                     131,752,381           120,782,356
       15b. Collections                                                        -8,305,678            -8,016,013
       15c. Subtotal                                                          123,446,703           112,766,343
     16. Less: Offsetting receipts                                               -115,376              -156,704
     17. Net Outlays                                                   $      123,331,327   $       112,609,639




     The accompanying notes are an integral part of the financial statements. See notes 1 and 21.


22
Combined Statement of Financing—General Fund
For the years ended September 30, 2004 and 2003 ($ in Thousands)
                                                                                   2004                2003
                                                                                 Combined            Combined
Resources Used to Finance Activities:
Budgetary Resources Obligated
1. Obligations incurred                                                      $    134,360,658    $   131,606,952
2. Less: Spending authority from offsetting collections                            -9,944,341        -10,121,221
   and recoveries (-)
3. Obligations net of offsetting collections and recoveries                       124,416,317        121,485,731
4. Less: Offsetting receipts (-)                                                     -115,376           -156,704
5. Net obligations                                                                124,300,941        121,329,027
Other Resources
6. Donations and forfeitures of property                                                    0                  0
7. Transfers in/out without reimbursement (+/-)                                       311,130           -110,688
8. Imputed financing from costs absorbed by others                                    663,607            632,992
9. Other (+/-)                                                                              0                  0
10. Net other resources used to finance activities                                    974,737            522,304
11. Total resources used to finance activities                                    125,275,678        121,851,331
    Resources Used to Finance Items not Part
    of the Net Cost of Operations
12. Change in budgetary resources obligated for goods,
    services and benefits ordered but not yet provided
    12a. Undelivered Orders (-)                                                        201,266        -8,331,143
    12b. Unfilled Customer Orders                                                       78,091           685,633
13. Resources that fund expenses recognized in prior periods                          -896,088                 0
14. Budgetary offsetting collections and receipts that                                 115,376             9,106
    do not affect net cost of operations
15. Resources that finance the acquisition of assets                               -16,068,394       -19,120,713
16. Other resources or adjustments to net obligated resources
    that do not affect net cost of operations
    16a. Less: Trust or Special Fund Receipts Related to Exchange in the
          Entity's Budget (-)                                                                0                 0
    16b. Other (+/-)                                                                  -311,130           110,688
17. Total resources used to finance items not                                      -16,880,879       -26,646,429
    part of the net cost of operations
18. Total resources used to finance the net cost of operations                    108,394,799         95,204,902

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Period:
19. Increase in annual leave liability                                                137,700            478,344
20. Increase in environmental and disposal liability                                        0           -344,161
21. Upward/Downward reestimates of credit subsidy expense (+/-)                             0                  0
22. Increase in exchange revenue receivable from the the public (-)                         0                  0
23. Other (+/-)                                                                        53,205             14,770
24. Total components of Net Cost of Operations that                                   190,905            148,953
    will require or generate resources in future periods
Components not Requiring or Generating Resources:
25. Depreciation and amortization                                                    9,847,705        13,282,864
26. Revaluation of assets or liabilities (+/-)                                        -938,081         1,641,043
27. Other (+/-)
    27a. Trust Fund Exchange Revenue                                                        0                  0
    27b. Cost of Goods Sold                                                                 0                  0
    27c. Operating Material & Supplies Used                                         3,919,002                  0
    27d. Other                                                                     -2,725,063         11,549,603
28. Total components of Net Cost of Operations that                                10,103,563         26,473,510
    will not require or generate resources
29. Total components of net cost of operations that                                10,294,468         26,622,463
    will not require or generate resources in the current period
30. Net Cost of Operations                                                        118,689,267        121,827,365




The accompanying notes are an integral part of the financial statements. See notes 1 and 22.


                                                                                                                   23
     United States Air Force • 2004 Annual Financial Statement




                           This page intentionally left blank.




24
                       United States Air Force




   General Fund

  Footnotes to the
Principal Statements




                                            25
     United States Air Force • 2004 Annual Financial Statement




                           This page intentionally left blank.




26
Note 1. Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Department
of the Air Force, as required by the “Chief Financial Officers (CFO) Act of 1990,” expanded by the “Government
Management Reform Act (GMRA) of 1994,” and other appropriate legislation. The financial statements have been prepared
from the books and records of the Air Force in accordance with the “Department of Defense (DoD) Financial Management
Regulation,” the Office of Management and Budget (OMB) Bulletin No. 01-09, “Form and Content of Agency Financial
Statements,” and, to the extent possible, Federal generally accepted accounting principles (Federal GAAP). The accompany-
ing financial statements account for all resources for which the Air Force is responsible, although information relative to clas-
sified assets, programs, and operations has been either excluded from the statements or otherwise aggregated and reported
in such a manner that it is no longer classified. The Air Force’s financial statements are in addition to the financial reports
prepared by the Air Force pursuant to OMB directives that are used to monitor and control the Air Force’s use of budgetary
resources.

The Air Force is unable to implement fully all elements of Federal GAAP and OMB Bulletin No. 01-09 due to limitations in
its financial and nonfinancial processes and feeder systems. Reported values and information for the Air Force’s major asset
and liability categories are derived largely from nonfinancial feeder systems, such as inventory and logistics systems. These
systems were designed to support reporting requirements that focussed on maintaining accountability over assets and on
reporting the status of federal appropriations rather than on preparing financial statements in accordance with Federal GAAP.
As a result, the Air Force currently cannot implement every aspect of Federal GAAP and OMB Bulletin No. 01-09. The Air
Force continues to implement process and system improvements that address the limitations of its financial and nonfinancial
feeder systems.

In addition, the Air Force needs to improve documentation, user access, separation of duty, and oversight controls over the
travel pay process. Also, the Air Force continues to enter a material number of unsupported accounting entries because
financial and non-financial feeder systems continue to lack sufficient customer-identification information to accurately process
eliminations. This issue was disclosed in the DoD Agency-wide Note 1 and is addressed in the Air Force’s plan to obtain a
favorable opinion by FY 2007.

A more detailed explanation of these financial statement elements is provided in the applicable note.

1.B. Mission of the Reporting Entity
The United States Air Force was created on September 18, 1947, by the National Security Act of 1947. The National
Security Act Amendments of 1949 established the DoD and made the Air Force a department within the DoD. The overall
mission of the Air Force is to defend the United States through control and exploitation of air and space.

The Air Force incorporates internal controls, reconciliations, management by exception reports, and other management-
control information into its accounting systems. When possible, the financial statements are presented on the accrual basis
of accounting, as required by federal accounting standards.

The accounts used to prepare the financial statements are categorized as either entity or non-entity. Entity accounts consist
of resources that are available for use in the operations of the entity. The Air Force is authorized to decide how to use
resources in entity accounts or may be legally obligated to use these resources to meet entity obligations. Non-entity
accounts, on the other hand, consist of assets that are held by an entity but that are not available for use in the operations of
the entity.




                                                                                                                                    27
                  United States Air Force • 2004 Annual Financial Statement



     Following is a list of Air Force account numbers and titles (all accounts are entity accounts unless otherwise noted):
     Air Force Account Number              Title
     57 * 0704                             Military Family Housing (O&M and Construction), Air Force
     57 * 0740                             Military Family Housing (Construction), Air Force
     57 * 0745                             Military Family Housing (O&M), Air Force
     57 * 0810                             Environmental Restoration, Air Force
     57 * 1999                             Unclassified Receipts and Expenditures, Air Force
     57 * 3010                             Aircraft Procurement, Air Force
     57 * 3011                             Procurement of Ammunition, Air Force
     57 * 3020                             Missile Procurement, Air Force
     57 * 3080                             Other Procurement, Air Force
     57 * 3300                             Military Construction, Air Force
     57 * 3400                             Operation and Maintenance (O&M), Air Force
     57 * 3500                             Military Personnel, Air Force
     57 * 3600                             Research, Development, Testing, and Evaluation (RDT&E), AF
     57 * 3700                             Personnel, Air Force Reserve
     57 * 3730                             Military Construction, Air Force Reserve
     57 * 3740                             Operation and Maintenance (O&M), Air Force Reserve
     57 * 3830                             Military Construction, Air National Guard
     57 * 3840                             Operation and Maintenance (O&M), Air National Guard
     57 * 3850                             Personnel, Air National Guard
     57 X 5095                             Wildlife Conservation, etc., Military Reservations, Air Force
     57 X 8418                             Air Force Cadet Fund
     57 X 8928                             Air Force General Gift Fund
     57 * 3XXX                             Budget Clearing Accounts
     57 * 6XXX (Non-entity)                Deposit Fund Accounts


     1.C. Appropriations and Funds
     The Air Force’s appropriations and funds are used to fund and to report how resources have been used in the course of
     executing the Air Force’s missions. The Air Force’s appropriations and funds are divided into the following categories:

     •   General funds are used for financial transactions arising under congressional appropriations and include personnel, oper
         ation and maintenance, research and development, procurement, and construction accounts.

     •   Working Capital Fund (revolving fund) activities are reported in a separate set of audited financial statements and related
         footnotes.

     •   Trust funds represent the receipt and expenditure of funds held in trust by the Air Force for use in carrying out specific
         purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

     •   Special funds account for Air Force receipts earmarked for specific purposes.




28
•   Deposit funds are generally used to (1) account for unidentified remittances, or (2) hold assets for which the Air Force
    is acting as an agent or a custodian or whose distribution is awaiting legal determination.

1.D. Basis of Accounting
The Air Force generally records transactions on a budgetary basis and not an accrual accounting basis as is required by
Federal GAAP. For FY 2004, the Air Force’s financial management systems are unable to meet all of the requirements for full
accrual accounting. Many of the Air Force’s financial and nonfinancial feeder systems and processes were designed and
implemented prior to the issuance of Federal GAAP for federal agencies and, therefore, were not designed to collect and
record financial information on the full accrual accounting basis as required by Federal GAAP.

The Air Force has undertaken efforts to determine the actions required to bring its financial and nonfinancial feeder systems
and processes into compliance with all elements of Federal GAAP. One such action is the current revision of the Air Force’s
accounting systems to record transactions based on the United States Government Standard General Ledger (USSGL).

Until all of the Air Force’s financial and nonfinancial feeder systems and processes are updated to collect and report financial
information as required by Federal GAAP, some of Air Force’s financial data will be based on budgetary transactions (obliga-
tions, disbursements, and collections) and nonfinancial feeder systems and then be adjusted for known accruals of major
items such as payroll expenses, accounts payable, and environmental liabilities. For example, much of the data on the
Statement of Net Cost (SoNC) is based on obligations and disbursements and may not represent all accrued costs.
However, when possible, the Air Force’s financial statements are presented on the accrual basis of accounting as required.

In addition, the Air Force identifies programs based upon the major appropriation groups provided by Congress. The Air
Force is reviewing available data and attempting to develop a cost-reporting methodology that balances the need for cost
information as required by the Statement of Federal Financial Accounting Standard (SFFAS) No. 4, “Managerial Cost
Accounting Concepts and Standards for the Federal Government,” with the need to keep the financial statements from being
overly voluminous.

1.E. Revenues and Other Financing Sources
Financing sources for general funds are primarily provided through congressional appropriations received on both an annual
and a multi-year basis. When authorized, these appropriations are supplemented by revenues generated by sales of goods
or services through a reimbursable order process. The Air Force recognizes revenue as a result of costs incurred or services
performed on behalf of other federal agencies and the public. Revenue is recognized when earned under the reimbursable
order process.

The Air Force does not include non-monetary support provided by U.S. Allies for common defense and mutual security in its
list of other financing sources that appears in the Statement of Financing. Agreements between the U.S. and some foreign
countries include both direct and indirect sharing of the costs that each country incurs in support of the same general pur-
pose. Examples of such countries include those that have a mutual or reciprocal defense agreement with the U.S. and those
where U.S. troops are stationed or the U.S. fleet is serviced. The DoD is reviewing this type of financing and cost reduction
in order to establish accounting policies and procedures to identify which, if any, of these costs are appropriate for disclosure
in the DoD and Air Force financial statements in accordance with Federal GAAP. Recognition of support provided by host
nations would affect both financing sources and recognition of expenses.




                                                                                                                                    29
                  United States Air Force • 2004 Annual Financial Statement




     1.F. Recognition of Expenses
     For financial reporting purposes, the DoD policy requires the recognition of operating expenses during the period in which
     they were incurred. However, because the Air Force’s financial and nonfinancial feeder systems were not designed to col-
     lect and record financial information on the full accrual accounting basis, accrual adjustments are made for major items such
     as payroll expenses, accounts payable, and environmental liabilities. Expenditures for capital and other long-term assets are
     not recognized as expenses in the Air Force’s operations until depreciated, in the case of Property, Plant, and Equipment
     (PP&E), or consumed, in the case of Operating Materials and Supplies (OM&S). Net increases or decreases in unexpended
     appropriations are recognized as constituting a change in the net position. Certain expenses, such as annual and military
     leave earned but not taken, are financed in the period in which payment is made.

     Operating expenses were adjusted as a result of the elimination of balances between DoD Components. See Note 19.I,
     Intra-governmental Expenses and Revenue, for disclosure of adjustment amounts.

     1.G. Accounting for Intra-governmental Activities
      The Air Force, as an agency of the federal government, interacts with and is dependent upon the financial activities of the
     federal government as a whole. Therefore, these financial statements do not reflect the results of all financial transactions
     applicable to the Air Force as though the agency were a stand-alone entity.

     The Air Force’s proportionate share of public debt and related expenses of the federal government are not included in the
     financial statements. Debt issued by the federal government and the related costs are not apportioned to federal agencies.
     The Air Force’s financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do the
     statements report the source of public financing, whether from issuance of debt or tax revenues.

     Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this financing ulti-
     mately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the
     Department of the Treasury does not allocate such interest costs to the benefiting agencies.

     The Air Force’s civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal Employees
     Retirement System (FERS), while military personnel are covered by the Military Retirement System (MRS). The Air Force
     funds a portion of the civilian and military pensions. Additionally, employees and personnel covered by FERS and MRS also
     have varying coverage under Social Security. Reporting civilian pensions under CSRS and FERS retirement systems is the
     responsibility of the Office of Personnel Management (OPM). The Air Force recognizes an imputed expense for the portion
     of civilian employee pensions and other retirement benefits funded by the OPM in the SoNC and recognizes corresponding
     imputed revenue from the civilian employee pensions and other retirement benefits in the Statement of Changes in Net
     Position.

     To prepare reliable financial statements, transactions occurring between components or activities within the Air Force must
     be eliminated. However, the Air Force, as well as the rest of the federal government, cannot accurately identify all intra-gov-
     ernmental transactions by customer. The Defense Finance and Accounting Service (DFAS) is responsible for eliminating
     transactions between components or activities of the Air Force. Since FY 1999, seller entities within the DoD have provided
     summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD
     accounting offices. In most cases, the buyer-side records have been adjusted to recognize unrecorded costs and accounts
     payable. Intra-Air Force balances were then eliminated.




30
The Department of the Treasury Financial Management Service (FMS) is responsible for eliminating transactions between the
DoD and other federal agencies. In September 2000, the FMS issued the “Federal Intra-governmental Transactions
Accounting Policies and Procedures Guide.” The DoD was not able to fully implement the policies and procedures in this
guide related to reconciling intra-governmental assets, liabilities, revenues, and expenses for nonfiduciary transactions. The
Air Force, however, was able to implement the policies and procedures contained in the “Intra-governmental Fiduciary
Transactions Accounting Guide,” as updated by the “Federal Intra-governmental Transactions Accounting Policies and
Procedures Guide” (October 2002) for reconciling intra-governmental transactions. These transactions include or pertain to
investments in federal securities, borrowings from the U.S. Treasury and the Federal Financing Bank, Federal Employees’
Compensation Act transactions with the Department of Labor, and benefit program transactions with the OPM.

1.H. Transactions with Foreign Governments and International Organizations
Each year, the DoD Components sell defense articles and services to foreign governments and international organizations,
primarily under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, the DoD has
authority to sell defense articles and services to foreign countries and international organizations, generally at no profit to the
U.S. Government. Customers may be required to make payments in advance.

1.I. Funds with the U.S. Treasury
The Air Force’s financial resources are maintained in U.S. Treasury accounts. The majority of cash collections, disburse-
ments, and adjustments are processed worldwide at the DFAS, Military Services, and the United States Army Corps of
Engineers (USACE) disbursing stations, as well as at the Department of State financial service centers. Each disbursing sta-
tion prepares monthly reports that provide information to the U.S. Treasury on check issues, electronic fund transfers, inter-
agency transfers, and deposits.

In addition, the DFAS sites and USACE Finance Center submit reports to the Department of the Treasury, providing informa-
tion at the appropriation level on interagency transfers, collections received, and disbursements issued. The Department of
the Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account maintained in the
Treasury’s system. Differences between the Air Force’s recorded balance in the FBWT accounts and Treasury’s FBWT
accounts sometimes result and are subsequently reconciled. Material disclosures are provided at Note 3. Also disclosed at
Note 3 are differences between accounting offices’ detail-level records and Treasury’s FBWT accounts - specifically, differ-
ences caused by in-transit disbursements and unmatched disbursements (where the specific disbursement has not been
recorded in the appropriate accounting offices’ detail-level records).

1.J. Foreign Currency
The Air Force conducts a significant portion of its operations overseas. The Congress established a special account to han-
dle gains and losses from foreign currency transactions for the following five general fund appropriations: O&M, military per-
sonnel, military construction, family housing operation and maintenance, and family housing construction. Gains and losses
are computed as the variance between the exchange rate current at the date of payment and a budget rate established at
the beginning of each fiscal year. Foreign currency fluctuations related to other appropriations require adjustment to the
original obligation amount at the time of payment. These currency fluctuations are not identified separately. See Note 7
for material disclosures.

1.K. Accounts Receivable
As presented in the balance sheet statement, accounts receivable include accounts, claims, and refunds receivable from
other federal entities or from the public. Allowances for uncollectible accounts due from the public are based upon analy-
sis of collection experience by fund type. The DoD does not recognize an allowance for estimated uncollectible amounts
from other federal agencies. Claims against other federal agencies are to be resolved between the agencies. See Note 5
for material disclosures.




                                                                                                                                      31
                 United States Air Force • 2004 Annual Financial Statement




     1.L. Loans Receivable. As Applicable
     Not applicable.

     1.M. Inventories and Related Property
     Effective October 1, 2002, Statement of Federal Financial Accounting Standards No. 23, “Eliminating the Category National
     Defense Property, Plant, and Equipment,” revises accounting principles for military equipment (previously referred to as
     National Defense Property, Plant, and Equipment). This standard renames National Defense PP&E to military equipment,
     classifies military equipment as general property, plant, and equipment, and requires the capitalization and depreciation of
     the cost of military equipment, including the cost of modifications and upgrades. Likewise, military equipment (previously
     referred to as National PP&E) also includes items which are now classified as Operating Materials and Supplies (OM&S).

     Implementation of the new accounting principles requires the adjustment of the October 1, 2002, OM&S balance to recog-
     nize the investment, accumulated depreciation, and net book value of military equipment that previously had been expensed.
     This adjustment is discussed further in Note 9.

     The related property portion of the amount reported on the Inventory and Related Property line includes OM&S. The
     OM&S are reported at approximate historical cost using Standard Price (SP). The Air Force uses the SP method because its
     OM&S systems were designed for material management rather than for accounting. The systems provide accountability and
     visibility over inventory items. They do not maintain the historical cost data necessary to comply with SFFAS No. 3,
     “Accounting for Inventory and Related Property.” Neither can they directly produce financial transactions using the USSGL,
     as required by the Federal Financial Management Improvement Act of 1996 (P.L. 104-208). The DoD is transitioning to a
     Moving Average Cost methodology for valuing inventory that, when fully implemented, will allow the Air Force to comply
     with SFFAS No. 3.

     SFFAS No. 3 distinguishes between “inventory held for use” and “inventory held in reserve for future use.” There is no
     management or valuation difference between the two USSGL accounts. Further, the DoD manages only military or govern-
     ment-specific material under normal conditions. Items commonly used in and available from the commercial sector are not
     managed in DoD material-management activities. Operational cycles are irregular, and the military risks associated with
     stock-out positions have no commercial parallel. The DoD holds material based on military need and support for
     contingencies. Therefore, the Air Force does not attempt to account separately for items held for current or future use.

     Related property includes OM&S and stockpile materials. The OM&S, including munitions not held for use, are valued at SP.
     Ammunition and munitions are treated as OM&S. In general, the Air Force uses the consumption method of accounting for
     OM&S, expensing material when it is issued to the end user.

     In FY 2002, the DoD implemented a new policy to account for condemned material (only) as Excess, Obsolete, and
     Unserviceable. The net value of condemned material is zero because the costs of disposal are greater than the potential
     scrap value. Material that can be potentially redistributed (presented in previous years as Excess, Obsolete, and
     Unserviceable) is included in the Held for Use or Held for Repair categories, according to its condition.

     In addition, past audit results identified uncertainties about the completeness and existence of quantities used to produce the
     reported values. Material disclosures related to inventory and related property are provided at Note 9.

     1.N. Investments in U.S. Treasury Securities
     Investments in U.S. Treasury securities are reported at cost, determined as the net of unamortized premiums or discounts.
     Premiums or discounts are amortized into interest income over the term of the investment, using the effective interest rate
     method or other method if similar results are obtained. The Air Force’s intent is to hold investments to maturity, unless
     they are needed to finance claims or otherwise sustain operations. Consequently, provision is not made for unrealized gains
     or losses on these securities. Related earnings are allocated to appropriate Air Force activities to be used in accordance with
     the directions of the donor. See Note 4 for material disclosures.



32
The Air Force invests in both marketable and nonmarketable securities. Marketable securities are investments trading on a
public market. The two types of nonmarketable securities are par value and market-based intra-governmental securities.
The Bureau of Public Debt issues nonmarketable, par value intra-governmental securities. Nonmarketable, market-based
intra-governmental securities mimic marketable securities but are not traded publicly. See Note 4 for material disclosures.

1.O. General Property, Plant, and Equipment
Effective October 1, 2002, Statement of Federal Financial Accounting Standards No. 23, Eliminating the Category National
Defense Property, Plant, and Equipment, revises accounting principles for military equipment (previously referred to as
National Defense Property, Plant, and Equipment). This standard renames National Defense Property, Plant, and Equipment
to military equipment, classifies military equipment as general property, plant, and equipment, and requires the capitalization
and depreciation of the cost of military equipment, including the cost of modifications and upgrades.

Before this change in accounting principles, the acquisition costs for military equipment were classified as National Defense
PP&E and were expensed in the period incurred. Implementation of this new accounting principle required the DoD to
adjust the October 1, 2002, General PP&E balance to recognize the investment, accumulated depreciation, and net book
value of military equipment that previously had been expensed. As discussed further in Note 10, General PP&E, the adjust-
ment was based on data provided by the Bureau of Economic Analysis at the Department of Commerce.

General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an asset has a useful life
of two or more years and when the acquisition cost equals or exceeds the DoD capitalization threshold of $100,000. Also,
improvement costs over the DoD capitalization threshold of $100,000 for General PP&E are required to be capitalized. All
General PP&E assets, other than land, are depreciated on a straight-line basis. Land is not depreciated.

When it is in the best interest of the government, the Air Force provides contractors with government property necessary
to complete contract work. The Air Force owns or leases this property, or the contractor purchases the property directly
for the government under the terms of the contract. When the value of contractor-procured General PP&E exceeds the
DoD capitalization threshold, such PP&E must be included in the value of General PP&E reported on the Air Force’s balance
sheet. The DoD is developing new policies and a contractor-reporting process that will provide appropriate General PP&E
information for future financial statement purposes. Accordingly, the Air Force currently reports only government property
in the possession of contractors maintained in the Air Force real property systems.

To bring the Air Force into fuller compliance with federal accounting standards, the DoD has issued new property accounta-
bility and reporting regulations that require DoD Component property systems information on all property furnished to con-
tractors. This and other DoD-proposed actions are structured to capture and report the information necessary for compli-
ance with federal accounting standards.

See Note 10 for material disclosures.

1.P. Advances and Prepayments
Payments in advance of the receipt of goods and services are recorded as advances or prepayments and reported as an asset
on the balance sheet. Advances and prepayments are recognized as expenditures and expenses when the related goods and
services are received.




                                                                                                                                   33
                  United States Air Force • 2004 Annual Financial Statement




     1.Q. Leases
     Generally, lease payments are for the rental of equipment vehicles and operating facilities and are classified as either capital
     or operating leases. When a lease essentially is equivalent to an installment purchase of property (a capital lease), the Air
     Force records the applicable asset and liability if the value equals or exceeds the current DoD capitalization threshold. The
     Air Force records the amounts as the lesser of the following two values: (1) the present value of the rental and other lease
     payments during the lease term (excluding portions representing executory costs paid to the lessor), or (2) the asset’s fair
     value. The Air Force deems the use of estimates for these costs as adequate and appropriate due to the relatively low dollar
     value of capital leases. Imputed interest is necessary to reduce net minimum lease payments to present value calculated at
     the incremental borrowing rate at the inception of the leases. Leases that do not transfer substantially all of the benefits or
     risks of ownership are classified as operating leases and are expensed over the period of the lease.

     1.R. Other Assets
     The Air Force conducts business with commercial contractors under two primary types of contracts: fixed price and cost
     reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, the Air Force
     provides financing payments. One type of financing payment for real property is based on the percentage of completion. In
     accordance with the SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” such payments are treated as construc-
     tion-in-progress and reported on the General PP&E line and in Note 10, General PP&E, Net. In addition, based on the
     Federal Acquisition Regulation, the Air Force makes financing payments under fixed price contracts not based on percentage
     of completion. The Air Force reports these financing payments as advances or prepayments in the Other Assets line item.
     The Air Force treats these payments as advances or prepayments because the Air Force becomes liable only after the con-
     tractor delivers the goods. If the contractor does not deliver a satisfactory product, the Air Force is not obligated to reim-
     burse the contractor, and the contractor is liable to repay the Air Force for the full amount of the advance.

     The DoD has completed a review of the applicable federal accounting standards; public laws on contract financing; Federal
     Acquisition Regulation Parts 32, 49, and 52; and the OMB guidance in 5 Code of Federal Regulations Part 1315, “Prompt
     Payment.” The DoD has concluded that SFFAS No. 1 does not address fully or adequately the subject of progress payment
     accounting and is considering what action is appropriate.

     1.S. Contingencies and Other Liabilities
     The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a contingency as an existing condition,
     situation, or set of circumstances that involves an uncertainty as to possible gain or loss to the Air Force. The uncertainty
     will be resolved when one or more future events occur or fail to occur. A contingency is recognized as a liability when a past
     event or exchange transaction has occurred, a future loss is probable, and the amount of loss can be reasonably estimated.
     Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but where there is
     at least a reasonable possibility that a loss or additional loss will be incurred. Examples of loss contingencies include the col-
     lectibility of receivables, pending or threatened litigation, and possible claims and assessments. The Air Force’s loss contin-
     gencies arising as a result of pending or threatened litigation or claims and assessments occur due to events such as aircraft
     and vehicle accidents, medical malpractice, property or environmental damages, and contract disputes.

     Other liabilities arise as a result of anticipated disposal costs for the Air Force’s assets and are classified as either environ-
     mental or nonenvironmental. The recognition of an anticipated environmental disposal liability commences when the asset is
     placed into service, consistent with SFFAS No. 6, “Accounting for Property, Plant, and Equipment.” Based upon the Air
     Force’s policies and consistent with SFFAS No. 5, “Accounting for Liabilities of Federal Government,” a nonenvironmental
     disposal liability is recognized for an asset when management makes a decision to dispose of the asset. The DoD has agreed
     to the recognition of the nonenvironmental disposal liability for nuclear-powered assets when the asset is placed in service.
     Such amounts are developed in conjunction with and are not easily identifiable separately from environmental disposal costs.
     Material disclosures are provided at Notes 14 and 15.




34
1.T. Accrued Leave
Civilian annual leave and military leave balances that have been accrued and not used prior to the balance sheet date are
reported as liabilities. The liability reported at the end of the fiscal year reflects current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended appropriations rep-
resent (1) amounts of authority that are not obligated and that have not been rescinded or withdrawn, and (2) amounts that
are obligated but for which legal liabilities for payments have not been incurred.

Cumulative results of operations represent the difference between expenses and losses and financing sources (including
appropriations, revenue, and gains) since the inception of an activity. Beginning with FY 1998, the results have included the
cumulative amount of donations and transfers of assets in and out without reimbursement.

1.V. Treaties for Use of Foreign Bases
The DoD Components have the use of land, buildings, and other facilities that are located overseas and that have been
obtained through various international treaties and agreements negotiated by the Department of State. The DoD purchases
overseas capital assets with appropriated funds, but the host country retains title to land and improvements. Generally,
treaty terms allow the DoD Components continued use of these properties until the treaties expire. These fixed assets are
subject to loss in the event treaties are not renewed or other agreements are not reached that allow for the continued use
by the DoD Components. Therefore, if the U.S. can no longer use foreign bases because treaties or other agreements have
been terminated, losses will be recorded for the value of any nonretrievable capital assets after negotiations between the
U.S. and the host country determine the amount to be paid the U.S. for such capital investments.

1.W. Comparative Data
The Financial Statements and accompanying Notes to the Financial Statements report the financial position and results of
operations for FY 2004. Financial statement fluctuations greater than 2 percent of total assets on the Balance Sheet and/or
greater than 10 percent between FY 2003 and FY 2004 are explained within the Notes to the Financial Statements.

1.X. Unexpended Obligations
The Air Force obligates funds to provide goods and services for outstanding orders not yet delivered. The financial state-
ments do not reflect this liability for payment for goods or services not yet delivered.

1.Y. Problem Disbursements
Problem disbursements represents disbursements of Air Force funds reported by a disbursing station to the Department of
Treasury but have not yet been precisely matched against the specific source obligation. The problem disbursement arises
when the various contracting, disbursing, and accounting systems fail to match the data necessary to properly account for the
transaction in all the applicable accounting systems.

     As of August 31, 2004                                                                                     Decrease/Increase
                                                         Sept 2002          Sept 2003          Sept 2004
                                                                                                               from FY03 to FY04
     (Amounts in dollars and cents)

     1. Total Problem Disbursements, Absolute Value
        Unmatched Disbursements (UMDs)                     11,685,153.31       7,812,773.99     161,630,191.14     153,817,417.15
        Negative Unliquidated Obligations (NULOs)          10,232,414.81      12,436,285.89       9,791,889.12      -2,644,396.77
     2. Total In-transit Disbursements, Net           $ 1,320,627,184.94 $ 1,111,273,999.65 $ 1,065,326,018.79 $   -45,947,980.86




                                                                                                                                    35
                    United States Air Force • 2004 Annual Financial Statement



     The Air Force had a $151,173 thousand increase in problem disbursements and a $45,948 thousand decrease in in-transit
     disbursements. The Defense Finance and Accounting Service has efforts underway to address system shortcomings, to
     resolve all previous problem disbursements, and to process all in-transit disbursements. The amount of unmatched disburse-
     ments (UMD) over 180 days old is $1,867 thousand, negative unliquidated disbursements (NULOs) is $0.00, and in-transit
     disbursements is $26,363 thousand. The amount over 120 days old for UMDs is $2,028 thousand, NULOs is $0.00 and for
     in-transit disbursements is $24,342 thousand. The current absolute value of in-transit disbursements is $1,738,773 thousand.

     Note 2. Non-entity Assets
     As of September 30                                                   2004               2003
     (Amounts in thousands)

     1. Intra-governmental Assets
         A. Fund Balance with Treasury                                $        53,290    $          52,503
         B. Investments                                                             0                    0
         C. Accounts Receivable                                                48,685               -2,580
         D. Other Assets                                                            0                    0
         E. Total Intra-governmental Assets                           $       101,975    $          49,923

     2. Non-Federal Assets
         A. Cash and Other Monetary Assets                            $       311,323    $      147,926
         B. Accounts Receivable                                               238,158           289,787
         C. Loans Receivable                                                        0                 0
         D. Inventory & Related Property                                            0                 0
         E. General PP&E                                                            0                 0
         F. Investments                                                             0                 0
         G. Other Assets                                                          559           125,940
         H. Total Non-Federal Assets                                  $       550,040    $      563,653
     3. Total Non-Entity Assets                                       $        652,015   $       613,576
     4. Total Entity Assets                                           $    242,477,977   $   235,468,737
     5. Total Assets                                                  $    243,129,992   $   236,082,313



     Other Information
     Relevant Information for Comprehension
     Non-entity Assets are assets that are held by an entity but that are not available for use in the operations of the entity. Non-
     Federal Other Assets classes are advances to contractors and outstanding travel advances. The Non-entity Fund Balance
     with Treasury asset class represents amounts in Air Force deposit and suspense accounts that are not available for Air Force
     use. Non-entity Accounts Receivables, both when collected, go to the Department of the Treasury as miscellaneous
     receipts. The Non-entity Non-Federal Accounts Receivable amount also includes interest receivables on aged debt. Non-
     entity Cash and Other Monetary Assets represent disbursing officers’ cash and undeposited collections as reported on the
     Statement of Accountability. These assets are held by the Air Force disbursing officers as agents of the Treasury.

     Fluctuations
     The fluctuations on lines 2A and 2G are due to the FY 2004 reporting of advances to contractors as reflected on the SF
     1219, Statement of Accountability, as Cash and Other Monetary Assets instead of Advances in accordance with revised OSD
     guidance.




36
The decrease of $51,628 thousand in Non-Federal Accounts Receivable, line 2B, can be attributed to a decrease in Air
Force Active Duty Accounts Receivable.

                                                   Sep 2004           Sep 2003              $ Change
A/R Government before Eliminations                <$10,383>                $2,580          <$7,803>
Less Intra AF Eliminations                          $48,388                $5,161            $43,227
Total                                               $38,005                $2,581            $35,424
Intra-governmental Receivables fluctuations on line 1.C is due to eliminations activity and the actual increase since September
2003 was for $7,803 thousand. It is caused by an increase in Air Force eliminations. There was a change in procedure this
quarter in which unidentified trading partners are no longer allocated to other government agencies but instead are identified
as solely Air Force, pending further research.

Note 3.A. Fund Balance with Treasury
 As of September 30                                         2004                    2003
 (Amounts in thousands)

 1. Fund Balances
     A. Appropriated Funds                             $      60,559,736      $      59,726,905
     B. Revolving Funds                                                0                      0
     C. Trust Funds                                                9,212                  3,942
     D. Other Fund Types                                          32,051                 35,694
     E. Total Fund Balances                            $      60,600,999      $      59,766,541

 2. Fund Balances Per Treasury Versus Agency:
     A. Fund Balance per Treasury                      $      61,497,801      $      59,766,541
     B. Fund Balance per Air Force                            60,600,999             59,766,541

 3. Reconciling Amount                                 $        896,802       $              0


Other Information Related to Fund Balance with Treasury
Fluctuations
The increase of $5,270 thousand in the Trust Fund balance was mainly attributable to Cadet Fund increases. Cadet Fund
Accounts Payable increases of $4,431 thousand were due to recent contracts for computers and uniforms. The Cadet Fund
other services performed resulted in a net increase of $1,178 thousand due mainly to delays in reimbursement to the 34th
Training Wing for Laundry and other services performed. The delays in reimbursement were due to the Fiscal Services
Office relocation.

The Other Fund Types decrease of $3,643 thousand is related to a decrease of $3,642 thousand in the Military Airlift
Command receipt account. These accounts hold proceeds from revenue traffic, except special mission flights, and other
revenue traffic collections which are reimbursable to appropriations, tax payments due to the United States or Foreign
Governments, unearned transportation or taxes refunded, and transportation charges due other carriers in connection with
traffic revenue collected by MAC.

The reconciling amount is the preclosing of Miscellaneous Receipt Accounts and Cancelling Account balances on the entity
records and not on the Treasury Trial Balance.




                                                                                                                                  37
                 United States Air Force • 2004 Annual Financial Statement



     Air Force Cadet Fund—The Cadet Fund is a revolving trust fund account maintained for the benefit of the U.S. Air Force
     Academy cadets. The appropriation was funded at its inception. From that point forward, the fund was to be self-sufficient.
     Collections are received at least equal to any disbursements, and the account revolves funds through the disbursement and
     collection process with no requirement for additional appropriated funding. The Cadet Fund is an X-year account, meaning
     there is no time limit on obligations.

     Check Issue Discrepancy—DFAS is in the process of collecting information for all check-issue data that are unsupportable
     because (1) records have been lost during deactivation of disbursing offices, (2) the Treasury may not assist in research
     efforts for transactions older than 1 year, or (3) corrections were processed for transactions that Treasury removed from the
     check-comparison report. Transactions that have no supporting documentation due to one of the preceding situations shall
     be provided to the Department of the Treasury with a request to remove them from the Treasury Check Comparison
     Report. The vast majority of the remaining check issue discrepancies result from timing differences between the Air Force
     and the Department of the Treasury for processing checks. The DoD does not require that Treasury remove any amounts
     from the check-issue comparison report since the check-issue report balance was $0. Further, no empirical evidence has
     been presented that demonstrates that check issue discrepancies adversely affect the FBWT.

     Note Reference
     See Note Disclosure 1.I., Significant Accounting Policies, for additional discussion on financial reporting requirements and
     DoD policies governing funds with the U.S. Treasury.

     Note 3.B. Disclosures Related to Suspense/Budget Clearing Accounts
     As of September 30                                                                    Decrease/
                                   2002                2003               2004         Increase from FY
                                                                                          2003 - 2004
     (Amounts in thousands)

      Account
       F3875                  $        -391,552   $        -364,737   $     -357,705   $            7,032
       F3880                             -1,327              -2,343           -3,803               -1,460
       F3882                            -12,555             -16,526          -20,956               -4,430
       F3885                            254,516               8,785           14,989                6,204
       F3886                                  0                   0                0                    0
      Total                   $        -150,918   $        -374,821   $     -367,475   $            7,346


     The Air Force continues to make a concerted effort to reduce balances in the suspense and budget clearing accounts and to
     establish an accurate and consistent use of these accounts. The information presented indicates the reductions (with the
     exceptions noted below) that the Air Force has achieved in the various suspense/budget clearing accounts.

     The increase in account F3875 from September 2003 to September 2004 is due to many variables. They are all placed in
     various suspense accounts such as Agricultural/Grazing Leases and Withheld FICA/FITW Medicare Taxes for Military that are
     collected in and released at various times.

     The decrease in account F3880 from September 2003 to September 2004 is due to Recertified Check Payments which are
     credits from the Treasury for cancelled checks not yet being put back into the original appropriations and 1081 completion.

     Suspense account F3882 was first utilized in the 1st Quarter of FY 2003 to accommodate the Military Thrift Saving Plan that
     came into existence in October 2002. The ($4,429) thousand variance is a result of a timing difference. The National
     Finance Center posts amounts into each member’s account, and they are consolidated and posted to the Treasury before
     the Air Force can post the amounts in the military accounting system in the following month.



38
The increase in account F3885 from September FY 2003 to September FY 2004 is due to IPAC transactions received during
the last business day of the month. The funds are placed in a suspense account until they can be researched and assigned a
valid appropriation, which will fluctuate from one reporting period to another depending upon the amount processed to the
Treasury at that time.

Under the authority of Section 1009 of Public Law 107-314, “Clearance of Certain Transactions Recorded in Treasury
Suspense Accounts and Resolution of Certain Check Issue Discrepancies,” the Suspense Budget Clearing Account wrote-off
$408 thousand net and $9,142 thousand absolute from the suspense accounts. The impact on the financial statements of
writing this off was that this net amount was no longer in suspense.

Note 4. Investments
As of September 30                                                              2004                                                     2003
                                                                            Amortized
                                                             Amortization                         Investments,       Market Value   Investments,
                                                Cost                        (Premium/
                                                               Method                                 Net             Disclosure        Net
                                                                             Discount)
(Amounts in thousands)

1. Intra-governmental Securities:
    A. Marketable                           $            0                  $            0    $                  0    $         0    $             0
    B. Non-Marketable, Par Value                         0                                0                   0                 0                 0
    C. Non-Marketable, Market-Based                    712                               -1                 711               719               712
    D. Subtotal                             $          712                  $            -1   $             711       $       719    $          712
    E. Accrued Interest                     $            0                                    $               0       $         0    $            0
    F. Total Intragovernmental Securities   $          712                  $            -1   $             711       $       719    $          712

2. Other Investments:                       $           0                                     $                  0            N/A    $             0



Other Information
Fluctuations
Air Force Gift Fund cash donations that are not going to be used in the immediate future to fund donor-designated projects
are invested in marketable securities with the Department of the Treasury. Increases and decreases in the investment cost
amount reflect the changes in those investments.

Relevant Information for Comprehension
The Air Force Gift Fund was established to control and account for the disbursement and use of monies donated to the Air
Force along with the interest received from the investment of such donations. The related earnings are allocated to appro-
priate Air Force activities to be used in accordance with the directions of the donor. These funds are recorded as Non-
Marketable Market Based U.S. Treasury Securities, which are not traded on any security exchange but which mirror the
prices of marketable securities with similar terms.

Note Reference
See Note Disclosure 1.N., Investments in U.S. Treasury, for additional Air Force policies governing investments in U.S.
Treasury securities.




                                                                                                                                                       39
                   United States Air Force • 2004 Annual Financial Statement




     Note 5. Accounts Receivable
      As of September 30                                                      2004                                      2003
                                                                          Allowance For
                                                                                                  Accounts           Accounts
                                                      Gross Amount Due      Estimated
                                                                                                Receivable, Net    Receivable, Net
                                                                          Uncollectibles
      (Amounts in thousands)

      1. Intra-governmental Receivables:               $        689,871                   N/A    $       689,871   $        541,429
      2. Non-Federal Receivables (From the Public):    $      1,101,661   $          -122,778    $       978,883   $        772,500
      3. Total Accounts Receivable:                    $      1,791,532   $          -122,778    $     1,668,754   $      1,313,929



     The total allowance method is determined at the Air Force departmental level. These department-level amounts are
     derived as follows: For closed-years receivables and deferred debts in litigation, an allowance rate of 50 percent results in an
     estimated allowance of $62,999 thousand. Interest allowance of

     $2,160 thousand is calculated using an average percent of write-offs to outstanding public accounts receivable over a five-
     year period starting with FY 2000 data. For Air Force entity receivables, the allowance is computed each year based on the
     average percent of write-offs to outstanding public accounts receivable for the last five years resulting in an estimated
     allowance of $57,619 thousand.

     Other information
     Relevant Information for Comprehension
     As presented on the Consolidated Balance Sheet, accounts receivable include reimbursements receivable and refunds receiv-
     able such as out-of-service debts (amounts owed by former service members), contractor debt, and unused travel tickets. It
     also includes net interest receivables per Department of Defense (DoD) Financial Management Regulation (FMR) Vol. 6B
     guidance. Canceled accounts receivable is reported as non-entity receivables because these amounts are deposited into a
     Treasury Department miscellaneous receipt account when collected. Reconciliation between Report on Receivables Due
     from the Public and the balance sheet was accomplished. The differences between the balance sheet (line 1C) and Treasury
     Report on Receivables (TROR) Due from the Public (line 7) include the allowance for estimated receivables that will be
     uncollected of $122,778 thousand and undistributed collections of $379,869 thousand. Undistributed collections are
     prorated between public and intra-governmental receivables on the balance sheet based on the percentages of distributed
     receivables. This reconciliation is performed to ensure that the financial statements are in agreement with the public
     receivables reported to the Department of the Treasury.

     Accounting systems do not capture trading partner data at the transaction level in a manner that facilitates trading partner
     aggregations. Therefore, the Air Force was unable to reconcile intra-governmental accounts receivable balances with its
     trading partners. Through the ongoing Business Management Modernization Program, the Department intends to develop
     long-term systems improvements that will capture the data necessary to perform reconciliation.

     Allocation of Undistributed Collections
     The DoD policy is to allocate supported undistributed collections between federal and non-federal categories based on the
     percentage of Federal and Non-federal Accounts Receivable. Unsupported undistributed collections should be recorded in
     the United States Standard General Ledger (USSGL) account 2400, Liability for Deposit Funds, Clearing Accounts and
     Undeposited Collections. The Air Force follows this allocation procedure.




40
Fluctuations
Intra-governmental accounts receivable before eliminations increased by $318,523 thousand from September 2003.
The increase on the financial statement of $148,444 thousand is after intra-governmental Air Force eliminations.

                                                   Sep 2004           Sep 2003           $ Change
A/R Government before Eliminations                 $1,251,491         $ 932,969           $ 318,523
Less Intra AF Eliminations                          $ 561,620         $ 391,541           $ 170,079
Total                                               $ 689,872         $ 541,428           $ 148,444
(Both columns reflect data in thousands)

Intra-governmental accounts receivable increased $148,444 thousand since September 2003. increase due larger spending
authority earned in the O&M and RDT&E appropriations. The O&M increase was due to a concerted effort, in August and
September 2004, at the Major Command level to properly code the reimbursable transactions in the accounting system to
better reflect the total amount of goods and services provided to other DoD organizations. The RDT&E increase was a
product of an OMB $2 Billion increase to spending authority (Reimbursable Budget Authority) resulting in a larger amount of
goods and services provided to other DoD agencies. Also, intra-governmental accounts receivables due from the U.S.
Transportation Command increased $159,190 thousand from September 2003.

Public accounts receivable increased $206,383 thousand from September 30, 2003.
Allowance of estimated uncollectibles (decrease)                        <$155,405>
MOCAS debts (decrease)                                                  <$215,311>
MDMR debts (increase)                                                     $351,273
Base-level reporting (increase)                                           $225,826
Total increase                                                            $206,383

The breakout above is as follows:

Decreases: (a) A decrease of $155,405 thousand was the result of more emphasis on writing off uncollectible debts; (b) The
remaining decrease of $215,311 thousand was a result of increased emphasis of debts collected in Mechanization of
Contract Administration Services (MOCAS).

Increases: (a) An increase of $351,273 thousand was a result of accounts receivable reported by the Monthly Debt
Management Report (MDMR), off-line contract debts; (b) The remaining $225,826 thousand increase results from public
accounts receivables reported on the Air Force field sites base-level accounting systems and off-line receivables consolidated
at the Denver center.

Note Reference
See Note Disclosure 1.K., Significant Accounting Policies, for additional discussion on financial reporting requirements and
DoD policies governing Accounts Receivable.




                                                                                                                                 41
                  United States Air Force • 2004 Annual Financial Statement




     Note 6. Other Assets
     As of September 30                                   2004             2003
     (Amounts in thousands)

     1. Intra-governmental Other Assets:
         A. Advances and Prepayments                  $      443,939   $     339,093
         B. Other Assets                                           0               0
         C. Total Intra-governmental Other Assets     $      443,939   $     339,093

     2. Non-Federal Other Assets:
         A. Outstanding Contract Financing Payments   $   10,705,720   $   9,645,299
         B. Other Assets (With the Public)                   103,868         266,852
         C. Total Non-Federal Other Assets            $   10,809,588   $   9,912,151

     3. Total Other Assets:                           $   11,253,527   $ 10,251,244



     Other Information Related to Other Assets:
     Fluctuations
     Advances and Prepayments on line 1.A. increased $104,846 thousand from September 2003. Amounts are recorded based
     on elimination data as provided by Air Force trading partners. The increase is primarily attributable to recording govern-
     ment advances from either seller side actuals or an estimation technique for level 1 partners. Prior to FY 2004, level 1
     government advances were not included.

     The comparison of FY 2004 to FY 2003 for Advances and Prepayments (in thousands):
                                                                 FY 2004               FY 2003
     Government advances before accrual                               56                    56
     Accruals to match seller data                               491,860               721,477
                                                                 491,916               721,533
     Less intra Air Force eliminations                            47,977               382,440
     Reported advances and prepayments                           443,939               339,093

     Outstanding Contract Financing Payments increased $1,060,421 thousand, or 11 percent, when compared with FY 2003.
     The increase is attributed to additional progress payments made for the F-22 as it experiences increased production and an
     increase in the allowable percentage of progress payments for new fixed price contracts.

     Relevant Information for Comprehension
     Other Assets
     The $103,868 thousand on line 2.B. is composed of $94,590 thousand in travel advances and $9,278 thousand in other
     advances to contractors.

     Advances to the contractor as reported on the SF 1219, Statement of Accountability, are payments as part of an advance-
     payment pool agreement with Massachusetts Institute of Technology or other nonprofit institutions. Advance-payment pool
     agreements are used for the financing of cost-type contracts with nonprofit educational or research institutions for experi-
     mental or research and development work when several contracts or a series of contracts require financing by advance pay-
     ments. These amounts for 2003 and prior were reported as other assets. In accordance with revised guidance, these
     advances are now reported on line 1.B on the balance sheet.



42
Outstanding Contract Financing Payments
The Air Force reports as advances and prepayment all outstanding financing payments for fixed-price contracts that are not
based on percentage or stage of completion. Under the contract terms, the Air Force becomes liable only after the contrac-
tor delivers the goods in conformance with the contract terms. If the contractor does not deliver a satisfactory product, the
Air Force is not obligated to reimburse the contractor for its cost, and the contractor is liable to repay the Air Force for the
full amount of the outstanding contract finance payments.

Note Reference
See Note Disclosure 1.R., Significant Accounting Policies, for additional discussion on financial reporting requirements and
Department of Defense policies governing other assets.

Note 7. Cash and Other Monetary Assets
As of September 30                                             2004       2003
(Amounts in thousands)

1. Cash                                                    $    303,142    $     136,195
2. Foreign Currency (non-purchased)                               8,181           11,731
3. Other Monetary Assets                                              0                0
4. Total Cash, Foreign Currency, & Other Monetary Assets   $    311,323    $     147,926



•   Cash—includes the total of cash resources under the control of the Air Force, including coin, paper currency,
    negotiable instruments, and amounts on deposit in banks and other financial institutions. Cash available for agency use
    should include petty cash funds and cash held in revolving funds that will not be transferred into the U.S. Government
    General Fund.

•   Foreign Currency—consists of the total U.S. dollar equivalent of nonpurchased foreign currencies held in foreign
    currency fund accounts.

•   Other Monetary Assets—includes gold, special drawing rights, and U.S. Reserves in the International Monetary Fund.
    This category is principally for use by the Department of the Treasury.

Other Information Pertaining to Entity Cash & Other Monetary Assets:
Fluctuations
Advances to Contractors under the University Pool Agreements of $147,780 thousand, as reported on the SF 1219,
Statement of Accountability, are now reflected as a component of Total Cash, Foreign Currency and Other Monetary Assets.
This allows Total Accountability as reflected on the SF 1219 to mirror line 1.B of the Balance Sheet in accordance with OSD
guidance. Advance-payment pool agreements are used for the financing of cost-type contracts with nonprofit educational or
research institutions for experimental or research and development work when several contracts or a series of contracts
require financing by advance payments. These amounts for 2003 and prior were reported as other assets. In accordance
with revised guidance, these advances are now reported on line 1.B on the balance sheet. In accordance with revised guid-
ance these advances are now reported on line 1.B on the balance sheet. The remaining variance can be attributed to chang-
ing requirements of the disbursing officers to carry out their paying, collecting and foreign currency exchange functions. In
reviewing the Cash and Foreign Currency asset classes for the past 9 quarters (March 2003 and June 2003 were excluded
since they were anomalies due to unique requirements in support of Operation Iraqi Freedom), the average level for both
has been $171,000 thousand (excluding the Advances to Contractors as state above).




                                                                                                                                   43
                    United States Air Force • 2004 Annual Financial Statement




     Relevant Information for Comprehension
     The amounts reported for the Cash and Foreign Currency asset classes consist primarily of cash held by disbursing officers
     to carry out their paying, collecting, and foreign-currency accommodation exchange mission. The primary source of the
     amounts reported is the Standard Form 1219, Statements of Accountability, reported by the Department of Defense (DoD)
     disbursing officers.

     The amount reported for the Foreign Currency asset class is valued using the Department of Treasury Prevailing Rate of
     Exchange, the most favorable rate available to the U.S. Government when acquiring foreign currency to make official
     disbursements and to provide currency for exchange of U.S. dollars for troops.

     Note Reference
     See Note Disclosure 1.J., Significant Accounting Policies, for additional discussion on financial reporting requirements and
     DoD policies governing foreign currency.

     Note 8. Direct Loan and/or Loan Guarantee Programs
     Direct Loan and/or Loan Guarantee Programs:
     The entity operates the following direct loan and/or Loan guarantee program(s):
     •   Military Housing Privatization Initiative
     •   Armament Retooling & Manufacturing Support Initiative

     Other Information:
     Not applicable.

     Note 9. Inventory and Related Property
     As of September 30                                       2004              2003
     (Amounts in thousands)

     1. Inventory, Net (Note 9.A.)                        $             0   $             0
     2. Operating Materials & Supplies, Net (Note 9.B.)        51,340,248        51,815,831
     3. Stockpile Materials, Net (Note 9.C.)                            0                 0
     4. Total                                             $    51,340,248   $    51,815,831



     Note 9.A. Inventory, Net
     Not applicable.




44
Note 9.B. Operating Materials and Supplies (OM&S), Net
As of September 30                                                                  2004                                 2003
                                                                               Revaluation                                              Valuation
                                                  OM&S Gross Value                               OM&S, Net             OM&S, Net
                                                                               Allowance                                                 Method
(Amounts in thousands)

1. OM&S Categories:
   A. Held for Use                                 $          39,347,759        $            0   $   39,347,759    $       38,860,094
   B. Held for Repair                                         11,992,489                     0       11,992,489            12,955,737
   C. Excess, Obsolete, and Unserviceable
                                                                 955,660             -955,660                 0                     0
   D. Total                                        $          52,295,908        $    -955,660    $   51,340,248    $       51,815,831

Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost adjusted for holding gains and losses                                      NRV = Net Realizable Value
SP = Standard Price                                                                                               O = Other
AC = Actual Cost


Fluctuations
In FY 2004, condition codes were built into the ICBM logistics management system which made it possible to break out by
condition code those assets that were considered to be held for repair from assets considered to be excess, obsolete and
unserviceable. In FY 2003, uninstalled motors were reported at Latest Acquisition Cost while in FY 2004 they are being
reported at Moving Average Cost. Also, many of the old uninstalled missile motors reported in FY 2003 as excess have been
refurbished and are now being reported as “held for use” and some motors have been destroyed. The effect has been a
reduction of $1,102,268 thousand in missile motors. A $92,539 thousand reduction in munitions (CAS) is the result of of
excess and obsolete assets being destroyed by the Army, or being eliminated through the DRMO process. An additional
$60,279 thousand reduction in FIABS munitions was caused by duplicate data reflected in the 4th Quarter FY 2003 numbers
that was subsequently corrected in FY 2004.

Information related to OM&S
General Composition of OM&S
OM&S include spare and repair parts, ammunition, tactical missiles, aircraft configuration pods, and centrally managed
aircraft engines.

Balances
In addition to the account balances shown in Table 9.B., the federal accounting standard requires disclosure of the amount of
OM&S held for future use. Except for an immaterial amount of munitions, the Air Force is not holding any items for future use.

Decision Criteria for Identifying the Category to Which OM&S Items Are Assigned
Managers determine which items are more costly to repair than to replace. Items retained for management purposes are
coded “condemned.” The net value of these items is zero and is shown as Excess, Obsolete, and Unserviceable.

The category Held for Use includes all issuable materials and is coded within each supply or inventory system as condition
codes A – D.

The category Excess, Obsolete, and Unserviceable includes all material assigned condition codes H, P, and S.

The Category Held for Repair relates to impaired assets and includes all other condition codes as defined by the Military
Standard Transaction Reporting and Accounting Procedures Manual (DoD 4000.25-2-M).



                                                                                                                                                    45
                 United States Air Force • 2004 Annual Financial Statement




     Changes in the Criteria for Identifying the Category to Which OM&S Items Are
     Assigned
     As stated above, the category Held for Use includes all issuable material, and the category Held for Repair includes all eco-
     nomically reparable material. Before FY 2002, the Department of Defense (DoD) categorized potentially redistributable
     material, regardless of condition, as Excess, Obsolete, and Unserviceable.

     To date, the Air Force has only implemented one system to report “moving average cost,” the DoD-approved methodology
     for reporting historical cost within any of the supply or inventory accounting systems for OM&S. Consequently, most OM&S
     assets are valued at standard price, with an allowance for Excess, Obsolete, and Unserviceable. Under current DoD policy,
     no allowance is made for serviceable ready-to-issue items (category Held for Use). An allowance equal to 100 percent of
     standard price, however, is made for the category Excess, Obsolete, and Unserviceable. This allowance results in a net book
     value of zero, which is considered appropriate because the items are coded condemned and, therefore, have no intrinsic
     value to the Air Force. The category Held for Repair represents suspended, unserviceable (but reparable) items which have
     a value to the Air Force but whose value is less than that of the Held for Use items and greater than that of the Excess,
     Obsolete and Unserviceable items. To date, the Office of the Secretary of Defense has not provided sufficient guidance to
     the Air Force on the methodology for computing an allowance for the Held for Repair category; therefore, Held for Repair is
     reported at full standard price.

     Government-Furnished Material (GFM) and Contractor-Acquired Material (CAM)
     Generally, the value of the Air Force’s GFM and CAM in the hands of contractors is not included in the OM&S values reported
     above. The DoD is presently reviewing its process for reporting these amounts in an effort to determine the appropriate
     accounting treatment and the best method to collect and report required information quarterly without duplicating informa-
     tion already in other logistics systems.

     Operating Materials and Supplies Value
     The OM&S data reported on the financial statements are derived from logistics systems designed for material management
     purposes. These systems do not maintain the historical cost data necessary to comply with the valuation requirements of
     the Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for Inventory and Related Property.”
     In addition, while these logistics systems provide management information on the accountability and visibility over OM&S
     items, they do not directly support the categorization of OM&S as Held for Use, Held in Reserve for Future Use, Held for
     Repair, or Excess, Obsolete, and Unserviceable. The DoD manages only military or government-specific material under nor-
     mal circumstances. Material includes material held due to operational economies. Similarly, material held for use includes
     material held due to a managerial determination that it should be retained to support departmental contingencies. All OM&S
     assets are valued at standard price, with an allowance for Excess, Obsolete, and Unserviceable.

     Items commonly used in and available from the commercial sector are not managed in the DoD material management activi-
     ties. Further, unlike the commercial sector, the DoD operational cycles based on national need are irregular. In addition, the
     military risks associated with stock-out positions (e.g., weapon systems that are not mission capable due to lack of supplies)
     are totally different from a commercial activity’s risk of losing sales. Therefore, the Department does not attempt to
     account separately for items held for current or future use.

     In general, the Air Force is using the consumption method of accounting for OM&S, since OM&S is defined in the SFFAS No.
     3 as material that has not yet been issued to the end user. Once issued, the material is expensed. As stated above, current
     financial and logistics systems cannot fully support the consumption method. According to federal accounting standards, the
     consumption method of accounting should be used to account for OM&S unless (1) the amount of OM&S is not significant,



46
(2) OM&S are in the hands of the end-user for use in normal operations, or (3) it is cost-beneficial to expense OM&S when
purchased (purchase method).

Note Reference
See Note Disclosure 1.M., Significant Accounting Policies, for additional discussion on financial reporting requirements and
DoD policies governing inventory and related property.

For a regulatory discussion of OM&S, see DoD Financial Management Regulation, Volume 6B, Chapter 10, paragraph
101107.

Other Air Force Disclosures
The Air Force provided only minimal OM&S accounting data that can be used to prepare the financial statements. In most
cases, the data provided consisted of only beginning and ending balances for each of the asset accounts Held for Use; Excess,
Obsolete, Unserviceable; and Held for Repair. In other cases, the data provided consisted of only beginning balances and
serviceable and unserviceable ending balances. Without the required additional data (acquisitions, transfers in, amounts con-
sumed, transfers out, trading partner data, etc), the Defense Finance and Accounting Service (DFAS) could only report the
net change between prior-period ending balances and the values reported as current-period ending balances. Although the
required additional data are available in some Air Force supply systems, the DFAS General Fund accounting system was not
developed to receive and translate the transaction codes to report the data. To correct this problem, DFAS is making
changes to some accounting systems and implementing standard interfaces between the Air Force feeder systems and the
accounting systems.

Although the Air Force OM&S systems, in most cases, capture some trading partner data at the transaction level, no elec-
tronic interfaces exist between the Air Force OM&S feeder systems and the DFAS accounting systems for reporting the data
for all items transferred to and from other DoD and federal agencies. Consequently, intra-governmental transactions (trad-
ing partner data) could not be reconciled. The Air Force and DFAS are currently developing processes, methodologies and
standard electronic interfaces that will allow intra-governmental transactions to be reported monthly to the General
Accounting and Finance System - Rehost.

Note 9.C. Stockpile Materials, Net
Not applicable.




                                                                                                                                47
                       United States Air Force • 2004 Annual Financial Statement




     Note 10. General Property, Plants, and Equipment (PP&E), Net

     As of September 30                                                                     2004                                                         2003

                                                         Depreciation/                                          (Accumulated
                                                                                             Acquisition                             Net Book      Prior FY Net Book
                                                         Amortization    Service Life                           Depreciation/
                                                                                               Value                                  Value               Value
                                                           Method                                               Amortization)
     (Amounts in thousands)

     1. Major Asset Classes:
         A. Land                                                N/A         N/A         $         431,607                  N/A   $       431,607     $       416,974
         B. Buildings, Structures, and Facilities                J        20 or 40             42,478,002   $      -24,311,083        18,166,919          17,266,526
         C. Leasehold Improvements                              S/L      lease term                    0                     0                 0                  0
           D. Software                                          S/L       2-5 or 10               23,806                   -24            23,782             23,782
           E. General Equipment                                 S/L        5 or 10            19,419,138           -12,674,764         6,744,374         92,367,308
           F. Military Equipment                                S/L        various           300,790,000          -211,730,000        89,060,000                  0
           G. Assets Under Capital Lease [1]                    S/L      lease term              409,498              -246,439           163,059            188,025
           H. Construction-in-Progress                          N/A          N/A               3,364,351                   N/A         3,364,351          2,523,416
            I. Other                                                                                 338                     0               338                 99
           J. Total General PP&E                                                        $    366,916,740    $     -248,962,310   $   117,954,430      $ 112,786,130
     [1]
       Note 15.B for additional information on Capital Leases
     Legend for Valuation Methods:
     S/L = Straight Line     N/A = Not Applicable



     Other Information
     Fluctuations
     The Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting Standards No. 23,
     “Eliminating the Category National Defense Property, Plant and Equipment,” in May 2003. This standard, which became
     effective for accounting periods after September 30, 2002, establishes Generally Accepted Accounting Principles (GAAP) for
     valuing and reporting military equipment (e.g., aircraft, satellites, and intercontinental ballistic missiles) in federal financial
     statements. The standard requires the capitalization and depreciation of the cost of military equipment, including the cost of
     modifications and upgrades.

     The Department of Defense has determined that it is not practicable at this time to accumulate sufficient information from
     internal records to value military equipment in accordance with GAAP. The Department is currently working to revise its
     accounting processes and systems to support the informational needs of management and compliance with GAAP. In the
     interim, the Department will base the value of military equipment for financial statement presentation purposes on data pro-
     vided by the Bureau of Economic Analysis (BEA) at the Department of Commerce.

     The AF, during FY 04, in the category of general PP&E (support equipment), had an increase of approximately $1.3 billion
     over FY 03. This was due in part to an increase of approximately $533 million that did not pass the edit checks (SBSS to
     AFEMS) and were reported and depreciated manually by DFAS. In addition, the AF had an increase in general PP&E in
     AFEMS due to an increase in support equipment acquisitions of approximately $1 billion. Then, the AF had a decrease in
     medical equipment acquisitions of about $169 million as a result of DMLSS not loading assets that had a net book value of
     zero, which understated the amount of assets on hand.

     The data provided by the BEA consists of investment and net book value data for 84 groups of equipment such as aircraft,
     ships, and combat vehicles. The Department adjusts BEA data to eliminate equipment items (such as spares, munitions, and
     inventory items) that are not accounted for as military equipment. Such items are accounted for and reported as Inventory
     and Related Property.




48
BEA uses Department of Defense budget, expenditure, and delivery data to calculate the Department’s annual investment in
equipment, after recognizing any equipment transfers or war losses. BEA recently revised its Fiscal Year 2003 estimate.
Previous BEA estimates were based, in part, on projections because source data was not available. The revised estimate for
Fiscal Year 2003 is based on updated and more complete source data. Further, the revised estimate reflects changes in the
methods and data BEA uses to project the investment in, and depreciation of, military equipment resulting from BEA’s 2003
Comprehensive Revision of the National Income and Product Accounts. A major factor in the reduction of the acquisition
value of military equipment included in the updated estimate was new data that showed that governments purchased a
smaller proportion of the domestic supply of software than had previously been estimated.

The value of the BEA data provided by the DoD to the Air Force for inclusion in the financial statements for the 4th Quarter,
2004 amounted to approximately $300,790,000 thousand less accumulated depreciation of $211,730,000 thousand for a net
realized book value of $89,060,000 thousand.

The overall increase in General Property, Plant and Equipment is $5,168,299 thousands of, which is Military Equipment,
derived from BEA data, which are approximately $3,400,000 thousands. The remaining difference of $1,768,299 thousand
represents general increases in equipment and construction-in-progress.

The Construction-in-Progress on line 1.H. increased $840,935 thousand since September 2003 due to an increase in con-
struction projects started and not completed.

The Other asset class on line 1.I. increased by $239 thousand since September 2003. The Other category represents the
timing factor inherent in timber harvesting. The timber markets, driven by supply and demand, are volatile and fluctuate.
Timber sale contracts are awarded at irregular intervals, with some contracts held back until the market improves. Similarly,
when buyers pay for just the timber they cut, they may hold off when markets are bad and cut more when markets are
good. Weather conditions also influence the flow of timber and revenue.

Relevant Information for Comprehension
Personal property in the Air Force consists of General Equipment, Automated Data Processing (ADP) hardware and soft-
ware, Medical Equipment, Special Tools and Test Equipment (ST/STE) and Military Equipment.

Other Air Force Disclosures
For the 4th Quarter, FY 2004 reports, the Air Force used FY 2002 ending data for (ST/STE). The FY 2002 values were used
because the two systems previously used to report ST/STE have been turned off and are scheduled to be replaced by Air
Force Equipment Management System (AFEMS) in FY 2005.

For the 4th Quarter, FY 2004 reports, the Air Force used a special extract from AFEMS to identify the General PP&E assets
that had not passed the required edit checks (e.g. missing historical cost, acquisition dates or serial numbers). The dollar
value of these assets exceeded $3 billion and were not initially included in the financial statements. Therefore, DFAS used
the extract data and depreciated these assets and included the cost plus depreciation in the financial statements. The Air
Force is currently working this data exception problem to assure that all assets are properly recorded and depreciated in
future financial statements. The value of the Air Force internal use software reported for 4th Quarter FY 2004 is the same
dollar value that was reported in previous financial statements. On prior reporting cycles, the Air Force used a rudimentary
manual process to collect these values, however this process is no longer considered reliable. The Air Force is working this
issue and estimate that a systematic process will be established to both capture and report internal used software in FY
2005. The value of the Air Force’s General PP&E real property in the possession of contractors is included in the values
reported above for the Major Asset Classes of Land and Buildings, Structures, and Facilities. The value of General PP&E per-
sonal property (Major Asset Classes of Software and Equipment) does not include all of the General PP&E above the DoD



                                                                                                                                49
                   United States Air Force • 2004 Annual Financial Statement



     capitalization threshold in the possession of contractors. The net book amount of such property is immaterial in relation to
     the total General PP&E net book value. In accordance with a strategy approved by the OMB, the General Accounting
     Office, and the Inspector General, DoD, the Department is developing new policies and a contractor-reporting process to
     capture General PP&E information for future reporting purposes in compliance with GAAP.

     Note Reference
     See Note Disclosure 1.O., Significant Accounting Policies, for additional discussion on financial reporting requirements and
     DoD policies governing PP&E.

     Note 10.A. Assets Under Capital Lease
     As of September 30                                            2004                   2003
     (Amounts in thousands)

     1. Entity as Lessee, Assets Under Capital Lease:
        A. Land and Buildings                                  $        408,540   $          408,540
        B. Equipment                                                    408,540                  958
        C. Other                                                              0                    0
        D. Accumulated Amortization                                    -246,439             -221,473
        E. Total Capital Leases                                $        163,059   $          188,025



     Description of Lease Arrangements
     The Air Force is the lessee in twelve capital leases. Eleven leases are for military family housing acquired through Section
     801 Family Housing Program, and one is for a piece of medical equipment. The leased items are capitalized and reported as
     an asset when the costs of the items exceed the capitalization threshold. Leased items not meeting the capitalization thresh-
     old are expensed. All leases originating prior to FY 1992 are funded on a fiscal-year basis. Six of the current military family
     housing leases originated before FY 1992.

     Note 11. Liabilities Not Covered by Budgetary Resources
     As of September 30                                                   2004                   2003
     (Amounts in thousands)

     1. Intra-governmental Liabilities
         A. Accounts Payable                                       $                  0      $              0
         B. Debt                                                                      0                     0
         C. Environmental Liabilities                                               0                        0
         D. Other                                                             682,737                  699,256
        E. Total Intra-governmental Liabilities                    $          682,737        $         699,256

     2. Non-Federal Liabilities
         A. Accounts Payable                                       $          473,152        $              0
         B. Military Retirement Benefits and
         Other Employment-Related Actuarial Liabilities                     1,163,442               1,262,268
         C. Environmental Liabilities                                       6,876,461               7,560,554
         D. Loan Guarantee Liability                                                0                       0
         E. Debt Held by Public                                                     0                       0
         F. Other Liabilities                                               2,721,503               2,922,241
         G. Total Non-Federal Liabilities                          $       11,234,558        $     11,745,063

     3. Total Liabilities Not Covered by Budgetary Resources       $       11,917,295        $     12,444,319

     4. Total Liabilities Covered by Budgetary Resources           $       12,569,893        $     11,567,996

     5. Total Liabilities                                          $       24,487,188        $     24,012,315




50
Other Information
Liabilities Not Covered and Covered by Budgetary Resources - These are liabilities that are not considered covered by real-
ized budgetary resources as of the balance sheet date. Budgetary resources include the following:

•   New budget authority

•   Spending authority from offsetting collections (credited to an appropriation or fund account)

•   Recoveries of unexpired budget authority through downward adjustments of prior-year obligations

•   Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior-year balances
    during the year

•   Borrowing authority or permanent indefinite appropriations that have been enacted and signed into law as of the
    balance sheet date, provided that the Office of Management and Budget (OMB) can apportion the resources with
    out first meeting a contingency or without additional action by the Congress.

Liabilities Covered by Budgetary Resources
These are resources the reporting entity incurred that are covered by realized budget resources as of the balance sheet
date. Budgetary resources encompass not only new budget authority but also other resources available to cover liabilities
for specified purposes in a given year. Available budgetary resources include the following:

•   New budget authority

•   Spending authority from offsetting collections (credited to an appropriation or fund account)

•   Recoveries of unexpired budget authority through downward adjustments of prior-year obligations

•   Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior-year balances during
    the year

•   Borrowing authority or permanent indefinite appropriations that have been enacted and signed into law as of the bal-
    ance sheet date, provided that the OMB can apportion the resources without first meeting a contingency or without
    additional action by the Congress.

Fluctuations and Abnormalities
Accounts Payable—Cancelled Appropriations increased 100 percent, when compared with FY 2003. The increase is due to
a change in the USSGL crosswalk. USSGL 2960, Accounts Payable from Cancelled Appropriations, is now reported on the
Accounts Payable lines of the Balance Sheet instead of Other Liabilities.

Information Related to Liabilities Not Covered by Budgetary Resources
Other Liability Disclosures
Other Intra-governmental Liabilities Not Covered by Budgetary Resources consists of $101,737 thousand in judgement fund
liabilities, $304,420 thousand in Federal Employees’ Compensation Act (FECA) reimbursement to the Department of Labor,
$25,823 thousand in unemployment compensation liabilities, $3,329 thousand in education benefit liabilities, and $250,757
thousand in custodial liabilities.




                                                                                                                              51
                   United States Air Force • 2004 Annual Financial Statement



     Other Nonfederal Liabilities Not Covered by Budgetary Resources consists of $91,980 thousand in nonenvironmental dis-
     posal liabilities, $47,224 thousand in capital lease liabilities, $308,765 thousand in contingent liabilities, $2,272,599 thousand in
     accrued annual leave liabilities for military and civilians, and $934 thousand in accrued interest liability.

     Note Reference
     For Additional Line Item discussion, see:

     •     Note 12, Accounts Payable

     •     Note 13, Debt

     •     Note 14, Environmental Liabilities and Disposal Liabilities

     •     Note 15, Other Liabilities

     •     Note 16, Commitments and Contingencies

     •     Note 17, Military Retirement Benefits and Other Employment Related Actuarial Liabilities

     Note 12. Accounts Payable
      As of September 30                                                          2004                                  2003
                                                                           Interest, Penalties,
                                                           Accounts
                                                                           and Administrative           Total           Total
                                                           Payable
                                                                                  Fees
         (Amounts in thousands)


      1. Intra-governmental Payables:                       $ 1,900,411           N/A                 $ 1,900,411   $    1,413,940
      2. Non-Federal Payables (to the Public):              $ 7,707,163     $                     0   $ 7,707,163   $    7,080,910
      3. Total                                              $ 9,607,574     $                     0   $ 9,607,574   $    8,494,850


     Other Information:
     The Intra-governmental Payables category consists of amounts owed to other federal agencies for goods or services ordered
     and received but not yet paid for. Interest, penalties, and administrative fees are not applicable to intra-governmental
     payables. The Nonfederal Payables (to the Public) category consists of payments to nonfederal governmental entities

     Fluctuations
     The fluctuation associated with Intra-governmental accounts payable is the direct result of the elimination process which
     requires the accrual of accounts payable to agree with Air Force trading partner seller data. The increase is primarily attrib-
     utable to recording level 1 accounts payable based on actual seller side data provided by the agency or using an estimation
     technique for those agencies that did not provide actuals. Buyer side adjustments for FY 2004 were significantly higher than
     for previous periods. Air Force accrued $2,034,149 thousand in FY 2004 compared to $1,054,040 thousand in FY 2003.

     Intra-governmental Eliminations
     For the majority of intra-agency sales, the Air Force’s feeder and the DFAS accounting systems do not capture trading part-
     ner data at the transaction level in a manner that facilitates trading partner aggregations. Therefore, the Air Force was
     unable to reconcile intra-governmental accounts payable to the related intra-governmental accounts receivable that generat-
     ed the payable. The DoD and Air Force intend to develop long-term systems improvements that will include sufficient




52
up-front edits and controls to eliminate the need for after-the-fact reconciliations. The volume of intra-governmental trans-
actions is so large that after-the-fact reconciliation cannot be accomplished with the current or foreseeable resources. The
DoD summary-level seller accounts receivables were compared to the Air Force accounts payable. An adjustment was
posted to the Air Force accounts payable based on the comparison with the accounts receivable of the DoD components
providing goods or services to the Air Force.

Comparison prior to eliminations:

                                                   Sep 2004           Sep 2003           $ Change
Intra-governmental accounts payable
before eliminations                               $ 2,462,030         $ 1,805,481         $ 656,549
Less Intra-Air Force eliminationss                  $ 561,620           $ 391,541        $ -170,079
Total                                            $ 1,900,410         $1,413,940          $ 486,470
(All data in thousands)

Allocation of Undistributed Disbursements
The DoD policy is to allocate supported undistributed disbursements between federal and nonfederal categories based on
the percentage of federal and nonfederal accounts payable. Unsupported undistributed disbursements should be recorded in
the United States Standard General Ledger account 2120, Disbursements in Transit. The Air Force followed this
allocation policy.

Note Reference
See Note Disclosure 1.G., Significant Accounting Policies, for additional discussion on financial reporting requirements and
DoD policies governing accounting for intra-governmental activities.

Note 13. Debt
Not Applicable

Other Information
Note Reference
See Note Disclosure 1.G., Significant Accounting Policies, for additional discussion on financial reporting requirements and
DoD policies governing accounting for Intra-governmental Activities, Public Debt.




                                                                                                                                53
                     United States Air Force • 2004 Annual Financial Statement




     Note 14. Environmental Liabilities and Disposal Liabilities
     As of September 30                                                                         2004                               2003
                                                                                               Noncurrent
                                                                       Current Liability                          Total            Total
                                                                                                 Liability
     (Amounts in thousands)

     1. Environmental Liabilities – Non Federal
         A. Accrued Environmental Restoration (DERP funded) Costs:
          1.   Active Installations—Environmental Restoration (ER)      $         382,368      $   3,842,847     $ 4,225,215   $    4,901,889
          2.   Active Installations—ER for Closed Ranges                           15,000          1,329,856       1,344,856          838,172
          3.   Formerly Used Defense Sites (FUDS)—ER                                    0                  0               0                0
          4.   FUDS—ER for Transferred Ranges                                           0                  0               0                0

        B. Other Accrued Environmental Costs (Non-DERP funds)
          1. Active Installations—Environmental Corrective Action                          0         182,385         182,385          204,341
          2. Active Installations—Environmental Closure Requirements                 6,177           106,106         112,283           66,454
          3. Active Installations—Environ.Response at Active Ranges                      0                 0               0                0
          4. Other                                                                       0                 0               0                0

        C. Base Realignment and Closure (BRAC)
         1. BRAC Installations—Environmental Restoration (ER)                     132,134          1,247,513       1,379,647        1,908,999
         2. BRAC Installations—ER for Transferring Ranges                               0                  0               0                0
         3. BRAC Installations—Environmental Corrective Action                     13,677            129,124         142,801          139,956
         4. Other                                                                       0                  0               0                0

        D. Environmental Disposal for Weapons Systems Programs
         1. Nuclear Powered Aircraft Carriers                                              0                 0            0                 0
         2. Nuclear Powered Submarines                                                     0                 0            0                 0
         3. Other Nuclear Powered Ships                                                    0                 0            0                 0
         4. Other National Defense Weapons Systems                                         0                 0            0            50,592
         5. Chemical Weapons Disposal Program                                              0                 0            0                 0
         6. Other                                                                          0                 0            0                 0

     2. Total Environmental Liabilities:                                $         549,356      $   6,837,831     $ 7,387,187   $    8,110,403


     Other Information Related to Environmental Liabilities
     Fluctuations
     Accrued Environmental Restoration Costs (Defense Environmental Restoration Program [DERP]-funded) Active Installations
     – Environmental Restoration decreased $676,673 thousand, or 14 percent, when compared with FY 2003. This decrease is
     in line with an 11 percent decline in sites and a lower actual inflation rate than originally estimated, so existing site costs did
     not increase as fast as in prior years. Strict management program reviews early in FY 2004 led to better control of costs and
     the net closure of approximately 289 sites during the year.

     Accrued Environmental Restoration Costs (DERP-funded) Active Installations – Environmental Restoration for Closed Ranges
     increased $506,684 thousand, or 60 percent, when compared with FY 2003. The total number of all sites at September 30,
     2003 was 260. The comparable number of sites for September 30, 2004 was 292, which indicates the increase expected.
     However, this total number of sites includes sites that are closed, as well as active sites. The operation closed 52 sites during
     FY 2004, which leaves active sites at 240 as of September 30, 2004. The number of active sites at September 30, 2003 was
     210. Because of the relatively new nature of the munitions response reporting for closed ranges and expected growth in
     sites, the Air Force believes this liability will continue to grow significantly for several years.

     Other Accrued Environmental Costs (Non-DERP funds) Active Installations – Environmental Corrective Action decreased
     $21,956 thousand, or 11 percent, when compared with FY 2003. Resource Conservation and Recovery Act (RCRA) correc-
     tive action sites are defined by the Environmental Protection Agency as Solid Waste Management Units (SWMU). SWMUs



54
are not determined in a scientific manner and may arise from any indication of potential pollution. Therefore, there are a
high number of SWMUs. Superficial investigation generally leads to the conclusion that there is no significant pollution at the
SWMU. The amount of the liability fluctuates greatly from year-to-year as further investigation results in significant changes
in cost estimates. These changes result from the additional information gained in each step of the cleanup process and the
relatively few sites that actually require significant cleanup costs.

Other Accrued Environmental Costs (Non-DERP funds) Active Installations – Environmental Closure Requirements
increased $45,829 thousand, or 69 percent, when compared with FY 2003. The increase is due to a change in the amortiza-
tion computation for Underground Storage Tanks (USTs) and Landfills. Amortization of USTs is now based on the year the
facility is placed in service instead of the planned year for closure. Additionally, the inventory of Landfills and USTs has
expanded as reporting continues to improve. Likewise, units reported have moved to the use of the Remedial Action Cost
Engineering and Requirements System (RACER) as the estimating tool, which changes the cost estimates from previous peri-
ods. The Air Force expects continued increase in the liability for closures as the inventory of facilities with a liability contin-
ues to increase and cost estimates are changed to the verified, validated, and approved cost methodology of RACER. During
FY 2005, the liability for Treatment, Storage, and Disposal Facilities (TSDFs) is expected to increase significantly as the amor-
tization computation is changed to the year the facility was placed in service instead of the planned closure year.

Base Realignment and Closure (BRAC) Installations – Environmental Restoration decreased $529,352 thousand, or 28 per-
cent, when compared with FY 2003. The decrease is due to a new cost estimating and reporting policy being used by the
active Air Force. In the past, site cost estimates were run until the duration of the remediation, for example, FY 2300. This
policy was changed to 25 years of Remediation Action Operation (RA-O) with a 5 year Long Term Monitoring (LTM) cost
estimate that means the site cost estimate would be cut-off by FY 2034.

Optimization of existing systems contributed to the decrease. This is a systematic approach for evaluating and improving site
remediation processes by reducing risk and enhancing system performance, minimizing both short and long term costs,
assessing decision logic to reach site cleanup goals, and accelerating site closure. Also, a portion of the cost reduction is due
to privatization, in which the government cleanup function has been converted to the private sector. Additionally, the FY
2003 ending liability balance for Environmental Restoration was in error. $139,956 thousand of Environmental Corrective
Action requirements were added to the Environmental Restoration line as well as being reported on the Environmental
Corrective Action line. The new ending Environmental Restoration balance includes the correction, contributing to the
reported decrease.

Environmental Disposal for Weapons Systems Programs - Other National Defense Weapons Systems decreased $50,592
thousand, or 100 percent, when compared with FY 2003. The decrease is due to a policy change during FY 2004 that trans-
ferred accounting responsibility for all disposal costs to the Department of the Army for inclusion in their financial state-
ments. The Air Force no longer reports this activity.

General Disclosures
Accrued Environmental Restoration Costs (DERP-funded) Active Installations – Environmental Restoration and
Other Accrued Environmental Costs (Non-DERP funds) Active Installations – Environmental Corrective Action

Environmental cleanup liabilities are incurred in connection with the Comprehensive Environmental Response,
Compensation, and Liability Act (CERCLA) and the Resource Conservation and Recovery Act (RCRA). Cost estimates are
performed using the RACER unless there is a historic comparable project, a specific bid, or an independent government cost
estimate for the project. The liability amount is composed of the sum of several stages of activity and not necessarily con-
tained in a single estimate or contract.




                                                                                                                                      55
                  United States Air Force • 2004 Annual Financial Statement



     The change in environmental cleanup liability during a reporting period is comprised of revaluations of the cost-to-complete
     cleanup of sites that existed at the beginning of the period plus the cost-to-complete cleanup for new sites introduced during
     the reporting period, less amounts expensed in the program during the reporting period. The beginning environmental
     cleanup liability plus the cost-to-complete new sites added during the period plus or minus changes in cost-to-complete esti-
     mates (revaluations) during the period is equal to the ending environmental cleanup liability for the period. Because the
     DERP is accounted for as a totally self-contained program, all direct and indirect costs of the program are captured and
     reported.

     Non-DERP, non-BRAC environmental cleanup liabilities represent corrective actions required under RCRA law. These envi-
     ronmental cleanup liabilities are estimated in the same manner as DERP environmental cleanup liabilities. The change in non-
     DERP, non-BRAC environmental cleanup liabilities during a reporting period is comprised of revaluations of the cost-to-com-
     plete for sites that existed at the beginning of the period plus the cost-to-complete for new sites added during the reporting
     period less amounts expensed during the period. Because the non-DERP, non-BRAC environmental cleanup activity is part of
     general funding achieved using 3400 appropriation funds, there is no special accounting for the costs of the entire program.
     Therefore, the costs captured for the non-DERP, non-BRAC environmental cleanup reflect only direct costs. Because this
     program was not tracked and appropriated specifically, there was no accounting specific to this program. Expense codes for
     this program were established in 1999 and implemented in FY 2000. Therefore, the expense portion of the estimate has no
     significant history. Because of the lack of expense history for the program, there is no reliable data for estimating the current
     portion of the non-DERP, non-BRAC environmental cleanup liability. It is believed that the current portion of the environ-
     mental cleanup liability in this area is relatively small and not material in the classification of liabilities. Because the non-DERP
     non-BRAC environmental cleanup liabilities are only estimated between 1 July and 1 September of each year, there is no sig-
     nificant change other than at fiscal yearend for non-DERP non-BRAC environmental liabilities. On less than an annual basis
     the only change to the liability estimate in this area is the amount recorded as expensed during the reporting period.

     Included in the environmental restoration liability for active installations are 27 sites that represent building demolition and
     debris removal costs of approximately $56,500 thousand at September 30, 2004. Building demolition and debris removal
     costs represent a mixture of environmental and nonenvironmental costs that are not separated due to their joint nature.

     Accrued Environmental Restoration Costs (DERP funded) Active Installations – Environmental Restorations for
     Closed Ranges

     The environmental cleanup of military ranges is governed by the Military Munitions Rule in 40 CFR 266.201. Environmental
     cleanup liabilities on ranges refer only to munitions related activities. Other actions are captured under the DERP, BRAC,
     and non-DERP, non-BRAC environmental cleanup categories. Additionally, environmental cleanup liabilities are reported only
     for closed ranges. As of September 30, 2002, the Air Force had 509 ranges, of which 268 were considered operational
     ranges. The environmental cleanup liability is reported only for closed ranges that numbered 260 as of September 30, 2003
     (236 closed, 18 transferred, and 6 transferring).

     Environmental cleanup areas within a closed range are referred to as Munitions Response Areas (MRAs). As studies are
     done to find munitions- related contamination on closed ranges, the number of sites is expected to rise. As of September
     30, 2003, there were 210 active areas on closed ranges resulting in an estimated environmental cleanup liability of $838,172
     thousand, increasing to 240 active areas with an estimated cost of $1,344,856 thousand by September 30, 2004. As investi-
     gations progress, the number of sites will increase to reflect specific areas of pollution. The Air Force expects the number of
     sites reported to increase as pollution is discovered and sites are defined in areas less than the total boundary of the closed
     range. For example, one closed range of 100 acres may become three sites: one of five acres with pollution A, one of 15
     acres with pollution B, and the remaining 80 acres with no pollution found. Thus, one closed range can become three sites,
     each with its own cost-to-complete cleanup estimate. The sum of the sites’ costs-to-complete cleanup becomes the envi-



56
ronmental cleanup liability for closed ranges. The environmental cleanup for closed ranges is in its infancy, and the total lia-
bility is expected to increase significantly over the coming years as investigations progress. Current policy is to investigate all
closed ranges by the end of 2007.

Although there are no stated standards for the environmental cleanup of closed ranges, the Air Force has implemented stud-
ies to determine the extent of pollution from munitions. It is expected that there will be significant changes in range cleanup
standards that eventually will be applied on a case-by-case basis for munitions-response requirements.

As investigations progress, it is expected the environmental cleanup liability for closed ranges will increase materially. The
liability for environmental cleanup will reflect direct costs. Also, the lack of expense history for range environmental cleanup
makes it impossible to estimate current liabilities reliably for some time. The current liability reflects the amount contained
in the President’s Budget that shows the expected activity for the next fiscal year.

Other Accrued Environmental Costs (Non-DERP funds) Active Installations – Environmental Closure
Requirements

Environmental closure liabilities are incurred under RCRA with the cost-to-complete closure reported for RCRA facilities.
Cost estimates are prepared under assumptions of a clean close, as defined in the RCRA law and estimated using RACER in
the absence of a specific contract cost or bid. The specific facilities reported cover landfills, Underground Storage Tanks
(USTs), and Treatment, Storage and Disposal Facilities (TSDFs).

Disposal liabilities are presented as an accrued amount for the life of the RCRA facilities, and the total liability is presented in
the year-end narrative. The accounting standard requires full cost be recognized for closure liability. Closure liabilities rec-
ognized by the Air Force cover only direct costs. No cost accounting exists to determine indirect closure costs. This is not
considered material in the cost estimates because indirect costs incurred would not happen for at least 20 years and, in many
cases, far beyond 20 years. The present value of such costs would be negligible in recognition of closure liabilities.

There are no material changes in environmental closure liabilities on less than an annual basis because revaluation and addi-
tion of new sites occurs in the last quarter of the year in preparation for the budget process. Because environmental closure
liabilities are estimated in the last quarter of the year, new closure sites recognized in the last quarter of the year and no
accounting process to capture environmental closure expenses, there is no material change in environmental closure liabili-
ties on less than an annual basis. The total amortized annual portion of the liability estimate is recognized in the fiscal
yearend liability, therefore, there is no change in the amortized liability amount on a quarterly basis. There is no value to the
amortization of the estimated liability more frequently than annually because there is no cash impact for such recognition and
there is no funding requirement in connection with the liability amortization. Because the function does not generate any
revenues it is not essential to match costs against revenues to establish net income.

The environmental closure liability for landfills is based on the proportion of the landfill used as of the reporting date. This
estimate includes the cost of capping the fill, as well as 30 years of monitoring required by federal regulations.

Reporting of landfill closure liability is not in conformance with the accounting standard. The standard would recognize all
future costs regardless of timing. The Air Force recognizes only the initial closure. A landfill cap typically requires replace-
ment every 20 to 40 years. An estimation of current costs based on all future costs, regardless of timing, would result in an
infinite liability. This result would be meaningless and not the intent of the standard. Therefore, the Air Force reports only
the cost of the initial cap required to close a landfill. The Air Force believes this reporting is more meaningful. The present
value of the future caps (those after the initial cap) would be negligible.




                                                                                                                                       57
                 United States Air Force • 2004 Annual Financial Statement



     UST closure liabilities are based on an assumed life of 20 years and two years of monitoring with closure costs estimated for
     a clean close. (Clean close is defined in the federal regulations.) TSDF closure liabilities are based on an assumed life of 30
     years. Disposal costs include two years of monitoring with closure costs estimated for a clean close.

     The unamortized and amortized liability amount is disclosed below. The amortized liability is the amount recognized on the
     financial statements.

                                                                      FY 2004
                                                                (amounts in thousands)
                                                               Unamortized      Amortized
                                              TSDFs               $18,193          $5,361
                                              Landfills          $204,590         $64,822
                                              USTs                $59,229         $42,100
                                              Total             $282,012        $112,283



     Base Realignment and Closure (BRAC) Installations – Environmental Restoration and Environmental
     Corrective Action

     The Air Force Real Property Agency (AFRPA) estimates a $1,522,448 thousand total environmental liability as of September
     30, 2004. This amount includes all cleanup requirements to meet applicable laws and regulatory requirements and to trans-
     fer property. However, this amount does not include Land Use Control/Institutional Control costs beyond system opera-
     tions associated with property transfer. Cost estimates are assigned to current operating periods using RACER.

     Reporting of Estimates

     Our financial statements are prepared in accordance with Federal Generally Accepted Accounting Principles. These
     accounting principles require us to make certain estimates, judgments, and assumptions that we believe are reasonable based
     upon information available to us at the time. These estimates, judgments, and assumptions can affect the reported amounts
     of environmental liabilities as of the date of the financial statements.

     Our financial statements would be affected to the extent there are material differences between these estimates and actual
     results. In many cases, the accounting treatment of a particular transaction is specifically dictated by the Department of
     Defense (DoD) Financial Management Regulations (FMRs) and does not require management’s judgment in its application.
     There also are areas in which management judgment in selecting any available alternative could produce a materially different
     result.

     Note Reference
     For regulatory discussion on environmental liabilities, see DoD FMR, Volume 6B, Chapter 10, Paragraph 1016 and Volume 4,
     Chapters 13 and 14.




58
Note 15.A. Other Liabilities
As of September 30                                                                              2004                                2003
                                                                                              Noncurrent
                                                                          Current Liability                        Total            Total
                                                                                               Liability
(Amounts in thousands)

1. Intra-governmental:
    A. Advances from Others                                                $        664,325   $            0   $      664,325   $      145,290
    B. Deferred Credits                                                                   0                0                0                0
    C. Deposit Funds and Suspense Account Liabilities                                23,508                0           23,508           23,503
    D. Resources Payable to Treasury                                                      0                0                0                0
    E. Disbursing Officer Cash                                                      311,323                0          311,323          273,536
    F. Nonenvironmental Disposal Liabilities:
       (1) National Defense PP&E (Nonnuclear)                                             0              0                  0                0
       (2) Excess/Obsolete Structures                                                     0              0                  0                0
       (3) Conventional Munitions Disposal                                                0              0                  0                0
       (4) Other                                                                          0              0                  0                0
    G. Accounts Payable—Cancelled Appropriations                                          0              0                  0                0
    H. Judgement Fund Liabilities                                                        43        101,737            101,780          252,091
    I. FECA Reimbursement to the Department of Labor                                135,509        168,912            304,421          304,751
    J. Capital Lease Liability                                                            0              0                  0                0
    K. Other Liabilities                                                            321,123              0            321,123          624,734
    L. Total Intra-governmental Other Liabilities                          $      1,455,831   $    270,649     $    1,726,480   $    1,623,905
2. Non-Federal:
    A. Accrued Funded Payroll and Benefits                                 $      1,589,124   $          0     $    1,589,124   $    1,289,522
    B. Advances from Others                                                          71,763              0             71,763           68,038
    C. Deferred Credits                                                                   0              0                  0                0
    D. Loan Guarantee Liability                                                           0              0                  0                0
    E. Liability for Subsidy Related to Undisbursed Loans                                 0              0                  0                0
    F. Deposit Funds and Suspense Accounts                                           30,199              0             30,199           29,181
    G. Temporary Early Retirement Authority                                             304          1,199              1,503            5,143
    H. Nonenvironmental Disposal Liabilities:
       (1) National Defense PP&E (Nonnuclear)                                             0              0                  0                0
       (2) Excess/Obsolete Structures                                                30,280         61,700             91,980           70,689
       (3) Conventional Munitions Disposal                                                0              0                  0            5,880
       (4) Other                                                                          0              0                  0                0
    I. Accounts Payable—Cancelled Appropriations                                          0              0                  0          445,939
    J. Accrued Unfunded Annual Leave                                              2,272,599              0          2,272,599        2,152,619
    K. Accrued Entitlement Benefits for Military Retirees and Survivors                   0              0                  0                0
    L. Capital Lease Liability                                                       32,900        202,736            235,636          263,801
    M. Other Liabilities                                                                934        308,767            309,701          190,076
    N. Total Non-Federal Other Liabilities                                 $      4,028,103   $    574,402     $    4,602,505   $    4,520,888
3. Total Other Liabilities:                                                $      5,483,934   $    845,051     $    6,328,985   $    6,144,793




Other Information Pertaining to Other Liabilities
Intra-governmental Fluctuations
The $609,675 thousand increase in Advances from Others on Line 1.A. in comparison with FY 2003 is due to the timing of
the receipt and execution of orders mainly in the Research, Test and Development (RDT&E) classified program, causing vari-
ations in the year-end balances.

The $37,787 thousand increase in Disbursing Officer Cash on Line 1.E. is attributed to the reduction of requirements that
have subsided in asociation with Operation Iraqi Freedom, with has returning to pre-war levels.

The decrease on Line 1.K is due to the reduction of custodial liability in the recording of off-line receivables.

The decrease in Judgement Fund liabilities of $150,510 thousand result from contractor claims under the Contract Disputes
Act on Air Force contracts that have been adjudicated by a court or a board in favor of the contractor. Initially, Treasury




                                                                                                                                                 59
                  United States Air Force • 2004 Annual Financial Statement



     pays the monetary awards to the contractor. The Air Force must subsequently reimburse the Treasury’s Judgement Fund
     for the amount that was paid to the contractors. The amount reported as the total Judgement Fund liability is the amount
     owed as of September 30, 2004. This amount includes approximately $42 thousand owed for Judgement Fund liabilities that
     resulted because of the Notification and Federal Employee Antidiscrimination and Retaliatory Act of 2002. This amount can
     change daily and can fluctuate substantially due to new billings by the Treasury and payments made to the Treasury by DFAS
     and the U.S. Army Corps of Engineers on behalf of the Air Force.

     Other Liabilities
     The amount of $321,124 thousand represents $41,216 thousand in government contributions for employee benefits,
     $25,823 thousand in unfunded unemployment compensation liabilities, $250,756 thousand in custodial liabilities, and $3,329
     thousand in DoD education benefit liabilities.

     Non-Federal Fluctuations
     Accrued Funded Payroll and Benefits increased $299,602 thousand, or 23 percent, when compared with FY 2003. The
     change is due to the increase in the number of military personnel when Air Force Reserve and Air National Guard military
     personnel were activated in support of the war effort.

     The Temporary Early Retirement Authority (TERA) liabilities decrease of $3,640 thousand is due to the termination of the
     program in FY 2002.

     Nonenvironmental Disposal Liabilities – Excess/Obsolete Structures increased $21,291 thousand, or 30 percent, when com-
     pared with FY 2003. The increase is attributable to the recently completed housing market analysis that better defined the
     Air Force’s surplus, inadequate housing inventory. Modifications in future year demolition strategy account for the change in
     disposal liability.

     Nonenvironmental Disposal Liabilities – Conventional Munitions Disposal decreased $5,880 thousand, or 100 percent, when
     compared with FY 2003. The decrease is due to a policy change during FY 2004 that transferred accounting responsibility
     for all disposal costs to the Department of the Army for inclusion in their financial statements. The Air Force no longer
     reports this activity.

     Accounts Payable – Cancelled Appropriations decreased $445,939 thousand, or 100 percent, when compared with FY 2003.
     The decrease is due to a change in the U.S. Standard General Ledger (USSGL) crosswalk. USSGL 2960, Accounts Payable
     from Cancelled Appropriations, is now reported on the Accounts Payable lines of the Balance Sheet instead of
     Other Liabilities.

     The increase in contingent liabilities of $106 thousand is attributed to the win/loss settlement of case(s) and the associated
     dollar value.

     The change in Capital Lease Liability is due to a decrease in leases held by the Air Force in FY04.

     Non-Federal
     Other Liabilities
     The amount of $309,700 thousand represents legal contingencies of $308,766 thousand and accrued interest liability of
     $934 thousand.

     The recorded estimated probable liability amount of $13,550 thousand has been included in the accompanying financial state-
     ments for open contractor claims greater than $100,000 and neither under appeal nor in litigation. In addition to the con-



60
tractor claims under appeal and the open contractor claims for an amount greater than $100,000, the Air Force was party to
numerous other contractor claims in amounts less than $100,000 per claim. These claims are a routine part of the contract-
ing business and are typically resolved through mutual agreement between the contracting officer and the contractor.
Because of the routine nature of these claims, no requirement exists for a consolidated tracking mechanism to record the
amount of each claim, the number of open claims, or the probability of the claim being settled in favor of the claimant. The
potential liability arising from these claims in aggregate would not materially affect the operations or financial condition of the
Air Force. A reasonably possible liability is estimated at $5,669 thousand and is not included in the reported amount.

The total estimated probable liability for claims and litigation against the Air Force handled by the Civil Law and Litigation
Directorate, as of September 30, 2004, was valued at $284,526 thousand and has been included in the accompanying finan-
cial statements. As of June 30, 2004, the Air Force was party to 3,548 claims and litigation actions. This liability dollar
amount recorded in the financial statements is an estimate based on the weighted average payout rate for the previous three
years. A reasonably possible liability is estimated at $246,008 thousand and is not included in the reported amount. Neither
past payments nor the current contingent liability estimate provides a basis for accurately projecting the results of any indi-
vidual lawsuit or claim. It is uncertain that claims will ever accrue to the Air Force. In addition, many claims and lawsuits,
even if successful, will not be paid out of Air Force Funds.

As of September 30, 2004, the Air Force was party to 62 contract appeals before the Armed Services Board of Contract
Appeals (ASBCA). The probable amount of loss from contractor claims of $10,689 thousand has been included in the finan-
cial statements. The contractor claims involve unique circumstances, which are considered by the ASBCA in formulating
decisions on the cases. Such claims are funded primarily from Air Force appropriations. A reasonably possible liability is esti-
mated at $115,624 thousand and is not included in the reported amount.

Other Disclosures
Intra-governmental Reconciliation for Fiduciary Transactions with the Department of Labor (DoL) and the Office
of Personnel Management (OPM):

With respect to the major fiduciary balances with the DoL and the OPM, the Air Force was able to reconcile with the OPM
and the DoL. During these reconciliations, immaterial differences were identified.

Note 15.B. Capital Lease Liability
 As of September 30                                                                    2004                                          2003
                                                                                   Asset Category

                                                           Land and Buildings       Equipment       Other           Total            Total

 (Amounts in thousands)

 1. Future Payments Due:
     A. 2004                                              $               45,433     $          0   $       0   $       45,433   $      45,600
     B. 2005                                                              45,152                0           0           45,152          45,475
     C. 2006                                                              42,056                0           0           42,056          45,152
     D. 2007                                                              38,978                0           0           38,978          42,056
     E. 2008                                                              38,502                0           0           38,502          38,978
     F. After 5 Years                                                    115,278                0           0          115,278         165,138
    G. Total Future Lease Payments Due                    $              325,399     $          0   $       0   $      325,399   $     382,399
    H. Less: Imputed Interest Executory Costs                             89,761                0           0           89,761         118,597
    I. Net Capital Lease Liability                        $              235,638     $          0   $       0   $      235,638   $     263,802

 2. Capital Lease Liabilities Covered by Budgetary Resources:                                                   $      188,413   $     299,510

 3. Capital Lease Liabilities Not Covered by Budgetary Resources:                                               $       47,224   $      82,679




                                                                                                                                                 61
                    United States Air Force • 2004 Annual Financial Statement




     Other Information
     The Air Force is the lessee in eleven capital leases for family housing. Six of the military housing leases were awarded prior
     to FY 1992 and are funded on a FY basis.

     Note 16. Commitments and Contingencies
     Disclosures Related to Commitments and Contingencies
     Relevant Information for Comprehension
     The Commitments and Contingencies consist of the following reasonably possible liabilities:

     Contractual Actions:

                Contractor Claims                                                                                $5,669 Thousand

                Appeals before Armed Services Board of Contract Appeals (ASBCA)                           $115,624 Thousand

                                                                                                          $121,293 Thousand

     Claims and Litigation from Civil Law:                                                                $246,008 Thousand

                                                                                   Total                  $367,301 Thousand

     Note Reference
     See Note Disclosure 1.S., Significant Accounting Policies, for additional discussion on financial reporting requirements and
     Department of Defense policies governing Contingencies and Other Liabilities.

     Note 17. Military Retirement Benefits and Other Employment Related Actuarial
     Liabilities
      As of September 30                                                                     2004                                              2003

                                                        Actuarial Present        Assumed       (Less: Assets
                                                                                                                     Unfunded              Unfunded
                                                        Value of Projected        Interest    Available to Pay
                                                                                                                  Actuarial Liability   Actuarial Liability
                                                          Plan Benefits          Rate (%)         Benefits)

      (Amounts in thousands)

      1. Pension and Health Benefits:
          A. Military Retirement Pensions                 $                  0                      $        0       $              0      $              0
          B. Military Retirement Health Benefits                             0                               0                      0                     0
          C. Medicare-Eligible Retiree Benefits                              0                               0                      0                     0
          D. Total Pension and Health Benefits            $                  0                      $        0       $              0      $              0

      2. Other:
          A. FECA                                         $      1,163,442                          $        0       $    1,163,442        $    1,262,267
          B. Voluntary Separation Incentive Programs                     0                                   0                    0                     0
          C. DoD Education Benefits Fund                                 0                                   0                    0                     0
          D. [Enter Program Name}                                        0                                   0                    0                     0
          E. Total Other                                  $      1,163,442                          $        0       $    1,163,442        $    1,262,267

      3. Total Military Retirement Benefits and Other
         Employment Related Actuarial Liabilities:        $      1,163,442                          $        0       $    1,163,442       $     1,262,267




62
Military Retirement Pensions—Assumptions
The portion of the military retirement benefits actuarial liability applicable to the Department of the Air Force is reported on
the financial statements of the Military Retirement Fund.

Military Retirement Health Benefits—Assumptions
Health benefits are funded centrally at the Department of Defense (DoD) level. As such, the portion of the health benefits
actuarial liability that is applicable to the Air Force is reported only on the DoD Agency-wide financial statements.

Federal Employees’ Compensation Act (FECA)—Assumptions and Actuarial Cost Method Used
The Air Force’s actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided
to the Air Force at the end of each fiscal year. The liability includes the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases. The liability is determined using a method that utilizes historical ben-
efit payment patterns to predict the ultimate payments. The projected annual benefit payments are then discounted to the
present value using the Office of Management and Budget’s (OMB’s) economic assumptions for 10-year U.S. Treasury notes
and bonds. Cost-of-Living Adjustments (COLAs) and medical inflation factors are also applied to the calculation of projected
future benefits. Interest rate assumptions utilized for discounting were as follows::

                                                            2004
                                                      4.883% in Year 1
                                                5.235% in Year 2 and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage infla-
tion factors (COLAs) and medical inflation factors (consumer price index medical or CPIMs) were applied to the calculation
of projected future benefits. These factors were also used to adjust the methodology’s historical payments to current year
constant dollars.

The compensation COLAs and CPIMs used in the projections for various charge-back years (CBYs) are as follows:

                                       CBY                 COLA               CPIM

                                       2005                2.03%              4.14%

                                       2006                2.73%              3.96%

                                       2007                2.40%              3.98%

                                       2008                2.40%              3.99%

                                       2009+               2.40%              4.02%

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on two
tests: (1) a comparison of the percentage change in the liability amount by agency to the percentage change in the actual pay-
ments, and (2) a comparison of the ratio of the estimated liability to the actual payment of the beginning year calculated for
the current projection to the liability-payment ratio calculated for the prior projection.

Note Reference
For regulatory discussion on “Military Retirement Benefits and Other Employment Related Actuarial Liabilities,” see DoD
Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1019.




                                                                                                                                     63
                 United States Air Force • 2004 Annual Financial Statement




     Note 18. Unexpended Appropriations
      As of September 30                                            2004                        2003
      (Amounts in thousands)

      1. Unexpended Appropriations:
         A. Unobligated, Available                           $              3,284,541   $               8,323,168
         B. Unobligated, Unavailable                                        2,194,414                   1,571,907
         C. Unexpended Obligations                                         44,181,715                  40,847,242
         D. Total Unexpended Appropriations                  $             49,660,670   $              50,742,317


     Other Information Pertaining to Unexpended Appropriations
     Relevant Information for Comprehension
     Unexpended Obligations reported as a component of Unexpended Appropriations include both Undelivered Orders-Unpaid
     and Undelivered Orders-Paid only for direct appropriated funds. This amount is distinct from Change in Amount of Goods,
     Services, and Benefits Ordered but Not Yet Received line of the Statement of Financing, which includes the change during
     the fiscal year in Unexpended Obligations against Budget Authority from all sources.

     An adjustment is reflected in line 1.C., Unexpended Obligations, to balance Note 18 to Unexpended Appropriations reflect-
     ed on the balance sheet. The discrepancy is due to problems in the classification of the Direct vs reimbursable attribute for
     budgetary accounts. Further analysis and corrective action will be accomplished during FY 2005.

     Note 19.A. General Disclosures Related to the Statement of Net Cost
     Disclosures Related to the Statement of Net Cost
     Statement of Net Cost
     The Consolidated Statement of Net Cost (SoNC) in the federal government is unique because its principles are based on
     understanding the net cost of programs and/or organizations that the federal government supports through appropriations or
     other means. This statement provides gross and net cost information that can be related to the amount of output or out-
     come for a given program and/or organization administered by a responsible reporting entity.

     Reporting Entities
     The amounts presented in the SoNC are based on obligations and disbursements and therefore may not in all cases report
     actual accrued costs. The Air Force generally records transactions on a cash basis and not an accrual basis as is required by
     Federal Generally Accepted Accounting Principles (GAAP). Therefore, the Air Force systems do not capture actual costs.
     As such, information presented in the SoNC is based on budgetary obligations, disbursements, and collection transactions, as
     well as non-financial feeder systems; the information is then adjusted to record known accruals for major items such as pay-
     roll expenses, accounts payable, and environmental liabilities.

     Fluctuations and Abnormalities
     Treasury changed the Statement of Net Cost mapping for FY 2004. Other Gains (USSGL 7190) was moved from Gross
     Costs with the Public to Earned Revenue from the Public. Additionally, amounts previously recorded in FY 2003 as Other
     Gains have been ruled as immaterial prior period adjustments that should have been recorded as Other Expenses Not
     Requiring Budgetary Resources (USSGL 6790).




64
Intra-governmental Earned Revenue 25 percent increase is due to larger spending authority earned in the O&M and RDT&E
appropriations. The O&M increase was due to a concerted effort, in August and September 2004, at the Major Command
level to properly code the reimbursable transactions in the accounting system to better reflect the total amount of goods and
services sold to other DoD organizations. The RDT&E increase was a product of an OMB $2 Billion increase to spending
authority (Reimbursable Budget Authority) resulting in a larger amount of goods and services sold to other DoD agencies.

The 106 percent increase in Earned Revenue from the Public is due to two factors. First, reporting of GLA 7190, Other
Gains, to this line is a change for FY 2004. Previously, 7190 was included in Gross Cost. This account includes an increase in
Other Gains on assets resulting from events other than the disposition of assets. Also GLA 7190 was used to adjust transfer-
in balances when the amounts of intra-governmental transfers-out reported by the transferring entity are more than was
accounted for on AF books.

Note 19.B. Gross Cost and Earned Revenue by Budget Functional Classification
Not applicable.

Note 19.C. Gross Cost to Generate Intra-governmental Revenue and Earned
Revenue (Transactions with Other Federal-Non-DoD-Entities) by Budget
Functional Classification
Not applicable.

Note 19.D. Imputed Expenses
 As of September 30                                   2004              2003
 (Amounts in thousands)

 1. Civilian (e.g.,CSRS/FERS) Retirement          $     244,900     $     254,229
 2. Civilian Health                                     393,519           338,180
 3. Civilian Life Insurance                               1,316             1,249
 4. Military Retirement Pension                               0                 0
 5. Military Retirement Health                                0                 0
 6. Judgment Fund                                        23,872            39,334
 7. Total Imputed Expenses                        $     663,607     $     632,992


Other Information
Fluctuations
The Civilian Health imputed expense increased $55,339 thousand, or 16 percent, when compared with FY 2003. The major
factor contributing to this fluctuation is an increase in the cost factors computed by the Office of Personnel Management
(OPM).

The Judgement Fund imputed expense decrease of $15,462 thousand is due to a decline in the number of Air Force lawsuits
requiring payment by the Department of Treasury.

Information Related to Imputed Expenses
The total Civilian Retirement imputed expense of $244,900 thousand is comprised of $219,009 thousand for the Civil Service
Retirement System (CSRS) and $25,891 thousand for the Federal Employees’ Retirement System (FERS).




                                                                                                                                 65
                  United States Air Force • 2004 Annual Financial Statement



     The imputed expenses are equal to the imputed revenue recognized on the Statement of Changes in Net Position and dis-
     closed in detail in Note 20.

     Note 19.E. Benefit Program Expenses
     Not applicable.

     Note 19.F. Exchange Revenue
     Disclosures Related to the Exchange Revenue:
     Exchange Revenue arises when a government entity provides goods and services to the public or to another government for a
     price, or earned revenue. Exchange revenue includes most user charges other than taxes, i.e., regulatory user charges.

     Goods and services provided through reimbursable programs to the public or to another U.S. Government entity (intra-Air
     Force, intra-DoD or other federal entity) is provided at cost. Such reimbursable sales are reported as earned revenues. Costs
     are equal to the amount reported as earned. Since FY 2000, sales to the Foreign Military Trust Fund and related cost of sales
     have been reclassified as nonfederal transactions with the public, rather than as intra-governmental transactions as in prior years.

     Note 19.G. Amounts for Foreign Military Sales (FMS) Program Procurements from
     Contractors
     Disclosures Related to Amounts for FMS Program Procurements from Contractors
     Not applicable.

     Note 19.H. Stewardship Assets
     Disclosures Related to Stewardship Assets
     Stewardship assets include Heritage Assets, Stewardship Land, Nonfederal Physical Property, and Investments in Research
     and Development. The current-year costs of acquiring, constructing, improving, reconstructing, or renovating heritage
     assets; costs of acquiring stewardship land; and costs to prepare stewardship land for its intended use are required to be rec-
     ognized and disclosed in the SoNC or the notes. Such costs, if any, are not separately identifiable and are not believed to be
     material.

     Note 19.I. Intra-governmental Revenue and Expense
     Disclosures Related to Intra-governmental Revenue and Expense:
     Intra-governmental Revenue
     The Air Force’s accounting systems do not capture trading partner data at the transaction level in a manner that facilitates
     trading partner aggregations. Therefore, the Air Force was unable to reconcile intra-governmental revenue balances with its
     trading partners. The DoD intends to develop long-term systems improvements that will include sufficient up-front edits
     and controls to eliminate the need for after-the-fact reconciliation. The volume of intra-governmental transactions is so large
     that after-the-fact reconciliation cannot be accomplished with the existing or foreseeable resources.




66
Intra-governmental Operating Expenses
The Air Force’s operating expenses were adjusted based on a comparison between the Air Force’s accounts payable and the
DoD Summary-level seller accounts receivables. An adjustment was posted to accounts payable and operating expenses to
reflect unrecognized accounts payable and operating expenses.

Note 19.J. Suborganization Program Costs
Not applicable.

Note 20. Disclosures Related to the Statement of Changes in Net Position
 As of September 30
                                             Cumulative Results        Unexpended          Cumulative Results     Unexpended
                                               of Operations          Appropriations         of Operations       Appropriations
                                                   2004                   2004                   2003                2003
 (Amounts in thousands)

 1. Prior Period Adjustments
    Increases/Decreases to Net Position
 Beginning Balance:
     A. Changes in Accounting Standards       $                   0   $                0    $      122,475,076   $                0
     B. Errors and Omissions in Prior Year
        Accounting Reports                                        0                    0                     0                    0
    C. Other Prior Period Adjustments                             0                    0                     0                    0
    D. Total Prior Period Adjustments         $                   0   $                0    $      122,475,076   $                0

 2. Imputed Financing:
     A. Civilian CSRS/FERS Retirement         $          244,900      $                0    $          254,229   $                0
     B. Civilian Health                                  393,519                       0               338,180                    0
     C. Civilian Life Insurance                            1,316                       0                 1,249                    0
     D. Military Retirement Pension                            0                       0                     0                    0
     E. Military Retirement Health                             0                       0                     0                    0
     F. Judgment Fund                                     23,872                       0                39,334                    0
     G. Total Imputed Financing               $          663,607      $                0    $          632,992   $                0




Other Information
Relevant Information for Comprehension
The Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting Standards No. 23,
Eliminating the category National Defense Property, Plant and Equipment, in May 2003. This standard requires the capital-
ization and depreciation of the cost of military equipment. This information was included in the statements through a prior-
period adjustment.

Imputed Financing
The amounts remitted to the Office of Personnel Management (OPM) by and for employees covered by the Civil Service
Retirement System (CSRS), the Federal Employees’ Retirement System (FERS), the Federal Employees Health Benefits
Program (FEHB), and the Federal Employees Group Life Insurance Program (FEGLI) do not fully cover the U.S.
Government’s cost to provide these benefits. An imputed cost is recognized as the difference between the Government’s
cost of providing these benefits to the employees and contributions made by and for them. The OPM provides the cost fac-
tors to Defense Finance and Accounting Service (DFAS) for computation of imputed financing cost. DFAS provides the costs
to the Office of the Under Secretary of Defense (Personnel and Readiness) (OUSD [P&R]) for validation. Approved imputed
costs are provided to the reporting components for inclusion in their financial statements.



                                                                                                                                      67
                  United States Air Force • 2004 Annual Financial Statement



     The total Civilian Retirement imputed financing of $244,900 thousand is comprised of $219,009 thousand for the CSRS and
     $25,891 thousand for the FERS.

     The imputed revenue is equal to the imputed expense recognized in the Statement of Net Cost and disclosed in detail in
     Note 19D.

     Note 21. Disclosures Related to the Statement of Budgetary Resources
     As of September 30                                             2004             2003
     (Amounts in thousands)


     1. Net Amount of Budgetary Resources Obligated for
        Undelivered Orders at the End of the Period             $   42,905,248   $   42,556,665
     2. Available Borrowing and Contract Authority at the End
        of the Period                                                       0                0


     Other Information Related to the Statement of Budgetary Resources
     The amount of direct obligations incurred and apportioned under category A is $74,410,933 thousand, category B is
     $55,500,271 thousand, and exempt is $2,069 thousand. For reimbursable obligations incurred and apportioned, category A
     is $1,100,885 thousand, category B is $3,346,500 thousand, and exempt is $0.

     Unexpended Obligations presented in the SBR includes Unexpended Obligations for both direct and reimbursable funds.
     The Department of Defense has not fully implemented the U.S. Standard General Ledger (USSGL) in all operational account-
     ing systems.

     The statement does not include any amounts for which the Department of Treasury is willing to accept corrections to can-
     celed appropriation amounts, in accordance with the Statement of Federal Financial Accounting Standards No.1.

     Adjustments in funds that are temporarily not available pursuant to public law and those that are permanently not available
     (included in the Adjustments line on the SBR) are not included in the Spending Authority from Offsetting Collections and
     Adjustments line of the SBR or the Spending Authority for Offsetting Collections and Adjustments line of the Statement of
     Financing.

     Due to accounting system deficiencies, the proper amount of intra-agency eliminations for this statement cannot be deter-
     mined. Accounting systems currently do not provide or capture data needed for obligations incurred and recoveries of prior
     year obligations in accordance with the Office of Management and Budget Circular A-11, “Instructions on Budget Execution,”
     requirements. Although the Defense and Accounting Service-Denver (DFAS-DE) developed an alternative methodology to
     calculate these items, the auditors and DFAS-DE concur that this methodology also distorts the obligation figures. As a
     result, the amount of distortion cannot be reliably determined and may or may not be material.

     Note 22. Disclosures Related to the Statement of Financing
     Disclosures Related to the Statement of Financing
     The objective of the Statement of Financing is to reconcile the difference between budgetary obligations and the net cost of
     operations reported. It is presented as combined or combining statements rather than consolidated statements due to intra-
     governmental transactions not being eliminated. Due to limitations in the Department of the Air Force’s financial system,




68
budgetary data are not in agreement with proprietary expenses and assets capitalized. Differences between budgetary and
proprietary data constitute a previously identified deficiency.

Note 1A and Note 1F provide additional detail.

Other Information Related to the Statement of Financing
Components Requiring or Generating Resources in Future Period, Other consists of $56,454 thousand in closed-year liabili-
ties and $(3,249) thousand in DoD education benefit liabilities. Components Not Requiring or Generating Resources, Other,
consists of $(191,867) thousand in bad debt expense, $(584,699) thousand in Other Expenses not Requiring Budgetary
Resources, and $(1,948,496) thousand in Cost Capitalization Offset.

The components and amount of liabilities not covered by budgetary resources are disclosed in Note 11, Liabilities Not
Covered by Budgetary Resources.

Intra-entity transactions have not been eliminated because the statements are presented as combined and combining.

Budgetary data are not in agreement with Proprietary Expenses and Asset Capitalized. This causes a difference between
Net Cost on the Statement of Net Cost and on the Statement of Financing. The amount on the “Resources that finance the
acquisition of assets” line has been adjusted $28,258 thousand to resolve differences.

Note 23. Disclosures Related to the Statement of Custodial Activity
Not applicable.

Note 24.A. Other Disclosures
 As of September 30                                              2004                                          2003
 (Amounts in thousands)
                                   Land and Buildings    Equipment           Other            Total            Total
 B. Future Payments Due:
 Fiscal Year
 2005                               $              113   $           0   $      114,821   $      114,934   $           1,399
 2006                                               55               0          117,117          117,172                 738
 2007                                               63               0          119,460          119,523                 458
 2008                                               84               0          121,849          121,933                  87
 2009                                               98               0          124,286          124,384                  85
 After 5 Years                                     195               0                0              195                  87
 Total Future Lease Payments Due    $              608   $           0   $      597,533   $      598,141   $           2,854


ENTITY AS LESSEE—Operating Leases
Fluctuations and Abnormalities
The increase in the Other Lease Category costs from FY03Q4 and FY04Q4 is due to a dramatic increase in the number of
high-cost leases entered into by the Air Force (AF) in support of contingency operations in SWA/Afghanistan and AMC’s
efforts to convert their administrative support fleet to GSA leases. The bulk of the spike in lease costs for SWA and
Afghanistan was the result of Air Combat Command (ACC) continuous effort to accomplish vehicle validation visits at all
deployed locations, increased OPSTEMPO, and continued fluidity with build up of steady state operating locations. ACC
expects continued significant quarterly changes in SWA commercial leases until a more stable environment is realized.
Additionally, our GSA lease cost figures may continue to increase because as more alternative fuels become available, the AF
is moving to GSA leases for general purpose Alternative Fueled Vehicles. We expect GSA lease costs will stabilize by the end
of FY05 unless we have significant operational increase or changes in environmental laws affecting Federal fleets. The



                                                                                                                               69
                 United States Air Force • 2004 Annual Financial Statement



     increase in the Land and Buildings Category cost between FY07 and FY11 is due to an additional 1700 family housing units
     for USAF-Europe. The Air Force has no leases in the Equipment Category and does not anticipate any in the future.

     Definitions
     •   Lessee—A person or entity who receives the use and possession of leased property (e.g. real estate or equipment)
         from a lessor in exchange for a payment of funds.

     •   Operating Lease—A lease which does not transfer substantially all the benefits and risk of ownership. Payments should
         be charged to expense over the lease term as it becomes payable.

     Land and Buildings Leases consist of:

     •   Description of Leases: The figures represent operating leased facilities in the U.S. and overseas applicable to active Air
         Force, Air Force Reserve and Air Force National Guard.

     Equipment Leases consist of:

     •   Description of Leases: Operating leases for medical equipment are one-year leases with four option years. Each year,
         facilities must specifically exercise the option to continue the lease. The operating leases contain an option to purchase
         allow the government to purchase the equipment a fair market value at the end of the lease period.

     Other Leases consist of:

     •   Description of Leases: Operating Leases for Motor Vehicles are essentially one to three-year leases funded in appropria-
         tion 3400 (O&M). As the out-year estimates indicate, the Air Force expects to continue to reduce the level of owned
         assets, while increasing the number of operational leases from commercial and GSA sources. The Air Force will contin-
         ue to displace commercial leases in favor of IFMS (General Services Administration) leases because IFMS leases are typi-
         cally more economical. Also, the commercial lease costs in support of operations in Iraq and Afghanistan have increased
         significantly and our estimations are that it will be at least another year before we see stabilization in our commercial
         lease costs.

     Note 24.B. Other Disclosures
     Undistributed Collections and Disbursements: Accounts receivable and payable are adjusted for undistributed collections and
     disbursements. These transactions represent the Air Force’s in-float (undistributed) collections and disbursements for trans-
     actions that were reported by a disbursing station but not recorded by the appropriate accountable station. Undistributed
     amounts are prorated by appropriation based on the percentage of distributed government and public receivables and
     payables.

     Canceled Balances: All unliquidated balances associated with closed accounts have been canceled in accordance with Public
     Law 101-510. Canceled accrued expenditures unpaid are reflected in the financial statements as unfunded liabilities.
     Canceled undelivered orders outstanding are not included in the financial statements; however, these orders may result in
     future expenditures.




70
                       United States Air Force




    General Fund

  Consolidating and
Combining Statements




                                            71
                 United States Air Force • 2004 Annual Financial Statement




     Consolidating Balance Sheet—General Fund
     As of September 30, 2004 and 2003 ($ in Thousands)
                                                                    Air Force       Air Force      Air National
                                                                     Active         Reserve           Guard
      ASSETS (Note 2)
          Intra-governmental:
             Fund Balance with Treasury (Note 3)
             Entity                                             $    57,691,648 $      909,269 $      1,946,792
             Non-Entity Seized Iraqi Cash                                     0              0                0
             Non-Entity-Other                                            53,290              0                0
             Investments (Note 4)                                           711              0                0
             Accounts Receivable (Note 5)                               959,581        112,322          179,587
             Other Assets (Note 6)                                           56              0                0
             Total Intra-governmental Assets                    $    58,705,286 $    1,021,591 $      2,126,379
          Cash and Other Monetary Assets (Note 7)               $       311,323 $            0 $              0
          Accounts Receivable (Note 5)                                  953,472          9,285           16,126
          Loans Receivable (Note 8)                                           0              0                0
          Inventory and Related Property (Note 9)                    46,607,419        693,550        4,039,279
          General Property, Plant and Equipment (Note 10)           113,134,711      1,059,098        3,760,621
           Investments (Note 4)                                               0              0                0
           Other Assets (Note 6)                                     10,787,653          5,336           16,599
      TOTAL ASSETS                                              $   230,499,864 $    2,788,860 $      9,959,004


      LIABILITIES (Note 11)
           Intra-governmental:
              Accounts Payable (Note 12)                        $       523,132 $       46,248 $         82,481
              Debt (Note 13)                                                  0              0                0
              Environmental Liabilities (Note 14)                             0              0                0
              Other Liabilities (Note 15 and Note 16)                 1,770,504          1,803            2,150
              Total Intra-governmental Liabilities              $     2,293,636 $       48,051 $         84,631
           Accounts Payable (Note 12)                           $     6,216,413 $      154,602 $        238,396
           Military Retirement Benefits and Other                       834,997        121,955          206,490
           Employment-Related Actuarial Liabilities (Note 17)
           Environmental Liabilities (Note 14)                        7,387,187              0                0
           Loan Guarantee Liability (Note 8)                                  0              0                0
           Other Liabilities (Note 15 and Note 16)                    4,466,857         55,927           79,721
           Debt Held by Public                                                0              0                0
      TOTAL LIABILITIES                                         $    21,199,090 $      380,535 $        609,238
      NET POSITION
         Unexpended Appropriations (Note 18)                    $    49,486,289 $      803,393 $      1,787,049
         Cumulative Results of Operations                           159,814,485      1,604,932        7,562,717
      TOTAL NET POSITION                                        $   209,300,774 $    2,408,325 $      9,349,766
      TOTAL LIABILITIES AND NET POSITION                        $   230,499,864 $    2,788,860 $      9,959,004




72
    Component         Combined                                2004               2003
      Level             Total         Eliminations         Consolidated       Consolidated




$               0 $    60,547,709 $                  0 $       60,547,709 $       59,714,038
                0               0                    0                  0                  0
               0           53,290                    0             53,290             52,503
               0              711                    0                711                712
        -561,619          689,871                    0            689,871            541,429
         443,883          443,939                    0            443,939            339,093
$       -117,736 $     61,735,520 $                  0 $       61,735,520 $       60,647,775
$              0 $        311,323 $                  0 $          311,323 $          147,926
               0          978,883                    0            978,883            772,500
               0                0                    0                  0                  0
               0       51,340,248                    0         51,340,248         51,815,831
               0      117,954,430                    0        117,954,430        112,786,130
               0                0                    0                  0                  0
               0       10,809,588                    0         10,809,588          9,912,151
$       -117,736 $    243,129,992 $                  0 $      243,129,992 $      236,082,313




$      1,248,550 $      1,900,411 $                  0 $        1,900,411 $        1,413,940
               0                0                    0                  0                  0
               0                0                    0                  0                  0
         -47,977        1,726,480                    0          1,726,480          1,623,905
$      1,200,573 $      3,626,891 $                  0 $        3,626,891 $        3,037,845
$      1,097,752 $      7,707,163 $                  0 $        7,707,163 $        7,080,909
               0        1,163,442                    0          1,163,442          1,262,267

               0        7,387,187                    0          7,387,187          8,110,403
               0                0                    0                  0                  0
               0        4,602,505                    0          4,602,505          4,520,888
               0                0                    0                  0                  0
$      2,298,325 $     24,487,188 $                  0 $       24,487,188 $       24,012,312

$     -2,416,061 $     49,660,670 $                  0 $       49,660,670 $       50,742,317
               0      168,982,134                    0        168,982,134        161,327,684
$     -2,416,061 $    218,642,804 $                  0 $      218,642,804 $      212,070,001
$       -117,736 $    243,129,992 $                  0 $      243,129,992 $      236,082,313




                                                                                               73
                     United States Air Force • 2004 Annual Financial Statement




     Consolidating Statement of Net Cost—General Fund
     For the periods ended September 30, 2004 and 2003 ($ in Thousands)
                                                                 Air Force         Air Force           Air National
                                                                  Active           Reserve                Guard
     Program Costs
     A. Military Personnel                                                 0
             Intra-governmental Gross Costs                  $        -3,201   $        46,772     $         275,635
             (Less: Intra-governmental Earned Revenue)              -288,373            -5,856               -21,120
             Intra-governmental Net Costs                    $      -291,574   $        40,916     $         254,515
             Gross Costs With the Public                          26,499,285         1,191,146             2,017,930
             (Less: Earned Revenue From the Public)                  -94,079                 3               -12,475
             Net Costs With the Public                       $    26,405,206   $     1,191,149     $       2,005,455
             Total Net Cost                                  $    26,113,632   $     1,232,065     $       2,259,970
     B. Operation and Maintenance                                          0
             Intra-governmental Gross Costs                  $    14,295,821   $       698,044     $       1,893,086
             (Less: Intra-governmental Earned Revenue)            -3,557,430          -303,209              -524,737
             Intra-governmental Net Costs                    $    10,738,391   $       394,835     $       1,368,349
             Gross Costs With the Public                          23,228,346         1,734,741             3,502,356
             (Less: Earned Revenue From the Public)                 -502,304            -6,321              -135,839
             Net Costs With the Public                       $    22,726,042   $     1,728,420     $       3,366,517
             Total Net Cost                                  $    33,464,433   $     2,123,255     $       4,734,866
     C. Procurement                                                        0
             Intra-governmental Gross Costs                  $       652,495   $               0   $                  0
             (Less: Intra-governmental Earned Revenue)              -265,408                   0                      0
             Intra-governmental Net Costs                    $       387,087   $               0   $                  0
             Gross Costs With the Public                          27,231,988                   0                      0
             (Less: Earned Revenue From the Public)                 -401,470                   0                      0
             Net Costs With the Public                       $    26,830,518   $               0   $                  0
             Total Net Cost                                  $    27,217,605   $               0   $                  0
     D. Research, Development, Test & Evaluation                           0
             Intra-governmental Gross Costs                  $       791,689   $               0   $                  0
             (Less: Intra-governmental Earned Revenue)            -2,553,633                   0                      0
             Intra-governmental Net Costs                    $    -1,761,944   $               0   $                  0
             Gross Costs With the Public                          20,987,117                   0                      0
             (Less: Earned Revenue From the Public)                 -174,458                   0                      0
             Net Costs With the Public                       $    20,812,659   $               0   $                  0
             Total Net Cost                                  $    19,050,715   $               0   $                  0
     E. Military Construction/Family Housing                               0
             Intra-governmental Gross Costs                  $       196,768   $           601     $           3,483
             (Less: Intra-governmental Earned Revenue)                   781                 0                     0
             Intra-governmental Net Costs                    $       197,549   $           601     $           3,483
             Gross Costs With the Public                             217,498            91,367               276,538
             (Less: Earned Revenue From the Public)                        0                 0                     0
             Net Costs With the Public                       $       217,498   $        91,367     $         276,538
             Total Net Cost                                  $       415,047   $        91,968     $         280,021
     F. Other                                                              0
             Intra-governmental Gross Costs                  $        10,764   $               0   $                  0
             (Less: Intra-governmental Earned Revenue)                     0                   0                      0
             Intra-governmental Net Costs                    $        10,764   $               0   $                  0
             Gross Costs With the Public                               3,547                   0                      0
             (Less: Earned Revenue From the Public)                  -11,010                   0                      0
             Net Costs With the Public                       $        -7,463   $               0   $                  0
             Total Net Cost                                  $         3,301   $               0   $                  0
     G. Total Program Costs                                                0
             Intra-governmental Gross Costs                  $    15,944,336   $       745,417     $       2,172,204
             (Less: Intra-governmental Earned Revenue)            -6,664,063          -309,065              -545,857
             Intra-governmental Net Costs                    $     9,280,273   $       436,352     $       1,626,347
             Gross Costs With the Public                          98,167,781         3,017,254             5,796,824
             (Less: Earned Revenue From the Public)               -1,183,321            -6,318              -148,314
             Net Costs With the Public                       $    96,984,460   $     3,010,936     $       5,648,510
             Total Net Cost                                  $   106,264,733   $     3,447,288     $       7,274,857
       Cost Not Assigned to Programs                                       0                 0                     0
       (Less: Earned Revenue Not Attributable to Programs)                 0                 0                     0
       Net Cost of Operations                                $   106,264,733   $     3,447,288     $       7,274,857




     The accompanying notes are an integral part of the financial statements. See notes 1 and 19.


74
    Component          Combined                                     2004                2003
      Level              Total            Eliminations           Consolidated        Consolidated



                   $       319,206    $                  0   $         319,206   $         720,365
                          -315,349                       0            -315,349            -342,368
                   $         3,857    $                  0   $           3,857   $         377,997
                        29,708,361                       0          29,708,361          28,348,890
                          -106,551                       0            -106,551            -147,296
                   $    29,601,810    $                  0   $      29,601,810   $      28,201,594
                   $    29,605,667    $                  0   $      29,605,667   $      28,579,591

                   $    16,886,951    $                  0   $      16,886,951   $      15,259,669
                        -4,385,376                       0          -4,385,376          -3,730,957
                   $    12,501,575    $                  0   $      12,501,575   $      11,528,712
                        28,465,443                       0          28,465,443          27,571,579
                          -644,464                       0            -644,464            -525,209
                   $    27,820,979    $                  0   $      27,820,979   $      27,046,370
                   $    40,322,554    $                  0   $      40,322,554   $      38,575,082

                   $       652,495    $                  0   $         652,495   $           2,669
                          -265,408                       0            -265,408            -214,765
                   $       387,087    $                  0   $         387,087   $        -212,096
                        27,231,988                       0          27,231,988          35,414,003
                          -401,470                       0            -401,470             -13,188
                   $    26,830,518    $                  0   $      26,830,518   $      35,400,815
                   $    27,217,605    $                  0   $      27,217,605   $      35,188,719

                   $       791,689    $                  0   $         791,689   $         976,052
                        -2,553,633                       0          -2,553,633          -2,356,078
                   $    -1,761,944    $                  0   $      -1,761,944   $      -1,380,026
                        20,987,117                       0          20,987,117          19,273,993
                          -174,458                       0            -174,458            -138,222
                   $    20,812,659    $                  0   $      20,812,659   $      19,135,771
                   $    19,050,715    $                  0   $      19,050,715   $      17,755,745

                   $       200,852    $                  0   $         200,852   $         146,489
                               781                       0                 781                   0
                   $       201,633    $                  0   $         201,633   $         146,489
                           585,403                       0             585,403           1,240,859
                                 0                       0                   0                   0
                   $       585,403    $                  0   $         585,403   $       1,240,859
                   $       787,036    $                  0   $         787,036   $       1,387,348

$     10,047,907   $     10,058,671   $                  0   $      10,058,671   $        9,741,420
       2,516,739          2,516,739                      0           2,516,739            2,657,757
$     12,564,646   $     12,575,410   $                  0   $      12,575,410   $       12,399,177
     -10,475,871        -10,472,324                      0         -10,472,324          -12,046,057
        -386,383           -397,393                      0            -397,393              -12,243
$    -10,862,254   $    -10,869,717   $                  0   $     -10,869,717   $      -12,058,300
$      1,702,392   $      1,705,693   $                  0   $       1,705,693   $          340,877

$     10,047,907   $    28,909,864    $                  0   $      28,909,864   $      26,846,664
       2,516,739        -5,002,246                       0          -5,002,246          -3,986,411
$     12,564,646   $    23,907,618    $                  0   $      23,907,618   $      22,860,253
     -10,475,871        96,505,988                       0          96,505,988          99,803,267
        -386,383        -1,724,336                       0          -1,724,336            -836,158
$    -10,862,254   $    94,781,652    $                  0   $      94,781,652   $      98,967,109
$      1,702,392   $   118,689,270    $                  0   $     118,689,270   $     121,827,362
               0                 0                       0                   0                   0
               0                 0                       0                   0                   0
$      1,702,392   $   118,689,270    $                  0   $     118,689,270   $     121,827,362




The accompanying notes are an integral part of the financial statements. See notes 1 and 19.


                                                                                                      75
                  United States Air Force • 2004 Annual Financial Statement




     Consolidating Statement of Changes in Net Position—General Fund
     For the years ended September 30, 2004 and 2003 ($ in Thousands)

                                                                       Air Force         Air Force       Air National
                                                                        Active           Reserve            Guard
     CUMULATIVE RESULTS OF OPERATIONS
      Beginning Balances                                           $   152,136,711 $       1,595,916 $      7,595,057
      Prior Period Adjustments - Restated (+/-)                                  0                 0                0
          Beginning Balance, Restated                                  152,136,711         1,595,916        7,595,057
          Prior Period Adjustments - Not Restated (+/-)                          0                 0                0
      Beginning Balances, as adjusted                                  152,136,711         1,595,916        7,595,057
      Budgetary Financing Sources:
          Appropriations received                                                0                 0                0
          Appropriations transferred-in/out (+/-)                                0                 0                0
          Other adjustments (rescissions, etc) (+/-)                             0                 0                0
          Appropriations used                                          112,007,930         3,418,963        7,171,317
          Nonexchange revenue                                                8,827                 0                0
          Donations and forfeitures of cash and cash equivalents             2,171                 0                0
          Transfers-in/out without reimbursement (+/-)                     671,000                 0                0
          Other budgetary financing sources (+/-)                                0                 0                0
      Other Financing Sources:
          Donations and forfeitures of property                                  0                 0                0
          Transfers-in/out without reimbursement (+/-)                     588,973            37,340           71,200
          Imputed financing from costs absorbed by others                  663,607                 0                0
          Other (+/-)                                                            0                 0                0
      Total Financing Sources                                          113,942,508         3,456,303        7,242,517
      Net Cost of Operations (+/-)                                     106,264,733         3,447,288        7,274,857
      Ending Balances                                              $   159,814,486 $       1,604,931 $      7,562,717


     UNEXPENDED APPROPRIATIONS
      Beginning Balances                                           $    48,066,969 $         956,002 $      2,046,631
      Prior Period Adjustments (+/-)
          Prior Period Adjustments - Restated (+/-)                              0                 0                0
          Beginning Balance, Restated                                   48,066,969           956,002        2,046,631
          Prior Period Adjustments - Not Restated (+/-)                          0                 0                0
      Beginning Balances, as adjusted                                   48,066,969           956,002        2,046,631
      Budgetary Financing Sources:
          Appropriations received                                       114,855,435        3,582,508        7,042,722
          Appropriations transferred-in/out (+/-)                          -115,191         -267,364          -71,901
          Other adjustments (rescissions, etc) (+/-)                     -1,312,994          -48,790          -59,086
          Appropriations used                                          -112,007,930       -3,418,963       -7,171,317
          Nonexchange revenue                                                     0                0                0
          Donations and forfeitures of cash and cash equivalents                  0                0                0
          Transfers-in/out without reimbursement (+/-)                            0                0                0
          Other budgetary financing sources (+/-)                                 0                0                0
      Other Financing Sources:
          Donations and forfeitures of property                                  0                 0                0
          Transfers-in/out without reimbursement (+/-)                           0                 0                0
          Imputed financing from costs absorbed by others                        0                 0                0
          Other (+/-)                                                            0                 0                0
      Total Financing Sources                                            1,419,320          -152,609         -259,582
      Net Cost of Operations (+/-)
      Ending Balances                                              $    49,486,289 $         803,393 $      1,787,049




     The accompanying notes are an integral part of the financial statements. See notes 1 and 20.


76
     Component          Combined                                 2004              2003
       Level              Total          Eliminations         Consolidated      Consolidated


 $               0 $    161,327,684 $                   0 $     161,327,684 $      47,443,218
                 0                0                     0                 0                 0
                 0      161,327,684                     0       161,327,684        47,443,218
                 0                0                     0                 0       122,475,076
                 0      161,327,684                     0       161,327,684       169,918,294

                 0                0                     0                 0                 0
                 0                0                     0                 0                 0
                 0                0                     0                 0                 0
         2,088,776      124,686,986                     0       124,686,986       113,384,126
                 0            8,827                     0             8,827                 0
                 0            2,171                     0             2,171             9,096
                 0          671,000                     0           671,000                 0
                 0                0                     0                 0          -678,772

                 0                0                     0                 0                 0
          -386,383          311,130                     0           311,130          -110,688
                 0          663,607                     0           663,607           632,992
                 0                0                     0                 0                 0
         1,702,393      126,343,721                     0       126,343,721       113,236,754
         1,702,392      118,689,270                     0       118,689,270       121,827,362
 $               1 $    168,982,135 $                   0 $     168,982,135 $     161,327,686



 $        -327,285 $     50,742,317 $                   0 $      50,742,317 $      39,543,850

                 0                0                     0                 0                 0
          -327,285       50,742,317                     0        50,742,317        39,543,850
                 0                0                     0                 0                 0
          -327,285       50,742,317                     0        50,742,317        39,543,850

                 0       125,480,665                    0       125,480,665        124,225,931
                 0          -454,456                    0          -454,456          2,179,806
                 0        -1,420,870                    0        -1,420,870         -1,823,145
        -2,088,776      -124,686,986                    0      -124,686,986       -113,384,126
                 0                 0                    0                 0                  0
                 0                 0                    0                 0                  0
                 0                 0                    0                 0                  0
                 0                 0                    0                 0                  0

                 0                 0                    0                  0                0
                 0                 0                    0                  0                0
                 0                 0                    0                  0                0
                 0                 0                    0                  0                0
        -2,088,776        -1,081,647                    0         -1,081,647       11,198,466

 $      -2,416,061 $     49,660,670 $                   0 $      49,660,670 $      50,742,316




The accompanying notes are an integral part of the financial statements. See notes 1 and 20.


                                                                                                 77
                   United States Air Force • 2004 Annual Financial Statement




     Combining Statement of Budgetary Resources—General Fund
     For the years ended September 30, 2004 and 2003 ($ in Thousands)

                                                                                               Air Force
                                                                          Air Force Active
                                                                                               Reserve
     BUDGETARY FINANCING ACCOUNTS
     BUDGETARY RESOURCES
       Budget Authority:
          Appropriations received                                     $       114,858,556 $         3,582,508
          Borrowing authority                                                           0                   0
          Contract authority                                                            0                   0
          Net transfers (+/-)                                                     125,871            -192,964
          Other                                                                         0                   0
       Unobligated balance:
          Beginning of period                                                    8,661,900           162,910
          Net transfers, actual (+/-)                                              429,938           -74,400
            Anticipated Transfers Balances                                               0                 0
       Spending authority from offsetting collections:
          Earned                                                                        0                   0
            Collected                                                           7,198,945             259,901
            Receivable from Federal sources                                       230,989              53,249
          Change in unfilled customer orders                                            0                   0
            Advance received                                                      188,077                   0
            Without advance from Federal sources                                 -109,846                  50
          Anticipated for the rest of year, without advances                            0                   0
          Transfers from trust funds                                                    0                   0
          Subtotal                                                              7,508,165             313,200
       Recoveries of prior year obligations                                     1,304,731              56,209
       Temporarily not available pursuant to Public Law                                 0                   0
       Permanently not available                                               -1,329,777             -48,790
       Total Budgetary Resources                                      $       131,559,384 $         3,798,673


     STATUS OF BUDGETARY RESOURCES
       Obligations incurred:
            Direct                                                    $       119,492,619 $         3,366,775
            Reimbursable                                                        3,487,131             308,877
            Subtotal                                                          122,979,750           3,675,652
       Unobligated balance:
            Apportioned                                                         7,894,840              34,944
            Exempt from apportionment                                               2,709                   0
            Other available                                                             0                   0
       Unobligated Balances Not Available                                         682,085              88,077
       Total, Status of Budgetary Resources                           $       131,559,384 $         3,798,673
     Relationship of Obligations to Outlays:
       Obligated Balance, Net - beginning of period                   $         47,752,881 $         887,527
       Obligated Balance transferred, net (+/-)                                          0                 0
       Obligated Balance, Net - end of period:
            Accounts receivable                                                 -1,172,373           -114,923
            Unfilled customer order from Federal sources                          -827,056                -50
            Undelivered orders                                                  43,105,532            675,121
            Accounts payable                                                     8,005,704            226,101
       Outlays:
            Disbursements                                                     120,194,950           3,667,422
            Collections                                                        -7,387,022            -259,901
            Subtotal                                                          112,807,928           3,407,521
       Less: Offsetting receipts                                                 -115,376                   0
       Net Outlays                                                    $       112,692,552 $         3,407,521


     The accompanying notes are an integral part of the financial statements. See notes 1 and 21.


78
     Air National      Component           2004            2003
        Guard            Level           Combined        Combined




 $       7,042,722 $               0 $   125,483,786 $   124,235,723
                 0                 0               0               0
                 0                 0               0               0
            37,699                 0         -29,394       1,888,215
                 0                 0               0               0

           365,136                 0       9,189,946       6,066,510
          -109,600                 0         245,938         291,591
                 0                 0               0               0

                 0                 0               0               0
           658,759                 0       8,117,605       7,802,547
            33,327                 0         317,565        -322,918
                 0                 0               0               0
                -5                 0         188,072         213,465
              -185                 0        -109,981         472,167
                 0                 0               0               0
                 0                 0               0               0
           691,896                 0       8,513,261       8,165,261
            70,139                 0       1,431,079       1,955,959
                 0                 0               0               0
           -59,086                 0      -1,437,653      -1,806,362
 $       8,038,906 $               0 $   143,396,963 $   140,796,897




 $       7,053,879 $               0 $   129,913,273 $   123,375,566
           651,378                 0       4,447,386       8,231,386
         7,705,257                 0     134,360,659     131,606,952

           142,782                 0       8,072,566       8,320,595
                 0                 0           2,709           2,573
                -1                 0              -1              -1
           190,868                 0         961,030         866,778
 $       8,038,906 $               0 $   143,396,963 $   140,796,897

 $       1,901,175 $               0 $    50,541,583 $    41,822,195
                 0                 0               0               0

          -189,316                 0      -1,476,612      -1,159,047
              -287                 0        -827,393        -937,374
         1,437,060        -2,907,921      42,309,792      42,168,646
           365,685         2,907,921      11,505,411      10,469,360

         7,890,009                 0     131,752,381     120,782,356
          -658,755                 0      -8,305,678      -8,016,013
         7,231,254                 0     123,446,703     112,766,343
                 0                 0        -115,376        -156,704
 $       7,231,254 $               0 $   123,331,327 $   112,609,639

The accompanying notes are an integral part of the financial statements. See notes 1 and 21.


                                                                                               79
                      United States Air Force • 2004 Annual Financial Statement




     Combining Statement of Financing—General Fund
     For the years ended September 30, 2004 and 2003 ($ in Thousands)
                                                                                                        Air Force
                                                                                   Air Force Active     Reserve
     Resources Used to Finance Activities:
     Budgetary Resources Obligated
      Obligations incurred                                                     $        122,979,750 $       3,675,652
      Less: Spending authority from offsetting collections                               -8,812,896          -369,410
      and recoveries (-)
      Obligations net of offsetting collections and recoveries                          114,166,854         3,306,242
      Less: Offsetting receipts (-)                                                        -115,376                 0
      Net obligations                                                                   114,051,478         3,306,242
     Other Resources
      Donations and forfeitures of property                                                       0                 0
      Transfers in/out without reimbursement (+/-)                                          588,973            37,340
      Imputed financing from costs absorbed by others                                       663,607                 0
      Other (+/-)                                                                                 0                 0
      Net other resources used to finance activities                                      1,252,580            37,340
      Total resources used to finance activities                                        115,304,058         3,343,582

     Resources Used to Finance Items not Part
     of the Net Cost of Operations
       Change in budgetary resources obligated for goods,
       services and benefits ordered but not yet provided
             Undelivered Orders (-)                                                      -2,228,506          112,671
            Unfilled Customer Orders                                                         78,231               50
       Resources that fund expenses recognized in prior periods                            -862,836          -11,266
       Budgetary offsetting collections and receipts that                                   115,376                0
       do not affect net cost of operations
       Resources that finance the acquisition of assets                                 -15,956,828           -15,952
       Other resources or adjustments to net obligated resources
       that do not affect net cost of operations
             Less: Trust or Special Fund Receipts Related to Exchange in the                      0                 0
            Entity's Budget (-)
            Other (+/-)                                                                    -588,973           -37,340
       Total resources used to finance items not                                        -19,443,536            48,163
       part of the net cost of operations
       Total resources used to finance the net cost of                                   95,860,522         3,391,745
       operations

     Components of the Net Cost of Operations that will
     not Require or Generate Resources in the Current Period:
     Components Requiring or Generating Resources in Future
     Period:
      Increase in annual leave liability                                                    127,062             3,244
      Increase in environmental and disposal liability                                            0                 0
      Upward/Downward reestimates of credit subsidy expense (+/-)                                 0                 0
      Increase in exchange revenue receivable from the the public (-)                             0                 0
      Other (+/-)                                                                            52,756               315
      Total components of Net Cost of Operations that                                       179,818             3,559
      will require or generate resources in future periods
     Components not Requiring or Generating Resources:
      Depreciation and amortization                                                       9,601,433           45,074
      Revaluation of assets or liabilities (+/-)                                           -547,355           -1,625
      Other (+/-)
             Trust Fund Exchange Revenue                                                          0                 0
             Cost of Goods Sold                                                                   0                 0
             Operating Material & Supplies Used                                           3,791,424            28,284
             Other                                                                       -2,621,109           -19,751
      Total components of Net Cost of Operations that                                    10,224,393            51,982
       will not require or generate resources
      Total components of net cost of operations that                                    10,404,211           55,541
      will not require or generate resources in the current
      period
     Net Cost of Operations                                                             106,264,733         3,447,286



     The accompanying notes are an integral part of the financial statements. See notes 1 and 22.


80
     Air National Guard     Component Level     2004 Combined       2003 Combined



 $            7,705,256 $                 0 $       134,360,658 $       131,606,952
               -762,035                   0          -9,944,341         -10,121,221

              6,943,221                   0         124,416,317         121,485,731
                      0                   0            -115,376            -156,704
              6,943,221                   0         124,300,941         121,329,027

                      0                    0                  0                   0
                 71,200             -386,383            311,130            -110,688
                      0                    0            663,607             632,992
                      0                    0                  0                   0
                 71,200             -386,383            974,737             522,304
              7,014,421             -386,383        125,275,678         121,851,331




                228,325            2,088,776            201,266          -8,331,143
                   -190                    0             78,091             685,633
                -21,986                    0           -896,088                   0
                      0                    0            115,376               9,106

                -95,614                   0         -16,068,394         -19,120,713



                      0                   0                     0                   0

                -71,200              386,383           -311,130             110,688
                 39,335            2,475,159        -16,880,879         -26,646,429

              7,053,756            2,088,776        108,394,799          95,204,902




                  7,394                   0            137,700              478,344
                      0                   0                  0             -344,161
                      0                   0                  0                    0
                      0                   0                  0                    0
                    134                   0             53,205               14,770
                  7,528                   0            190,905              148,953



                201,198                    0          9,847,705          13,282,864
                 -2,718             -386,383           -938,081           1,641,043

                      0                    0                  0                   0
                      0                    0                  0                   0
                 99,294                    0          3,919,002                   0
                -84,203                    0         -2,725,063          11,549,603
                213,571             -386,383         10,103,563          26,473,510

                221,099             -386,383         10,294,468          26,622,463



              7,274,855            1,702,393        118,689,267         121,827,365



The accompanying notes are an integral part of the financial statements. See notes 1 and 22.


                                                                                               81
     United States Air Force • 2004 Annual Financial Statement




                           This page intentionally left blank.




82
                      United States Air Force




     General Fund

Required Supplementary
Stewardship Information




                                           83
     United States Air Force • 2004 Annual Financial Statement




                           This page intentionally left blank.




84
National Defense Property, Plant and Equipment
The Federal Accounting Standards Advisory Board (FASAB) revised the Statement of Federal Financial Accounting Standards
No. 6 to require the capitalization and depreciation of military equipment (formerly National Defense Property, Plant and
Equipment/ND PP&E) for fiscal years 2004 and beyond and encouraged early implementation.

                                                   HERITAGE ASSETS
                                          For Fiscal Year Ended September 2004

                                            Measurement          As Of           Additions       Deletions         As Of
                                             Quantities        10/1/2003                                         9/30/2004
         Museums                                Each                      18                 0               0            18
         Monuments & Memorials                  Each                     151                 2               0           153
         Cemeteries                             Sites                     39                 0               0            39
         Archeological Sites                    Sites                  1,685                 0               0         1,685
         Buildings & Structures                 Each                   4,074                 0               0         4,074
         Major Collections                      Each                       4                 0               0             4




1. Museums
The Air Force Museum, located at Wright-Patterson Air Force Base, Ohio, houses the main collection of historical artifacts
that are registered as historical property in the USAF Museum System. The other 17 Air Force museums are considered Air
Force Field Museums or Heritage Centers, which also contain items of historical interest; some however, are specific to the
general locality.

All remaining museums and Heritage Centers are reported in acceptable condition.

2. Monuments and Memorials
The memorials and monuments reported above, except for 28, are all located at the Air Force Academy in the Air Gardens
and Honor Court. Most of these monuments and memorials honor specific individuals or cadet wings for various accom-
plishments. The remaining 28 memorials, all with costs that exceed $100,000, are located on various Air Force bases
throughout the United States. All are reported in acceptable condition.

3. Cemeteries
The Air Force has administrative and curatorial responsibilities for 39 cemeteries on its bases. The cemeteries are main-
tained by the bases and are in good condition.

4. Archeological Sites
As of 30 September 2004, the AF has 1,685 archeological sites listed on, or eligible for, the National Register. The AF has
9,779 potentially eligible archeological sites, and 2,464 non-eligible archaeological sites. Neither is listed on this report. The
numbers of archaeological sites will increase yearly as the AF completes surveys in compliance with the National Historic
Preservation Act. The number of archaeological sites on AF managed lands is reported each year in the Report to Congress
on Federal Archaeological Activities (FY03 report submitted March 04). The identified sites are maintained in an acceptable
condition.

5. Buildings and Structures
The Air Force currently considers 4,074 buildings and structures as heritage assets. Most of these buildings and structures
are considered Multi-use Heritage Assets, and as such, have been reported as general property, plant, and equipment on the




                                                                                                                                     85
                  United States Air Force • 2004 Annual Financial Statement



     Balance Sheet. The buildings and structures are maintained by each base civil engineering group and are considered to be in
     good condition.

     6. Major Collections
     The Air Force has four significant or major collections consisting of: (a) the Air Force Art Collection, and (b) three collections
     at the Air Force Academy containing historical items and memorabilia as well as distinctive works of art. The curators for all
     major collections reported the contents to be in good condition. They further added that almost all of the materials are pro-
     tected in an environment suitable for long-term storage. The overall condition of the collections in the museums is good;
     items are displayed and protected in accordance with the standards of Air Force Instruction 84-103, USAF Museum System.

                                                               STEWARDSHIP LAND
                                             For Fiscal Year Ended September 2004 (Acres in Thousands)

                               (a)                   (b)                   (c)                    (d)                 (e)

                           Land Use            As of 10/1/2003          Additions              Deletions       As of 9/30/2004

                 1. Mission                         7,728                   0                     0                7,728
                 2. Parks & Historic Sites            0                     0                     0                  0

                 Totals                             7,728                   0                     0                7,728



     The Air Force has 7,728 acres of mission-essential land under their administration. Lands purchased by the Air Force with
     the intent to construct buildings or facilities are considered general PP&E and are reported on the balance sheet. All stew-
     ardship lands, as reported, are in acceptable condition, based on designated use.

                                                    NONFEDERAL PHYSICAL PROPERTY
                                               Yearly Investment in State and Local Governments
                                               For Fiscal Years 2000 through 2004 ($ in Millions )
                    Categories                                      FY 2000         FY 2001    FY 2002      FY 2003         FY 2004
                    Funded Assets:
                     National Defense Mission Related                    $6.80        $20.20       $21.30     $11.31          $18.30
                    Total                                                $6.80        $20.20       $21.30     $11.31          $18.30



     The Air National Guard investments in non-federal physical property are strictly through the Military Construction
     Cooperative Agreements (MCCAs). These agreements involve the transfer of money only and allow joint participation with
     States, Counties, and Airport Authorities for construction or repair of airfield pavements and facilities required to support
     the flying mission assigned at these civilian airfields.

     Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays are
     used because current DoD systems are unable to capture and summarize costs in accordance with the Federal Accounting
     Standards requirements.




86
                                     INVESTMENTS IN RESEARCH AND DEVELOPMENT
                                        Yearly Investment in Research and Development
                                       For Fiscal Years 2000 through 2004 ($ in Millions)

      Categories                                                   FY 2000       FY 2001    FY 2002    FY 2003    FY 2004

      1. Basic Research                                                  $206       $203       $208       $141       $326
      2. Applied Research                                                 577        637        666        510        886
      3. Development
          Advanced Technology Development                                  554        545        492        399      1,074
          Advanced Component Development and Prototypes                    899      1,237        884      1,065      2,003
          System Development and Demonstration                           4,251      3,279      3,194      2,903      4,390
          Research, Development, Test and Evaluation
          Management Support                                              768         777        769        597      1,000
          Operational Systems Development                               7,096       7,295      7,225      7,864     10,612
      Totals                                                          $14,351     $13,973    $13,438    $13,479    $20,291


Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena and
of observable facts without specific applications, processes, or products in mind. Basic Research involves the gathering of a
fuller knowledge or understanding of the subject under study. Major outputs are scientific studies and research papers.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means by
which a recognized and specific need may be met. It is the practical application of such knowledge or understanding for the
purpose of meeting a recognized need. This research points toward specific military needs with a view toward developing
and evaluating the feasibility and practicability of proposed solutions and determining their parameters. Major outputs are
scientific studies, investigations, and research papers, hardware components, software codes, and limited construction of, or
part of, a weapon system to include nonsystem specific development efforts.

Development takes what has been discovered or learned from basic and applied research and uses it to establish technologi-
cal feasibility, assessment of operability, and production capability. Development is comprised of five stages defined below:

1. Advanced Technology Development is the systematic use of the knowledge or understanding gained from research
directed toward proof of technological feasibility and assessment of operational and producibility rather than the develop-
ment of hardware for service use. Employs demonstration activities intended to prove or test a technology or method.

2. Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an operating envi-
ronment as possible to assess the performance or cost reduction potential of advanced technology. Programs in this phase
are generally system specific. Major outputs of Advanced Component Development and Prototypes are hardware and soft-
ware components, or complete weapon systems, ready for operational and developmental testing and field use.

3. System Development and Demonstration concludes the program or project and prepares it for production. It consists
primarily of preproduction efforts, such as logistics and repair studies. Major outputs are weapon systems finalized for com-
plete operational and developmental testing.

4. RDT&E Management Support is support for installations and operations for general research and development use.
This category includes costs associated with test ranges, military construction maintenance support for laboratories, opera-
tions and maintenance of test aircraft and ships, and studies and analysis in support of the R&D program.




                                                                                                                                87
                  United States Air Force • 2004 Annual Financial Statement



     5. Operational Systems Development is concerned with development projects in support of programs or upgrades still in
     engineering and manufacturing development, which have received approval for production, for which production funds have
     been budgeted in subsequent fiscal years.

     The following are representative program examples for each of the above major categories:

     Basic Research—The Air Force supported basic researchers have developed a method to produce gallium nitride material
     for use in improved semiconductor devices. This advance could enable improved electronics that can perform in harsh envi-
     ronments. Possible applications include: remote-sensing platforms; displays and indicators based on light-emitting diodes;
     laser diodes for optical data storage; and sensor and detector surveillance systems, such as the solar-blind shield and biologi-
     cal agent detectors.

     Air Force supported basic researchers have discovered a new method of improving digital signal processing through hologra-
     phy. These holographic systems are able to record fast events that occur on the nanosecond timescale. This advance could
     lead to significant improvements in our capability to track and identify enemy aircraft and missile threats.

     Applied Research—The AF’s Applied Research program is developing technologies to support the air and space force of
     the future. Development of electronic components and subsystems for use in shallow-depth phased-array radar antennas
     for persistent intelligence, surveillance, and reconnaissance and time-sensitive strike capabilities. Such phased-array antennas,
     at 1/5 the cost of conventional antennas, could have direct application to advanced unmanned aerial vehicles and fighter air-
     craft. Wireless Intrusion Detection System sensors for information assurance were designed, developed, and field-tested.
     This program opens the door for secure operation of military wireless networks based on this widely available and cost-
     effective technology.

     Advanced Technology Development—The AF’s Advanced Technology Development program demonstrates, in a realistic
     operational environment, integrated sets of technology to prove military worth and utility. The first example was when the
     AF and the Defense Advanced Research Projects Agency conducted a successful jettison release of a weapon from a Boeing
     X-45A Joint Unmanned Combat Air System (J-UCAS) over the Precision Impact Range Area (PIRA) at Edwards Air Force
     Base, CA. It is an aviation first for a UAV to release from an internal weapons bay. Secondly, AFRL also demonstrated a 330
     Gigahertz detector that operates at frequencies billions of times faster than the blink of an eye. This technology will be used
     to produce compact solid-state circuits operating at Terahertz frequencies. Likely technology application would be to enable
     a new generation of sensors to enhance homeland security. Completed the final transition of the very successful Laser
     Infrared Countermeasures Fly-out Experiment demonstration with a final risk reduction live fire missile test at Tonopah
     National Test Range, Nevada. This test showed conclusively that Closed Loop Infrared Countermeasures jamming tech-
     niques provide a robust capability against a wide variety of infrared missiles, including proliferated Man Portable Air Defense
     Systems.

     Developed a custom-molded, noise-attenuating earplug that enables seamless voice communications to and from radios,
     while electronically passing all outside environmental sounds to the operator at safe levels.

     Demonstration and Validation (Advanced Component Development and Prototypes)—The Air Force’s Advanced
     Component Development and Prototypes (ACD&EP) programs are comprised of system specific advanced technology inte-
     gration efforts accomplished in an operational environment to help expedite transition from the effort: In FY04 the Air Force
     successfully demonstrated Fighter Aircraft Command and Control Enhancement (FACE). FACE provides an improved,
     beyond-line-of-sight (BLOS) command and control link with fighter aircraft by integrating Iridium telephone communications
     equipment with existing aircraft communications equipment. BLOS capability has traditionally been provided by low-density,
     high-demand airborne platforms acting as communications relays. FACE provides relief for these overworked assets, while
     allowing combatant commanders to maintain positive control of the battle space. FACE, which has been approved for



88
deployment to Afghanistan through the Air Force’s Rapid Response Process, has the potential for extensive use in virtually
any Area of Responsibility, including Homeland Defense.

In FY04, the joint DARPA/Air Force program office awarded Falcon contracts (other transaction agreements administered by
DARPA) for the development and demonstration of key technologies. The small responsive launch vehicle portion (four con-
tracts) is proceeding toward a FY05 down select (to one or more contractors) with a launch no later than FY07 while the
hypersonic test vehicle portion (one contract) is also working toward a FY07 launch. The ultimate goal of this technology
demonstration program is to demonstrate and validate key technologies leading to residual capability and follow-on opera-
tional systems.

In FY04, the Air Force awarded contracts for Space Based Radar (SBR) for up-front, in-depth, system engineering, focused
concept-specific, risk-reduction activities, and alternative concept-exploration activities leading to the System Requirements
Review. The SBR program will provide day/night, all-weather global surface moving target indications (MTI), synthetic aper-
ture radar (SAR) and high-resolution terrain information (HRTI) capabilities from a space-based platform. The ultimate goal
is a FY15 first launch.

Engineering and Manufacturing Development—The Air Force’s System Demonstration and Engineering Development
(SD&ED) efforts are development projects which have not received approval for full-production. Examples of Air Force
SD&ED efforts are: (1) The Space Based Infrared System Increment 1 Mission Control Station (MCS) achieved initial opera-
tional capability on 18 December 2001. The MCS consolidates Defense Support Program operations at Buckley AFB,
Colorado, reducing manpower by 58% and operations and maintenance costs by 25%. Subsequent upgrades to the MCS
throughout fiscal year 2002 resulted in closure of the Air-Land Enhanced Reconnaissance and Targeting ALERT ground sta-
tion on 25 September 2002, consolidating all space-based strategic and theater missile warning operations, realizing addition-
al manpower and Operations and Maintenance funds savings. (2) Another example, the F/A-22 Raptor program continues
development and low-rate production of the Air Force’s next generation air dominance fighter. Designed to penetrate
enemy airspace and achieve a first look, first kill capability against multiple targets, the F/A-22’s combination of stealth, super-
cruise, maneuverability, and integrated avionics, coupled with improved supportability, represents an exponential leap in
warfighting capabilities and allows for the full realization of operational concepts that are vital to the 21st century Air Force.
Initial operational capability is planned for December 2005. The F/A-22 has been in Engineering and Manufacturing
Development (EMD) since 1991 and is currently meeting or exceeding all key performance parameters.

Significant program accomplishments in fiscal year 2004 include:

•   Completion of Fatigue Testing through 2.68 lifetimes. Static test unit disassembled for study

•   Commencement of Initial Operational Test and Evaluation. Open air and simulator testing phase is complete with the
    remainder of the effort focused on analysis and reporting the data

•   Completion of multiple supersonic AMRAAM and AIM-9 missile shots, along with the first-ever JDAM drop

•   The exceeding of over 3,100 flight test missions, logging in over 6,900 hours on the EMD aircraft fleet

The F-35 Joint Strike Fighter (JSF) program is developing a family of strike fighter aircraft for the Air Force, Navy, Marine
Corps and our allies, with maximum commonality among the variants to minimize life cycle costs. The Air Force
Conventional Takeoff and Landing (CTOL) variant will be a multi-role, primary air-to-ground aircraft to replace the F-16 and
A-10 and complement the F/A-22. In addition, the Air Force recently announced the intent to buy the Short Takeoff and
Vertical Landing (STOVL) variant to provide dedicated close air support from austere bases. While the F/A-22 will establish
air dominance, the F-35—with its combination of stealth, large internal payloads and multi-spectral avionics—will provide
persistent stealth and precision engagement to the future battlespace. The F-35 has been in System Development and



                                                                                                                                       89
                 United States Air Force • 2004 Annual Financial Statement



     Demonstration since 2001. In March 2004, the USD (AT&L) approved a program restructure to address design maturity
     issues. As a result of this restructure, the F-35 is still projected to meet or exceed all key performance parameters.

     Significant program accomplishments in fiscal year 2004 include:

     •   Service acquisition oversight transition from the Navy to the Air Force

     •   Completion of the Air System Design Integration and Maturity Review (DIMR)

     •   Pratt & Whitney F135 First Engine to Test

     •   General Electric F136 First Engine to Test

     Additionally, the program continued the International Commonality Effort to identify an ORD compliant configuration for
     international partners that maximizes commonality with the U.S. baseline program consistent with National Disclosure
     Policy. The B-1B Defensive System Upgrade Program (DSUP) was canceled in December 2002 due to repeated cost and
     schedule overruns. However, the Air Force continued to improve the B-1B’s effectiveness through integration of new com-
     puters and advanced conventional weapons. Combined Developmental and Operational Testing (DT/OT) for the new com-
     puters was completed in July, and dedicated operational testing completed in December 2002. Testing showed the comput-
     ers met or exceeded all key performance parameters and they were approved for full-rate production in April 2003.
     Combined DT/OT flight test JSOW and JASSM Integration (JJI) was completed on the B-1. The JJI-modified B-1 was deter-
     mined to be operationally effective and suitable. The weapon system experienced no JJI component failures during OT&E.
     This weapon integration added significant operational capabilities to the B-1.

     In August 2004, the Space Based Infrared System (SBIRS) program delivered its first space payload for integration with a clas-
     sified host satellite. The SBIRS payload includes an infrared sensor, which will operate in Highly Elliptical Orbit (HEO).

     In FY04, the Air Force awarded contracts for Transformational Satellite Communications System (TSAT) space segment devel-
     opment and continued technology development for the next-generation communication satellite. The TSAT program will
     develop key technologies such as laser communications, internet-like communications protocols, and methods of dynamically
     allocating communications capability among users. The ultimate goal is a FY13 first launch of a transformational satellite.

     The Counter Communications Systems first system was delivered in December 2003. Air Force Space Command declared
     initial capability on Sept. 24, 2004, after the final two systems were delivered. The Counter Communications Systems
     (CCS) is operated by the 76th Space Control Squadron at Peterson AFB, CO, and is a transportable ground-based system
     that denies adversary satellite communications through reversible, non-destructive methods.

     Research, Development, Test and Evaluation Management Support—The Air Force’s Research, Development, Test,
     and Evaluation (RDT&E) Management Support efforts include projects directed toward support of installation or operations
     required for general research and development use. Included would be test ranges, military construction, maintenance sup-
     port of laboratories, operation and maintenance of test aircraft and ships, and studies and analyses in support of the research
     and development program. Example of Air Force RDT&E management support is: The Major Test and Evaluation
     Investment program, which funds the planning, improvements and modernization for three national asset test centers having
     over $10 billion of unique test facilities/capabilities operated and maintained by the Air Force for the Department of Defense
     (DoD) test and evaluation missions, and available to others having a requirement for their unique capabilities. The test capa-
     bilities and facilities are operated and maintained by the Air Force for the DoD test and evaluation missions, and are available
     to others having a requirement for their unique capabilities. Many efforts are contained within this program, but two exam-
     ples are the Propulsion Wind Tunnel Upgrade at Arnold Engineering Development Center. This effort replaces outdated
     data acquisition, processing, and control systems and drive motors. A second example is the Threat Simulator Development



90
program, which supports many of the AF Electronic Warfare Test Processes. Current projects focus on improved Low
Radar Cross Section threat modeling and simulation, and enhanced infrared and radio frequency countermeasures testing.

Operational Systems Development—The Air Force’s operational system efforts include projects in support of develop-
ment acquisition programs or upgrades in System Demonstration and Development (SDD). Examples of operational sys-
tems development are: The AIM-9X Short Range Missile (SRM) completed its OPEVAL on 29 August 2003. After 22 live fire
tests, 177 sorties, and 2,300 captive flight hours, the AIM-9X was found to be “Operationally Effective and Suitable.” The
program beat its Initial Operational Capability (IOC) by six months in November 2003. In addition, Milestone III was com-
pleted and Full-Rate Production was approved with the first full-rate production lot (Lot 5) to be awarded in 1QFY05.
Finally, platform integration efforts for the F-16 and F-18E/F remain on track.

The Phase 3 (AIM-120C-7) effort completed System Demonstration and Development (SDD) in May 2004 and is ready to
begin Operational Test (OT). The AIM-120C-7 provides a major upgrade over the AIM-120C-6 guidance section, particularly
the use of circular processor cards over previously used rectangular cards. These cards provide significant space savings
within the missile for added capability in addition to providing greater processing power.

AMRAAM Phase 4 builds on the AIM-120C-7 capability and is progressing well on track. This new AIM-120D missile will
add a GPS/INU and a two-way Data Link to enhance accuracy and control, and thus, increasing weapon effectiveness. In
addition, the AIM-120D will have increased range and third party targeting which expands the HOBS launch envelope. The
SDD contract was awarded in December 2003 and initial systems integration testing of the Proof of Design (POD) missile
began in September 2004.

The Joint Direct Attack Munition Program successfully completed operational testing of the MK-82 500lb JDAM on the B-2A
providing an operational capability to the warfighter to drop 80 JDAMs, each targeted to a separate point, from a single air-
craft, on a single sortie. JDAM also successfully completed operational testing of the MK-82 on the F-16 (Block 25-30) accel-
erating an additional capability to the warfighter in support of ongoing operations.

The SAASM/Anti-Jam development effort, a 27-month effort that commenced in FY03 and continues through FY05, will pro-
vide JDAM the capability to decrease vulnerability to crypto compromise and spoofing as well as enhanced anti-jam perform-
ance. All JDAMS delivered starting in FY06 and beyond will be SAASM capable. JDAMs delivered in FY06 will be anti-jam
capable. The program has successfully completed one captive carriage and four guided releases using SAASM hardware.
Anti-jam testing will begin in early FY05.

The JDAM program successfully completed in record time the certification of a non-standard fuze/warhead combination to
further minimize JDAM MK-82 collateral damage concerns in support of F-16 units for ongoing operations. This capability
provided the warfighter the ability to use the FMU-139 fuze with the BLU-109 penetrator warhead to both enable detona-
tion at impact (rather than after penetration as they normally do with the FMU-143 fuze) and have the smaller fragmentation
pattern of the BLU-109, further minimizing the risk of collateral damage.

The Small Diameter Bomb (SDB) program will increase the number of kills per platform or sortie (x4) while achieving
required effects by improving accuracy and reducing collateral damage over current inventory weapons. SDB is an incre-
mental development weapon program that entered a 36-month System Development and Demonstration (SDD) of its first
increment in FY04. The first Increment of SDB will attack fixed and stationary targets using anti-jam/SAASM Inertial
Navigation System (INS)/Global Positioning Satellite (GPS) aided by a very wide area differential GPS solution and standoff
capability. The program has successfully completed seven free flight events. The program is working towards a MS C deci-
sion in April 05 with LRIP scheduled for May 05. The SDB will provide transformational capability to the Air Force by
increasing loadout per weapon station on multiple platforms, reducing sorties and minimizing collateral damage.




                                                                                                                                91
                  United States Air Force • 2004 Annual Financial Statement



     The Air Force Space program achieved seven successful launches of military satellites, utilizing Titan, Atlas & Delta to launch
     DMSP F-16, NRO, UHF-11, GPS IIR-10, DSP-22, GPS IIR-11 and GPS IIR-12.

     The Air Force continues to develop the Family of Advanced Beyond Line of Sight Terminals (FAB-T) to provide robust,
     secure, strategic and tactical global communications for nuclear and conventional forces. This family of terminals will provide
     transformational communications via connectivity to Advanced EHF satellites (AEHF), Wideband Gapfiller Satellites (WGS),
     and the future Transformational Satellite Communications System (TSAT). Future increments of this terminal will provide
     laser communications in conjunction with optical capabilities on TSAT to deliver data in excess of one GB per second, as well
     as a new multi-band antenna that will enable aircraft to have simultaneous connectivity to multiple satellites via a phased
     array construct. This capability will allow the Air Force to reduce the costs of integrating multiple antennas to communicate
     with different satellite constellations.

     In FY04, the Air Force awarded a contract for the Space Based Space Surveillance (SBSS) pathfinder satellite. The SBSS
     pathfinder program will design, build, launch and operate this single satellite with a visible sensor payload, as well as build and
     operate a ground segment to support initial satellite operations. The SBSS Pathfinder will detect and track objects in Earth
     orbit, contributing to timely space situation awareness, and is scheduled to launch in late 2007.

     In FY04, the Air Force awarded a contract to begin architecture development for the Orbital Deep Space Imager (ODSI).
     The ODSI program will deploy a satellite constellation for reconnaissance of objects in deep space in support of overall bat-
     tlespace awareness. The first ODSI launch is scheduled for FY12.




92
                United States Air Force




General Fund

  Required
Supplementary
 Information




                                     93
                     United States Air Force • 2004 Annual Financial Statement




     Disaggregated Statement of Budgetary Resources—General Fund
     For years ended September 30, 2004 and 2003 ($ in Thousands)

                                                                                     Research, Development,        Operation and
                                                                    Other               Test & Evaluation          Maintenance
     BUDGETARY RESOURCES
     1. Budget Authority:
       1a. Appropriations received                              $     387,428    $                20,540,054   $          39,682,758
       2b. Borrowing authority                                              0                              0                       0
       1c. Contract authority                                               0                              0                       0
       1d. Net transfers (+/-)                                       -382,470                        -50,686                 556,232
       1e. Other                                                            0                              0                       0
     2. Unobligated balance:
       2a. Beginning of period                                          2,787                      2,006,444                 859,909
       2b. Net transfers, actual (+/-)                                      0                              0                 745,680
       2c. Anticipated Transfers Balances                                   0                              0                       0
     3. Spending authority from offsetting collections:
       3a. Earned                                                           0                              0                       0
         1. Collected                                                  11,241                      2,743,842               4,619,439
         2. Receivable from Federal sources                              -232                        -17,883                 380,438
       3b. Change in unfilled customer orders                               0                              0                       0
         1. Advance received                                                0                        230,101                       0
         2. Without advance from Federal sources                            0                         36,014                -167,905
       3c. Anticipated for the rest of year, without advances               0                              0                       0
       3d. Transfers from trust funds                                       0                              0                       0
       3e. Subtotal                                                    11,009                      2,992,074               4,751,144
     4. Recoveries of prior year obligations                                0                         70,735                 525,757
     5. Temporarily not available pursuant to Public Law                    0                              0                       0
     6. Permanently not available                                      -1,837                       -248,689                -495,338
     7. Total Budgetary Resources                               $      16,917    $                25,309,932   $          46,626,142


     STATUS OF BUDGETARY RESOURCES
     8. Obligations incurred:
       8a. Direct                                                       2,684                     20,538,300              40,674,543
       8b. Reimbursable                                                11,010                      2,772,784               4,560,162
       8c. Subtotal                                                    13,694                     23,311,084              45,234,705
     9. Unobligated balance:
       9a. Apportioned                                                    515                      2,848,059                 103,541
       9b. Exempt from apportionment                                    2,709                              0                       0
       9c. Other available                                                  0                              0                       0
     10. Unobligated Balances Not Available                                 0                       -849,211               1,287,897
     11. Total, Status of Budgetary Resources                   $      16,918    $                25,309,932   $          46,626,143
     Relationship of Obligations to Outlays:
     12. Obligated Balance, Net – beginning of period           $       2,294    $                 7,153,485   $          18,257,328
     13. Obligated Balance transferred, net (+/-)                           0                              0                       0
     14. Obligated Balance, Net – end of period:
       14a. Accounts receivable                                             -3                      -222,989              -1,166,513
       14b. Unfilled customer order from Federal sources                     0                      -375,942                -304,380
       14c. Undelivered orders                                      -2,907,685                     7,614,135              15,670,520
       14d. Accounts payable                                         2,914,984                       857,802               2,617,891
     15. Outlays:
       15a. Disbursements                                               8,924                     22,502,697              45,936,224
       15b. Collections                                               -11,241                     -2,973,943              -4,538,611
       15c. Subtotal                                                   -2,317                     19,528,754              41,397,613
     16. Less: Offsetting receipts                                          0                              0                       0
     17. Net Outlays                                            $      -2,317    $                19,528,754   $          41,397,613




94
                                                      Military Construction/
    Procurement           Military Personnel             Family Housing             2004 Combined         2003 Combined


$        32,748,086   $              29,823,154   $                 2,302,306   $       125,483,786   $       124,235,723
                  0                           0                             0                     0                     0
                  0                           0                             0                     0                     0
             -2,810                    -142,431                        -7,229               -29,394             1,888,215
                  0                           0                             0                     0                     0

          4,766,061                     565,628                      989,116              9,189,946             6,066,510
              4,998                    -406,010                      -98,730                245,938               291,591
                  0                           0                            0                      0                     0

                  0                           0                             0                     0                     0
            267,130                     476,734                          -781             8,117,605             7,802,547
             10,064                     -54,822                             0               317,565              -322,918
                  0                           0                             0                     0                     0
             38,799                           0                             0               188,072               213,465
             21,909                           1                             0              -109,981               472,167
                  0                           0                             0                     0                     0
                  0                           0                             0                     0                     0
            337,902                     421,913                          -781             8,513,261             8,165,261
            248,956                     581,701                         3,931             1,431,079             1,955,959
                  0                           0                             0                     0                     0
           -508,384                    -139,066                       -44,338            -1,437,653            -1,806,362
$        37,594,809   $              30,704,889   $                 3,144,275   $       143,396,963   $       140,796,897




         33,121,531                  33,449,486                     2,126,729           129,913,273           123,375,566
            286,806                  -3,183,376                             0             4,447,386             8,231,386
         33,408,337                  30,266,110                     2,126,729           134,360,659           131,606,952

          4,062,315                      45,794                     1,012,342             8,072,566             8,320,595
                  0                           0                             0                 2,709                 2,573
                  0                           0                             0                    -1                    -1
            124,157                     392,984                         5,203               961,030               866,778
$        37,594,809   $              30,704,888   $                 3,144,274   $       143,396,963   $       140,796,897

$        20,565,944   $               2,148,716   $                 2,413,816   $        50,541,583   $        41,822,195
                  0                           0                             0                     0                     0

            -55,973                     -31,134                             0            -1,476,612            -1,159,047
           -147,070                          -2                             0              -827,393              -937,374
         19,324,782                      26,362                     2,581,679            42,309,792            42,168,646
          3,235,611                   1,810,517                        68,606            11,505,411            10,469,360

         31,336,002                  30,082,204                     1,886,330           131,752,381           120,782,356
           -305,930                    -476,734                           781            -8,305,678            -8,016,013
         31,030,072                  29,605,470                     1,887,111           123,446,703           112,766,343
                  0                    -115,376                             0              -115,376              -156,704
$        31,030,072   $              29,490,094   $                 1,887,111   $       123,331,327   $       112,609,639




                                                                                                                            95
                  United States Air Force • 2004 Annual Financial Statement




                                              General Property, Plant, and Equipment
                                 Real Property Deferred Annual Sustainment and RestorationTables
                                              As of September 30, 2004 ($ in thousands)


                           Table 12-3                               Annual Sustainment FY 2004
                        Property Type                1. Required    2. Appropriated  3. Executed 4. Difference
             Buildings, Structures, and Utilities         2,406,443        2,124,700     1,751,123    $550,966

     Notes
     1. FY04 O&M Sustainment Required is based on Facilities Sustainment Model (FSM) 04 requirements (per request of
     OUSD(AT&L) to use draft DoD Financial Management Regulation, Volume 6B, Chapter 12, dated Oct 2003). O&M require-
     ments are less the MILPERS contribution (49%).

     2. FY04 O&M Sustainment Actuals come from SAF/FMBOO using the CRIS database. The numbers are not certified
     DFAS numbers and are subject to change. Certifed numbers for FY04 obligations are not expected until mid-November.

     3. MFH Deferred Sustainment is based upon a combination of historical expenditures for day-to-day maintenance and con-
     dition assessment surveys for MFH real property maintenance by contract. These requirements are part of the 2002 Family
     Housing Master Plan.

     4. Table 12-3 does not include NAF sustainment funding information because their systems are not able to capture the
     requested data for the NAF program. AFSVA and AF/ILVF are working to be able to provide the requested information for
     the FY05 Financial Statement.

     5. FY04 RDT&E Sustainment data comes from AF/TER using the CRIS database to provide the Actual funds and Integrated
     Budget Documentation and Execution System (IDECS) database to provide the Required funds for RDT&E facility sustain-
     ment. FY04 was the first time RDT&E sustainment data was separated from the general T&E support funds. The budgeted
     funding for T&E facility sustainment is planned to increase in FY05 and FY06.


                           Table 12-4                           Annual Deferred Sustainment Trend
                        Property Type                 FY 2001          FY 2002         FY 2003             FY 2004
             Buildings, Structures, and Utillities         368,470          808,628        417,112           $550,966


     Notes
     1. Obligations and expenditures for RDT&E Sustainment and Restoration & Modernization (SRM) funding before FY04 are
     not available.




96
                                Table 12-5                     Restoration & Modernization Requirements
                             Property Type                    End FY 2003     End FY 2004        Change
                  Buildings, Structures, and Utilities          $28,400,000        41,500,000    $13,100,000

Notes
1. Before FY04, the Air Force did not maintain data on the cost to C1 for all facilities. The FY03 Installations’ Readiness
Report (IRR) highlighted cost to C2 but id not include the total AF backlog. Therefore, the FY03 R&M requirements for
Table 12-5 use the total R&M Operation and Maintenance (O&M) requirement projected for each year, non-Military Family
Housing (MFH), and MFH MILCON requirements to C2 from the FY02 IRR. The FY04 R&M requirements are the FY03 IRR
Costs to C1. Because the annual R&M requirements shown in Table 12-5 are calculated differently, they provide a statistically
irrelevant “apples to oranges” comparison.

a. FY03 Requirements: FY02 IRR Costs to C2 breakdown is: $12.5B MILCON, $5.1B for Family Housing, and $2.9
MILCON for Transportation Working Capital Fund, Defense Logistics Agency, Non-Appropriated Funds, RDT&E (Research,
Development, Test, and Evaluation), Medical, other non-O&M facilities. The total FY03 O&M R&M backlog is $7.9B. FY03
R&M MILCON numbers include new footprint. New footprint is an essential element of our IRR requirements. It provides
the facilities necessary to effectively support our installations’ mission.

b. FY04 Requirements: FY03 IRR Costs to C1 breakdown is: $15.0B MILCON (excluding new footprint), $5.3B new
footprint MILCON, $5.6B for Family Housing, $3.4B Host Nation, $0.6B DLA, and $2.2B MILCON for Transportation
Working Capital Fund, Non-Appropriated Funds, RDT&E (Research, Development, Test, and Evaluation), Medical, other
non-O&M facilities. The total FY04 O&M R&M backlog is $8.7B, and the total MFH O&M R&M backlog is $0.8B.

Real Property Condition Information
The readiness of Air Force facilities is assessed using the IRR. The IRR assigns C-ratings ranging from C-4 (worst) to C-1
(best) facilities aggregated in nine facility classes. The FY03 IRR identified that 59 percent of Air Force facility classes were
rated C-4 or C-3. Facility clases rated as having significant (C-3) or major (C-4) deficiences preclude satisfactory mission
accomplishment.




                                                                                                                                    97
                 United States Air Force • 2004 Annual Financial Statement



                                                Military Equipment
                                          Deferred Maintenance Amounts
                                  As of September 30, 2004 (Amounts in Thousands)

                      Major Type

                      1. Aircraft                                                            $11,000
                      2. Ships                                                                    $0
                      3. Missiles                                                            $85,000
                      4. Combat Vehicles                                                          $0
                      5. Other Weapon Systems                                               $136,000
                         Subcategories as required                                                $0
                      Total                                                                 $232,000

     The figures presented are actual deferred maintenance amounts for FY04. The figures include Active Air Force, Air National
     Guard, and the Air Force Reserve.




98
Schedule, Part A
                                                     Treasury     Fund Balance      Accounts        Loans
DoD Intra-governmental Asset Balances                                                                          Investments        Other
                                                       Index      with Treasury     Receivable    Receivable
($ in thousands)
Executive Office of the President                        11                         $        -9
Department of Agriculture                                12                         $       816
Department of Commerce                                  13                          $       292                               $     10,835
Department of the Interior                              14                          $       700                               $    114,361
Department of Justice                                   15                          $     5,709                               $      1,177
Navy General Fund                                       17                          $     4,792
United States Postal Service                             18                         $       121
Department of State                                      19                         $    25,313
Department of the Treasury                               20        $   60,600,999   $     1,246                 $       712   $         62
Army General Fund                                        21                         $    14,203                               $      2,880
Office of Personnel Management                           24                         $         2
Social Security Administration                           28                         $         1
Library of Congress                                       3                                                                   $           920
Smithsonian Institution                                  33                                                                   $            22
Department of Veterans Affairs                           36                         $       239
Government Printing Office                                4                                                                   $           31
General Service Administration                           47                         $       642
National Science Foundation                             49                          $     5,491                               $      1,813
Central Intelligence Agency                             56                          $       516
Federal Emergency Management Agency                      58                         $       536
Environmental Protection Agency                          68                         $       226                               $      2,386
Department of Transportation                             69                         $    28,745                               $     58,821
Homeland Security                                        70                                                                   $         50
Agency for International Development                     72                         $     1,335
Small Business Administration                            73                                                                   $           848
Department of Health and Human Services                 75                          $        14
National Aeronautics and Space Administration            80                         $    11,021                               $     16,180
National Archives and Records Administration             88                         $        50
Department of Energy                                     89                         $     3,163                               $      2,872
Department of Education                                  91                         $        33
US Army Corps of Engineers                              96                          $        55
Other Defense Organizations General Funds                97                         $   120,458                               $        172
Other Defense Organizations Working Capital Funds     97-4930                       $   387,873                               $      1,969
Army Working Capital Fund                           97-4930.001                     $       749                               $       -442
Navy Working Capital Fund                           97-4930.002                     $     1,507
Air Force Working Capital Fund                      97-4930.003                     $    74,035                               $    228,984
The General Fund of the Treasury                         99                         $         0




                                                                                                                                                99
             United States Air Force • 2004 Annual Financial Statement




                                                                                        Debts/
      Schedule, Part B                                     Treasury     Accounts      Borrowings
                                                                                                       Other
      DoD Intra-governmental entity liabilities              Index       Payable      From Other
      ($ in thousands)                                                                 Agencies
      Executive Office of the President                       11        $                          $     196,761
      Department of Agriculture                                12       $       351
      Department of Commerce                                  13        $       565                $      33,744
      Department of the Interior                              14        $     1,935                $          33
      Department of Justice                                   15        $     1,009
      Department of Labor                                      16       $    67,065                $     330,244
      Navy General Fund                                       17        $    15,358                $      75,516
      Department of State                                      19       $     6,788
      Department of the Treasury                               20       $   107,861                $     175,194
      Army General Fund                                        21       $   155,513                $      15,155
      Office of Personnel Management                           24       $     2,782                $      41,216
      Federal Communications Commission                        27       $        30
      Social Security Administration                           28       $         7                $       1,505
      Library of Congress                                       3       $       336
      Nuclear Regulatory Commission                            31       $        29
      Smithsonian Institution                                  33       $        30
      Department of Veterans Affairs                           36       $     9,852
      Government Printing Office                                4       $       601
      General Service Administration                           47       $   262,986                $      41,274
      National Science Foundation                              49       $       868
      Federal Labor Relations Authority                        54       $         1
      Tennessee Valley Authority                               64       $     1,882
      Environmental Protection Agency                          68       $        69                $             0
      Department of Transportation                             69       $    23,667                $           595
      Homeland Security                                       70        $     1,645
      Agency for International Development                     72       $     7,851                $           286
      Small Business Administration                            73       $        36
      Department of Health and Human Services                 75        $       388
      National Aeronautics and Space Administration            80       $    29,539                $     263,608
      Department of Energy                                     89       $    14,193                $      53,115
      US Army Corps of Engineers                               96       $        43
      Other Defense Organizations General Funds               97        $    37,775                $       3,333
      Other Defense Organizations Working Capital Funds     97-4930     $   617,597                $         -45
      Army Working Capital Fund                           97-4930.001   $    19,595
      Navy Working Capital Fund                           97-4930.002   $    60,640                $           0
      Air Force Working Capital Fund                      97-4930.003   $   451,525                $           0
      The General Fund of the Treasury                         99                                  $     494,947
      DoD Medicare-Eligible Retiree Health Care Fund                                               $           0




100
Schedule, Part C
DoD Intra-governmental revenue and related costs             Treasury            Earned
($ in thousands)                                               Index            Revenue
Executive Office of the President                               11              $         829,012
Department of Agriculture                                        12             $             369
Department of Commerce                                          13              $           1,163
Department of the Interior                                      14              $           1,965
Department of Justice                                           15              $          15,971
Navy General Fund                                               17              $         199,799
United States Postal Service                                     18             $             345
Department of State                                              19             $          28,800
Department of the Treasury                                       20             $           1,305
Army General Fund                                                21             $         129,602
Office of Personnel Management                                   24             $               1
Social Security Administration                                   28             $              97
Nuclear Regulatory Commission                                    31             $              -2
Department of Veterans Affairs                                   36             $             908
General Service Administration                                   47             $           2,566
National Science Foundation                                      49             $          54,043
Central Intelligence Agency                                     56              $           1,977
Federal Emergency Management Agency                              58             $             489
Environmental Protection Agency                                  68             $             501
Department of Transportation                                     69             $          55,831
Agency for International Development                             72             $          37,910
Department of Health and Human Services                         75              $              93
National Aeronautics and Space Administration                    80             $          78,148
National Archives and Records Administration                     88             $              25
Department of Energy                                             89             $          19,733
Department of Education                                          91             $             127
US Army Corps of Engineers                                       96             $             954
Other Defense Organizations General Funds                        97             $       1,711,234
Other Defense Organizations Working Capital Funds             97-4930           $       1,312,211
Army Working Capital Fund                                   97-4930.001         $           1,722
Navy Working Capital Fund                                   97-4930.002         $          19,355
Air Force Working Capital Fund                              97-4930.003         $         301,785
The General Fund of the Treasury                                 99             $         -59,893
DoD Medicare-Eligible Retiree Health Care Fund                                  $         194,208




Schedule, Part E
DoD Intra-governmental Non-exchange Revenues         Treasury
                                                                  Transfers In Transfers Out
(& in thousands)                                       Index
Navy General Fund                                       17                          $      -2,809
Army General Fund                                        21       $     9,386       $      44,393
Other Defense Organizations General Funds                97       $   343,362
Other Defense Organizations Working Capital Funds     97-4930     $   451,000
Air Force Working Capital Fund                      97-4930.003   $   220,000       $         34




                                                                                                    101
      United States Air Force • 2004 Annual Financial Statement




                            This page intentionally left blank.




102
                United States Air Force




General Fund

Audit Opinion




                                    103
      United States Air Force • 2004 Annual Financial Statement




                            This page intentionally left blank.




104
This page intentionally left blank.




                                      105
      United States Air Force • 2004 Annual Financial Statement




106
107
      United States Air Force • 2004 Annual Financial Statement




108
109
      United States Air Force • 2004 Annual Financial Statement




110
111
      United States Air Force • 2004 Annual Financial Statement




                            This page intentionally left blank.




112
                       United States Air Force




Working Capital Fund

Principal Statements




                                           113
      United States Air Force • 2004 Annual Financial Statement




                            This page intentionally left blank.




114
Consolidated Balance Sheet—Working Capital Fund
As of September 30, 2004 and 2003 ($ in Thousands)
                                                                                  2004                2003
                                                                               Consolidated        Consolidated
1. ASSETS (Note 2)
    A. Intra-governmental:
      1. Fund Balance with Treasury (Note 3)
        a. Entity                                                          $       1,051,110   $         732,842
        b. Non-Entity Seized Iraqi Cash                                                    0                   0
        c. Non-Entity-Other                                                                0                   0
      2. Investments (Note 4)                                                              0                   0
      3. Accounts Receivable (Note 5)                                                576,396             605,077
      4. Other Assets (Note 6)                                                            10                   3
      5. Total Intra-governmental Assets                                   $       1,627,516   $       1,337,922
    B. Cash and Other Monetary Assets (Note 7)                             $               0   $               0
    C. Accounts Receivable (Note 5)                                                  103,111             167,764
    D. Loans Receivable (Note 8)                                                           0                   0
    E. Inventory and Related Property (Note 9)                                    21,025,528          22,524,996
    F. General Property, Plant and Equipment (Note 10)                             1,197,683           1,329,629
    G. Investments (Note 4)                                                                0                   0
    H. Other Assets (Note 6)                                                         788,966             380,362
2. TOTAL ASSETS                                                            $      24,742,804   $      25,740,673
3. LIABILITIES (Note 11)
    A. Intra-governmental:
      1. Accounts Payable (Note 12)                                        $         256,763   $         231,725
      2. Debt (Note 13)                                                                    0                   0
      3. Environmental Liabilities (Note 14)                                               0                   0
      4. Other Liabilities (Note 15 and Note 16)                                     243,131             345,437
      5. Total Intragovernmental Liabilities                               $         499,894   $         577,162
    B. Accounts Payable (Note 12)                                          $         497,471   $          88,984
    C. Military Retirement Benefits and Other Employment-Related                     238,729             275,132
    D. Actuarial Liabilities (Note 17)
    E. Environmental Liabilities (Note 14)                                                 0                   0
    F. Loan Guarantee Liability (Note 8)                                                   0                   0
    G. Other Liabilities (Note 15 and Note 16)                                     1,616,321           1,891,851
    H. Debt Held by Public                                                                 0                   0
4. TOTAL LIABILITIES                                                       $       2,852,415   $       2,833,129
5. NET POSITION
    A. Unexpended Appropriations (Note 18)                                 $               0   $               0
    B. Cumulative Results of Operations                                           21,890,389          22,907,544
6. TOTAL NET POSITION                                                      $      21,890,389   $      22,907,544
7. TOTAL LIABILITIES AND NET POSITION                                      $      24,742,804   $      25,740,673




The accompanying notes are an integral part of the financial statements.


                                                                                                                   115
                   United States Air Force • 2004 Annual Financial Statement




      Consolidated Statement of Net Cost—Working Capital Fund
      For the years ended September 30, 2004 and 2003 ($ in Thousands)
                                                                           2004                 2003
                                                                        Consolidated         Consolidated
      1. Program Costs
          A. Intra-governmental Gross Costs                         $       5,399,793    $       5,448,310
          B. (Less: Intra-governmental Earned Revenue)                    -11,888,462          -13,317,788
          C. Intra-governmental Net Costs                           $      -6,488,669    $      -7,869,478
          D. Gross Costs With the Public                                    8,674,787            8,224,828
          E. (Less: Earned Revenue From the Public)                          -891,419             -393,889
          F. Net Costs With the Public                              $       7,783,368    $       7,830,939
          G. Total Net Cost                                         $       1,294,699    $         -38,539
      2. Cost Not Assigned to Programs                                              0                    0
      3. (Less: Earned Revenue Not Attributable to Programs)                        0                    0
      4. Net Cost of Operations                                     $       1,294,699    $         -38,539




      The accompanying notes are an integral part of the financial statements. See notes 1 and 19.


116
Consolidated Statement of Changes in Net Position—Working Capital Fund
For the years ended September 30, 2004 and 2003 ($ in Thousands)

                                                                                2004                  2003
                                                                            Consolidated           Consolidated
CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                                   $        11,537,088    $       11,593,865
2. Prior Period Adjustments (+/-)
    2.A. Prior Period Adjustments - Restated (+/-)                               11,370,456            11,370,456
    2.B. Beginning Balance, Restated                                             22,907,544            22,964,321
    2.C. Prior Period Adjustments - Not Restated (+/-)                              699,393               -55,128
3. Beginning Balances, as adjusted                                               23,606,937            22,909,193
4. Budgetary Financing Sources:
    4.A. Appropriations received                                                          0                    0
    4.B. Appropriations transferred-in/out (+/-)                                          0                    0
    4.C. Other adjustments (rescissions, etc) (+/-)                                       0                    0
    4.D. Appropriations used                                                              0               23,956
    4.E. Nonexchange revenue                                                              0                    0
    4.F. Donations and forfeitures of cash and cash equivalents                           0                    0
    4.G. Transfers-in/out without reimbursement (+/-)                              -580,900                    0
    4.H. Other budgetary financing sources (+/-)                                          0                    0
5. Other Financing Sources:
    5.A. Donations and forfeitures of property                                            0                     0
    5.B. Transfers-in/out without reimbursement (+/-)                                    34              -209,350
    5.C. Imputed financing from costs absorbed by others                            159,017               145,206
    5.D. Other (+/-)                                                                      0                     0
6. Total Financing Sources                                                         -421,849               -40,188
7. Net Cost of Operations (+/-)                                                   1,294,699               -38,539
8. Ending Balances                                                      $        21,890,389    $       22,907,544

UNEXPENDED APPROPRIATIONS
1. Beginning Balances                                                   $                  0   $                  0
2. Prior Period Adjustments (+/-)
    2.A. Prior Period Adjustments - Restated (+/-)                                         0                      0
    2.B. Beginning Balance, Restated                                                       0                      0
    2.C. Prior Period Adjustments - Not Restated (+/-)                                     0                      0
3. Beginning Balances, as adjusted                                                         0                      0
4. Budgetary Financing Sources:
    4.A. Appropriations received                                                           0               23,956
    4.B. Appropriations transferred-in/out (+/-)                                           0                    0
    4.C. Other adjustments (rescissions, etc) (+/-)                                        0                    0
    4.D. Appropriations used                                                               0              -23,956
    4.E. Nonexchange revenue                                                               0                    0
    4.F. Donations and forfeitures of cash and cash equivalents                            0                    0
    4.G. Transfers-in/out without reimbursement (+/-)                                      0                    0
    4.H. Other budgetary financing sources (+/-)                                           0                    0
5. Other Financing Sources:
    5.A. Donations and forfeitures of property                                             0                      0
    5.B. Transfers-in/out without reimbursement (+/-)                                      0                      0
    5.C. Imputed financing from costs absorbed by others                                   0                      0
    5.D. Other (+/-)                                                                       0                      0
6. Total Financing Sources                                                                 0                      0
7. Net Cost of Operations (+/-)                                                            0                      0
8. Ending Balances                                                      $                  0   $                  0


The accompanying notes are an integral part of the financial statements. See notes 1 and 20.


                                                                                                                      117
                     United States Air Force • 2004 Annual Financial Statement




      Combined Statement of Budgetary Resouces—Working Capital Fund
      For the years ended September 30, 2004 and 2003 ($ in Thousands)
                                                                       2004               2003
                                                                     Combined           Combined
      BUDGETARY FINANCING ACCOUNTS
      BUDGETARY RESOURCES
      1. Budget Authority:
        1a. Appropriations received                              $             0    $         23,956
        1b. Borrowing authority                                                0                   0
        1c. Contract authority                                           684,378             -35,575
        1d. Net transfers (+/-)                                                0                   0
        1e. Other                                                              0                   0
      2. Unobligated balance:
        2a. Beginning of period                                          607,130            305,847
        2b. Net transfers, actual (+/-)                                 -580,900           -125,000
        2c. Anticipated transfers balances                                     0                  0
      3. Spending authority from offsetting collections:
        3a. Earned                                                             0                  0
          1. Collected                                                17,824,823         17,643,264
          2. Receivable from Federal sources                            -186,398             83,803
        3b. Change in unfilled customer orders                                 0                  0
          1. Advance received                                           -173,221           -371,890
          2. Without advance from Federal sources                       -733,915            200,583
        3c. Anticipated for the rest of year, without advances                 0                  0
        3d. Transfers from trust funds                                         0                  0
        3e. Subtotal                                                  16,731,289         17,555,760
      4. Recoveries of prior year obligations                              3,180              2,027
      5. Temporarily not available pursuant to Public Law                      0                  0
      6. Permanently not available                                       -36,669           -119,535
      7. Total Budgetary Resources                               $    17,408,408    $    17,607,480


      STATUS OF BUDGETARY RESOURCES
      8. Obligations incurred:
        8a. Direct                                               $         2,027    $        23,956
        8b. Reimbursable                                              17,271,941         16,976,393
        8c. Subtotal                                                  17,273,968         17,000,349
      9. Unobligated balance:
        9a. Apportioned                                                  134,440            607,132
        9b. Exempt from apportionment                                          0                  0
        9c. Other available                                                    0                 -1
      10. Unobligated Balances Not Available                                   0                  0
      11. Total, Status of Budgetary Resources                   $    17,408,408    $    17,607,480
      Relationship of Obligations to Outlays:
      12. Obligated Balance, Net - beginning of period           $     3,317,312    $     3,504,176
      13. Obligated Balance transferred, net (+/-)                             0                  0
      14. Obligated Balance, Net - end of period:
        14a. Accounts receivable                                         -958,783         -1,145,183
        14b. Unfilled customer order from Federal sources              -3,265,470         -3,999,386
        14c. Undelivered orders                                         6,610,227          6,166,726
        14d. Accounts payable                                           2,370,008          2,295,155
      15. Outlays:
        15a. Disbursements                                             16,752,435         16,900,798
        15b. Collections                                              -17,651,602        -17,271,374
        15c. Subtotal                                                    -899,167           -370,576
      16. Less: Offsetting receipts                                             0                  0
      17. Net Outlays                                            $       -899,167   $       -370,576




      The accompanying notes are an integral part of the financial statements. See notes 1 and 21.


118
Combined Statement of Financing—Working Capital Fund
For the years ended September 30, 2004 and 2003 ($ in Thousands)
                                                                                                      2004               2003
                                                                                                    Combined           Combined
 Resources Used to Finance Activities:
 Budgetary Resources Obligated
 1. Obligations incurred                                                                        $     17,273,968   $     17,000,349
 2. Less: Spending authority from offsetting collections                                             -16,734,467        -17,557,786
    and recoveries (-)
 3. Obligations net of offsetting collections and recoveries                                            539,501           -557,437
 4. Less: Offsetting receipts (-)                                                                             0                  0
 5. Net obligations                                                                                     539,501           -557,437
 Other Resources
 6. Donations and forfeitures of property                                                                     0                  0
 7. Transfers in/out without reimbursement (+/-)                                                             33           -209,350
 8. Imputed financing from costs absorbed by others                                                     159,017            145,206
 9. Other (+/-)                                                                                               0                  0
 10. Net other resources used to finance activities                                                     159,050            -64,144
 11. Total resources used to finance activities                                                         698,551           -621,581
 Resources Used to Finance Items not Part of the Net Cost of Operations
 12. Change in budgetary resources obligated for goods,
     services and benefits ordered but not yet provided
     12a. Undelivered Orders (-)                                                                       -951,116           -468,106
     12b. Unfilled Customer Orders                                                                     -907,137           -171,307
 13. Resources that fund expenses recognized in prior periods                                           -36,403                  0
 14. Budgetary offsetting collections and receipts that                                                       0                  0
     do not affect net cost of operations
 15. Resources that finance the acquisition of assets                                                 -2,686,199         1,006,802
 16. Other resources or adjustments to net obligated resources
     that do not affect net cost of operations
     16a. Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)                  0                 0
     16b. Other (+/-)                                                                                        -34                 0
 17. Total resources used to finance items not part of the net cost of operations                     -4,580,889           367,389
 18. Total resources used to finance the net cost of operations                                       -3,882,338          -254,192

 Components of the Net Cost of Operations that will
 not Require or Generate Resources in the Current Period:
 Components Requiring or Generating Resources in Future Period:
 19. Increase in annual leave liability
 20. Increase in environmental and disposal liability                                                          0                 0
 21. Upward/Downward reestimates of credit subsidy expense (+/-)                                               0                 0
 22. Increase in exchange revenue receivable from the the public (-)                                           0                 0
 23. Other (+/-)                                                                                               0                 0
 24. Total components of Net Cost of Operations that                                                           0            27,382
     will require or generate resources in future periods                                                      0            27,382
 Components not Requiring or Generating Resources:
 25. Depreciation and amortization                                                                       259,260           185,805
 26. Revaluation of assets or liabilities (+/-)                                                       -5,660,357             2,466
 27. Other (+/-)
     27a. Trust Fund Exchange Revenue                                                                         0                  0
     27b. Cost of Goods Sold                                                                          5,866,525                  0
     27c. Operating Material & Supplies Used                                                            325,585                  0
     27d. Other                                                                                       4,386,024                  0
 28. Total components of Net Cost of Operations that                                                  5,177,037            188,271
     will not require or generate resources
 29. Total components of net cost of operations that will not                                         5,177,037            215,653
     require or generate resources in the current period
 30. Net Cost of Operations                                                                           1,294,699             -38,539




The accompanying notes are an integral part of the financial statements. See notes 1 and 22.


                                                                                                                                      119
      United States Air Force • 2004 Annual Financial Statement




                            This page intentionally left blank.




120
                       United States Air Force




Working Capital Fund

  Footnotes to the
Principal Statements




                                           121
                   United States Air Force • 2004 Annual Financial Statement




      Note 1. Significant Accounting Policies
      1.A. Basis of Presentation
      These financial statements have been prepared to report the financial position and results of operations of the United States
      Air Force Working Capital Fund (AFWCF), as required by the “Chief Financial Officers (CFO) Act of 1990,” expanded by the
      “Government Management Reform Act (GMRA) of 1994,” and other appropriate legislation. The financial statements have
      been prepared from the books and records of the AFWCF in accordance with “Department of Defense Financial
      Management Regulation (DoDFMR),” the Office of Management and Budget (OMB) Bulletin No. 01-09, “Form and Content
      of Agency Financial Statements” and to the extent possible Federal Generally Accepted Accounting Principles (GAAP). The
      accompanying financial statements account for all resources for which the AFWCF is responsible except that information rel-
      ative to classified assets, programs, and operations. This information has been excluded from the statements or otherwise
      aggregated and reported in such a manner that is no longer considered classified. The AFWCF’s financial statements are in
      addition to the financial reports that are prepared by the United States Air Force pursuant to OMB directives to monitor and
      control the Air Force’s use of budgetary resources.

      The AFWCF is unable to implement all elements of Federal GAAP and the OMB Bulletin No. 01-09, due to limitations of its
      financial management processes and systems, including nonfinancial feeder systems and processes. Reported values and
      information for the AFWCF’s major asset and liability categories are derived largely from nonfinancial feeder systems, such as
      inventory systems and logistic systems. These systems were designed to support reporting requirements focusing on main-
      taining accountability over assets and reporting the status of federal appropriations, rather than preparing financial statements
      in accordance with Federal GAAP. The AFWCF continues to implement process and system improvements addressing the
      limitations of its financial and nonfinancial feeder systems. A more detailed explanation of these financial statement elements
      is provided in the applicable footnote.

      The AFWCF continues to enter material amounts of unsupported accounting entries. Financial and nonfinancial feeder sys-
      tems continue to lack sufficient customer identification necessary to accurately process eliminations. The issue has been
      addressed as part of the Air Force plan for obtaining a favorable opinion by FY 2007. This was also disclosed in the DoD
      Agency-wide Note 1.

      1.B. Mission of the Reporting Entity
      The United States Air Force was created on September 18, 1947 by the National Security Act of 1947. The National
      Security Act Amendments of 1949 established the DoD and made the Air Force a department within the DoD. The overall
      mission of the DoD is to organize, train, and equip armed forces to deter aggression and if necessary, defeat aggressors of
      the United States and its allies. The overall mission of the Air Force is to defend the United States through control and
      exploitation of air and space.

      The stock and industrial revolving fund accounts were created by the National Security Act of 1947, as amended in 1949 and
      codified in Title 10, U.S.C., Section 2208. The revolving funds were established as a means to more effectively control the
      cost of work performed by the DoD. The DoD began operating under the revolving fund concept as early as July 1, 1951.

      1.C. Appropriations and Funds
      The Air Force’s funds are divided into the general, working capital (revolving funds), trust, special, and deposit funds. These
      appropriations and funds are used to fund and report how the resources have been used in the course of executing the Air
      Force’s missions.




122
Working Capital Funds receive their initial working capital through an appropriation or a transfer of resources from existing
appropriations or funds, and use those capital resources to finance the initial cost of products and services. Financial
resources to replenish the initial working capital and to permit continuing operations are generated by the acceptance of cus-
tomer orders. The Defense Working Capital Fund (DCWF) operates with financial principles that provide improved cost vis-
ibility and accountability to enhance business management and improve the decision making process. The activities provide
goods and services on a reimbursable basis. Receipts derived from operations generally are available in their entirety for use
without further congressional action.

Air Force systems are not transaction driven for budgetary accounts. Therefore, in some cases proprietary and statistical
accounts are used to develop the Report on Budget Execution (SF133) and Statement of Budgetary Resources for reporting
budgetary data.

Supply Management
The Air Force Stock Funds were established within the DoD under 10 U.S.C. 2208, as described in DoD Financial
Management Regulation 7000.14-R, to finance inventories of supplies. Most inventories of supplies are financed by use of a
stock fund. Exceptions include an item financed with a procurement appropriation or when financing by other means has
been deemed to be more economical and efficient. A stock fund operates as a revolving fund acquiring inventories with
funds received from prior sales to customers.

There are four active business activities in the Supply Management Activity Group (SMAG). They are Materiel Support
Division (MSD), General Support Division (GSD), Medical-Dental Division, and Academy Division. In FY 2001, the Fuels
Division was taken over by the Defense Energy Support Center; therefore, all activity within the Fuels Division is residual.
Troop Support is also a residual activity.

Depot Maintenance
The Air Force Depot Maintenance Activity Group (DMAG) performs manufacturing, development, and test work as well as
aviation maintenance. Primarily supporting Air Force organizations, DMAG also supports other DoD components, govern-
ment agencies, and foreign governments. The DMAG environment is rapidly changing. Weapons systems embodying new
material and technologies require new maintenance processes, while improvements in reliability reduce the frequency of
maintenance for many items. The net result requires flexibility in addressing both wartime and peacetime workload changes.
The DMAG achieves this flexibility by employing the unique strengths of organic (in-house) and contractor repair resources.

Transportation
The unique transportation responsibilities of the Air Mobility Command (AMC) include the executive travel mission and
operation of other operational support aircraft, the air weather service, AMC training, AMC base operations, tanker opera-
tions, and other miscellaneous AMC functions. The Air Force Transportation Defense Business Operations Fund (DBOF)
was established during FY 1993 and discontinued in FY 1995 in accordance with the DWCF improvement plan. Only resid-
ual accounting remains.

Air Force Working Capital Fund Component
The purpose of the Air Force Component Activity is to provide an activity within the AFWCF to record transactions that
cannot be identified to a specific business area. The January 21, 1997 memorandum “Policy and Procedures for Cash
Management Working Capital Funds (DWCF)” established the “Component Level Adjustment” column. Additional DFAS-
Arlington memorandums provided specific and detailed instructions and procedures to maintain accountability for fund bal-
ances with Treasury.



                                                                                                                                 123
                   United States Air Force • 2004 Annual Financial Statement



      Additional DFAS-Arlington memorandums provided specific and detailed instructions and procedures to maintain accounta-
      bility for fund balances with Treasury.

      Operations of the activities within the AFWCF are based on policies and procedures that include:

      (1) Funding Authority. Prior to FY 1992, industrial fund activities were not issued funding documents. Activities now
      receive obligation authority for customer orders from the Air Force Deputy Assistant Secretary, Budget (SAF/FMB). The
      total costs that can be incurred are a function of the cost goals applied to the actual customer funded workload.

      (2) Minor Construction Funding. Minor construction projects that cost $100,000 or more, but less than $300,000, are
      funded through a separate section of the capital budget, and depreciated over a 20-year period.

      (3) Software Development Costs. Policy and procedures have been changed to move the development costs of new
      software that meets capitalization requirements to the capital budget. Software is to be amortized after release.

      (4) Capital Budgeting. Activity group budgets are segregated into operating and capital budgets. Any investment in equip-
      ment, software, minor construction and other management improvements that meet capitalization requirements are funded
      through the capital budget and the cost is depreciated or amortized over the relevant life cycle.

      (5) Asset Capitalization and Depreciation. The assets of the industrial and stock funds were transferred to the DBOF
      and subsequently to the AFWCF. Capital assets, excluding land, which exceed a unit cost of $100,000 or more are subject to
      depreciation. In addition, capital assets previously capitalized using the established thresholds for prior years will continue to
      be depreciated if depreciation was being recorded prior to the increase to the $100,000 threshold.

      (6) Rates and Prices. All Air Force activity groups within the WCF are expected to set their rates and prices based upon
      full cost recovery, ensuring that cost reductions made by an activity will be passed on to the customers. Rates and prices
      normally will not change during the year of execution, but occasionally change based on certain world situations. If there is a
      need for a price change in Depot Maintenance, the authority is requested from HQ Air Force Material Command.

      The FY 2004, AFWCF operations encompassed three activity groups: Supply Management, Depot Maintenance, and
      Information Services. These activity groups use their resources to finance the initial cost of products or services for activities
      of the United States Government, primarily those of the DoD. Work is generated by the acceptance of customer orders
      from ordering activities.

      1.D. Basis of Accounting
      The AFWCF generally records transactions on an accrual accounting basis as is required by Federal GAAP. However, some
      of the Air Force’s financial and nonfinancial feeder systems and processes are not designed to collect and record financial
      information on the full accrual accounting basis. The AFWCF has undertaken efforts to determine the actions required to
      bring all of its financial and nonfinancial feeder systems and processes into compliance with all elements of Federal GAAP.
      One such action is the current revision of its accounting systems to record transactions based on the United States
      Government Standard General Ledger (USSGL). Until such time that all of the processes are updated to collect and report
      financial information as required by Federal GAAP, some of the AFWCF’s financial data will be based on budgetary transac-
      tions (obligations, disbursements, and collections) and nonfinancial feeder systems. For example, most of information pre-
      sented on the Statement of Net Cost is based on accrued costs. However, some of this information is based on obligations
      and disbursements.

      Under the accrual method revenues are recognized when earned and expenses are recognized when incurred, without
      regard to receipt or payment of cash. Budgetary accounting is accomplished through unique general ledger accounts to facil-
      itate compliance with legal and internal control requirements associated with the use of federal funds. However, the cash



124
basis of accounting may be followed if the reported activity and amounts are not materially significant. In addition to the
accrual basis of accounting, Depot Maintenance also uses the full absorption accounting principal. During FY 1996, DFAS-
DE, SAF/FMB, and OSD/FM jointly agreed on the use of this principal by Depot Maintenance. This principal requires that
overhead costs such as depreciation and bad debt expenses are included in the cost of services sold. The effect of known
intrafund transactions is eliminated.

The Air Force uses several service unique general ledger structures plus data converted from the Defense Business
Management System (DBMS). The financial statements depicted are derived from supply, maintenance, and accounting
records, utilizing the Air Force service and DBMS unique general ledger structures. The activity groups’ general ledger
accounts are “cross-walked” to the USSGL chart of accounts to produce the financial statements.

In addition, the Air Force identifies programs based upon the major appropriation groups provided by Congress. The Air
Force is in the process of reviewing available data and attempting to develop a cost-reporting methodology that balances the
need for cost information required by the SFFAS No. 4, “Managerial Cost Accounting Concepts and Standards for the
Federal Government,” with the need to keep the financial statements readable.

The asset accounts used to prepare the statements are categorized as either entity or non-entity. Entity assets consist of
resources that the agency has the authority to use, or where management is legally obligated to use funds to meet entity
obligations. Non-entity assets are assets that are held by an entity that are not available for use in the operations of the entity.

Material disclosures are provided at Note 10.

1.E. Revenues and Other Financing Sources
 The Under Secretary of Defense (Comptroller) directed, per memorandum dated January 1992, all of the services to use
the percentage of completion accounting method to recognize revenue and expenses. The DoD 7000.14-R, Financial
Management Regulation, Chapter 11B, January 1995, also prescribes this method of accounting.

Each working capital activity group recognizes revenue in the following manner:

Supply Management
Air Force Supply Management revenue is recognized at the time of sale under constructive delivery terms (normally when an
item is released from inventory or delivered to the customer). Foreign Military Sales transactions also require proof of ship-
ment before revenue is recognized. Generally, Supply Management’s revenue consists of sales at standard prices less sales
returns. Sales of Materiel Support Division items are at exchange price. The Medical-Dental division and the Air Force
Academy Store add surcharges to their billings rather than include a surcharge in the standard price. Intradivision Supply
Management sales have been eliminated. Cash discounts and interfund retail stock loss allowances are reported as additional
revenue.

Depot Maintenance
Revenue recognition for Organic DMAG is the percentage of completion method now that the Depot Maintenance
Accounting and Production System (DMAPS) is fully operational at all three ALCs.

Revenue recognition for Contract DMAG is based on the number of units produced times the Unit Sales Price (USP) and
does not recognize IRR at this time.




                                                                                                                                       125
                   United States Air Force • 2004 Annual Financial Statement




      Information Services
      The Information Services Activity Group (ISAG), as a service type organization, recognizes revenue in one of two ways based
      on the service level agreement between the customer and the provider. ISAG uses either the completed contract method
      or the percentage of completion method.

      1.F. Recognition of Expenses
      For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period incurred.
      However, because the Air Force’s financial and nonfinancial feeder systems were not designed to collect and record financial
      information on the full accrual accounting basis, accrual adjustments are made for major items such as payroll expenses,
      accounts payable, and environmental liabilities. Expenditures for capital and other long-term assets are not recognized as
      expenses in the AFWCF’s operations until depreciated in the case of property, plant, and equipment (PP&E) or consumed in
      the case of operating materials and supplies (OM&S). Certain expenses, such as annual and military leave earned but not
      taken, are financed in the period in which payment is made. Operating expenses were adjusted as a result of the elimination
      of balances between the DoD Components. Net increases or decreases in unexpended appropriations are recognized as a
      change in net position. See Note 19.I, Intra-governmental Expenses and Revenue, for disclosure of adjustment amounts.

      1.G. Accounting for Intra-governmental Activities
      The Air Force, as an agency of the federal government, interacts with and is dependent upon the financial activities of the
      federal government as a whole. Therefore, these financial statements do not reflect the results of all financial decisions appli-
      cable to the Air Force as though the agency was a stand-alone entity.

      The Air Force’s proportionate share of public debt and related expenses of the federal government are not included. Debt
      issued by the federal government and the related costs are not apportioned to the federal agencies. The Air Force’s financial
      statements, therefore, do not report any portion of the public debt or interest thereon, nor do the statements report the
      source of public financing whether from issuance of debt or tax revenues.

      Financing for the construction of the DoD facilities is obtained through budget appropriations. To the extent this financing
      ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the
      Department of the Treasury does not allocate such interest costs to the benefiting agencies.

      The Air Force’s civilian employees participate in the Civil Service Retirement System (CSRS) and Federal Employees
      Retirement System (FERS), while military personnel are covered by the Military Retirement System (MRS). Additionally,
      employees and personnel covered by FERS and MRS also have varying coverage under Social Security. The AFWCF funds a
      portion of the civilian and military pensions. Reporting civilian pension information under the CSRS and FERS retirement sys-
      tems is the responsibility of the Office of Personnel Management (OPM). The AFWCF recognizes an imputed expense for
      the portion of civilian employee pensions and other retirement benefits funded by the OPM in the Statement of Net Cost,
      and recognizes corresponding imputed revenue in the Statement of Changes in Net Position.

      To prepare reliable financial statements, transactions occurring between components or activities within the DoD or
      between two or more federal agencies must be eliminated. However, the Air Force, as well as the rest of the federal gov-
      ernment, cannot accurately identify all intra-governmental transactions by customer. The Defense Finance and Accounting
      Service (DFAS) is responsible for eliminating transactions between the components or activities of the AFWCF. For FY 1999
      and beyond, seller entities within the Department provided summary seller-side balances for revenue, accounts receivable,
      and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side records have been
      adjusted to recognize unrecorded costs and accounts payable. Intra-DoD intra-governmental balances were then eliminated.




126
The Department of the Treasury Financial Management Service (FMS) is responsible for eliminating transactions between the
Department and other federal agencies. In September 2000, the FMS issued the “Federal Intra-governmental Transactions
Accounting Policies and Procedures Guide.” The DoD was not able to fully implement the policies and procedures in this
guide related to reconciling intra-governmental assets, liabilities, revenues, and expenses for nonfiduciary transactions. The
Air Force was able to implement the policies and procedures contained in the “Intra-governmental Fiduciary Transactions
Accounting Guide,” as updated by the “Federal Intra-governmental Transactions Accounting Policies and Procedures Guide,”
for reconciling intra-governmental transactions pertaining to investments in federal securities, borrowings from the United
States (U.S.) Treasury and the Federal Financing Bank, Federal Employees’ Compensation Act transactions with the
Department of Labor (DoL), and benefit program transactions with the OPM.

1.H. Transactions with Foreign Governments and International Organizations
Each year, the DoD Components sell defense articles and services to foreign governments and international organizations,
primarily under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, the AFWCF has
authority to sell defense articles and services to foreign countries and international organizations, generally at no profit or
loss to the U.S. Government. Customers may be required to make payments in advance.

1.I. Funds with the U.S. Treasury
The AFWCF’s financial resources are maintained in U.S. Treasury accounts. The majority of cash collections, disbursements,
and adjustments are processed worldwide at the Defense Finance and Accounting Service (DFAS), Military Services and U.S.
Army Corps of Engineers (USACE) disbursing stations, as well as the Department of State financial service centers. Each dis-
bursing station prepares monthly reports that provide information to the U.S. Treasury on check issues, electronic funds
transfers, interagency transfers, and deposits.

In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by appropria-
tion, on interagency transfers, collections received, and disbursements issued. The Department of the Treasury then records
this information to the applicable Fund Balance with Treasury (FBWT) account maintained in the Treasury’s system.
Differences between the AFWCF’s recorded balance in the FBWT account and Treasury’s FBWT sometimes result and are
subsequently reconciled.

Fund Balances with Treasury are maintained at the AFWCF corporate business area today. In 1992, when the Defense
Business Operating Fund was established, the FBWT was moved from the Air Force level to the DoD level. In 1996, the
DWCF was established and the FBWT was moved back to the Air Force level. However, allocations of FBWT were at a
lower level than the level transferred out. The cash balance had been maintained at 10 days worth of cash, but what was
allocated back was 3 days worth of cash. The days are based on the average of cash needed to pay vendors. The fund has
been “under funded” since that time.

Material disclosures are provided at Note 3. Differences are caused by in-transit disbursements and unmatched disburse-
ments, which are not recorded in the accounting offices’ detail-level records.

1.J. Foreign Currency
Not applicable.

1.K. Accounts Receivable
As presented on the Balance Sheet, accounts receivable includes accounts receivables, claims receivables, and refunds receiv-
able from other Federal entities or from nonfederal entities. Allowances for loss on accounts receivable due from nonfederal
entities are based upon analysis of collection experience by fund type. The AFWCF does not recognize an allowance for loss




                                                                                                                                  127
                  United States Air Force • 2004 Annual Financial Statement



      on accounts receivable amounts from another Federal agency. Claims against another federal agency are to be resolved
      between the agencies. If the claim cannot be resolved by the agencies involved, it should be referred to the General
      Accounting Office. Only Supply Management allows for allowance for loss accounts receivable based upon analysis of histori-
      cal data from prior year accounts receivable balances, write-offs, and collection policy.

      Material disclosures are provided at Note 5.

      1.L. Loans Receivable. As Applicable
      Not applicable.

      1.M. Inventories and Related Property
      Inventory for the AFWCF is all held in the Supply Management Activity Group (SMAG) except for work-in-process inventory
      which is in the Depot Management Activity Group. Prior to fiscal year 2004 the majority of the SMAG inventory was report-
      ed at approximate historical cost based on Latest Acquisition Cost (LAC), adjusted for holding gains and losses. In fiscal year
      2004 approximately 50% of the Supply Management Activity Group inventory changed from the LAC method and began
      using a Moving Average Cost (MAC) method of valuation. This allowed SMAG to comply with the SFFAS No. 3,
      “Accounting for Inventory and Related Property” for that percentage of the inventory. The remaining 50% of the SMAG
      inventory is managed in the Standard Base Supply System using the LAC method for valuation and will be changed to MAC
      valuation beginning in fiscal year 2005. The conversion to MAC included programming changes for the SMAG accounting
      system to convert from the Air Force General Ledger (AFGL) to the United States Standard General Ledger (USSGL) for
      supply accounting.

      Under the LAC method of inventory valuation gains and losses resulting from valuation changes for inventory items were
      recognized and reported in the Statement of Net Cost and included in the calculation of Cost of Goods Sold. To calculate
      the allowances for gain or loss on inventories, DFAS Denver prepared an inventory worksheet monthly for each fund code
      within the SMAG. SFFAS No. 3, “Accounting for Inventory and Related Property,” directs that using a historical cost valua-
      tion method does not require an allowance for holding gains and losses account. Additionally, SFFAS No. 3 provides for
      either the direct or allowance method to be used in valuing inventory held for repair. Therefore the change to a historical
      costing method also included the elimination of the allowance for holding gains and losses, revaluation of all inventories to a
      historical basis and the creation of an allowance for repairs. The implementation of Moving Average Cost for 50% of SMAG
      inventories in fiscal year 2004 eliminated the need for the gains and losses allowance account for that portion of the invento-
      ry and has been credited against a prior period. Inventory held for repair is now valued at MAC with an allowance for repair
      equal to the latest repair cost.

      Related property includes operating materials and supplies (OM&S) and stockpile materials. The OM&S including munitions
      not held for sale are valued at standard purchase price. The department uses the consumption method of accounting for
      OM&S for the most part, expensing material when it is issued to the end user. Where current systems cannot fully support
      the consumption method, the AFWCF uses the purchase method, expensed when purchased.

      Material disclosures related to inventory and related property are provided at Note 9.

      1.N. Investments in U.S. Treasury Securities
      Not applicable.

      1.O. General Property, Plant, and Equipment
      General property, plant, and equipment (PP&E) assets are capitalized at historical acquisition cost plus capitalized improve-
      ments, when an asset has a useful life of two or more years, and when the acquisition cost equals or exceeds the DoD capi-



128
talization threshold of $100,000. Also, improvement costs over the DoD capitalization threshold of $100,000 for General
PP&E are required to be capitalized. All General PP&E, other than land, is depreciated using the straight-line method. Land
is not depreciated.

Prior to FY 1996, General PP&E with an acquisition cost of $15,000, $25,000, and $50,000 for FYs 1993, 1994, and 1995
respectively, and an estimated useful life of 2 or more years was capitalized. These assets remain capitalized and are report-
ed on WCF financial statements. General PP&E previously capitalized at amounts below $100,000 were written off General
Fund financial statements in FY 1998.

When it is in the best interest of the government, the Air Force provides government property necessary to complete con-
tract work to contractors. Such property is either owned or leased by the Air Force, or purchased directly by the contrac-
tor for the government based on contract terms. When the value of contractor procured General PP&E exceeds the DoD
capitalization threshold, the items should be included in the value of General PP&E reported on the Air Force’s Balance
Sheet. The AFWCF recently completed a study that indicates that the value of General PP&E that meets the capitalization
requirement and is in the possession of contractors is not material to the Department’s financial statements. Regardless, the
AFWCF is developing new policies and a contractor reporting process that will provide appropriate General PP&E informa-
tion for future financial statement reporting purposes. Accordingly, the Air Force currently reports only the government
property in the possession of contractors that is maintained in the Air Force’s property systems.

For entities operating as business type activities (WCFs), all PP&E used in the performance of their mission is categorized as
General PP&E, whether or not it meets the definition of any other PP&E categories. National Defense PP&E, Heritage
Assets and Stewardship Land owned or maintained on a WCF installation are reported in the Supplemental Stewardship
Report of the applicable military department.

Material disclosures are provided at Note 10.

1.P. Advances and Prepayments
Payments in advance of the receipt of goods and services are recorded as advances or prepayments and reported as an asset
on the Balance Sheet. Advances and prepayments are recognized as expenditures and expenses when the related goods and
services are received.

1.Q. Leases
Not applicable.

1.R. Other Assets
The AFWCF conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that these long-term contracts can cause, the
AFWCF provides financing payments. One type of financing payment that the AFWCF makes is for real property, and is
based upon a percentage of completion. In accordance with SFFAS No 1, “Accounting for Selected Assets and Liabilities,”
such payments are treated as construction in process and are reported on the General PP&E line and in Note 10, General
PP&E, Net. In addition, based on the provision of the Federal Acquisition Regulations, the AFWCF makes financing pay-
ments under fixed price contracts that are not based on a percentage of completion. The AFWCF reports these financing
payments as advances or prepayments in the “Other Assets” line item. The AFWCF treats these payments as advances or
prepayments because the AFWCF becomes liable only after the contractor delivers the goods in conformance with the con-
tract terms. If the contractor does not deliver a satisfactory product, the AFWCF is not obligated to reimburse the contrac-
tor for its costs, and the contractor is liable to repay the AFWCF for the full amount of the advance. The AFWCF has com-
pleted a review of all applicable federal accounting standards, applicable public laws on contract financing, Federal Acquisition



                                                                                                                                    129
                   United States Air Force • 2004 Annual Financial Statement



      Regulation Parts 32, 49, and 52 and the OMB guidance in Code 5 of Federal Regulations Part 1315, “Prompt Payment.” The
      AFWCF has concluded that SFFAS No. 1 does not fully or adequately address the subject of progress payment accounting
      and is considering what further action is appropriate.

      1.S. Contingencies and Other Liabilities
      The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a contingency as an existing condition, sit-
      uation, or set of circumstances that involves an uncertainty as to possible gain or loss to the AFWCF. The uncertainty will be
      resolved when one or more future events occur or fail to occur. A contingency is recognized as a liability when a past event
      or exchange transaction has occurred, a future loss is probable, and the amount of loss can be reasonably estimated.
      Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist, but there is at
      least a reasonable possibility that a loss or an additional loss will be incurred. Examples of loss contingencies include the col-
      lectability of receivables, pending or threatened litigation, possible claims and assessments. The AFWCF’s loss contingencies
      arising are events such as aircraft, ship and vehicle accidents, medical malpractice, property or environmental damages, and
      contractual disputes.

      1.T. Accrued Leave
      Civilian annual leave and military leave that have been accrued and not used as of the balance sheet date are reported as lia-
      bilities. The liability reported at the end of the fiscal year reflects the current pay rates.

      1.U. Net Position
      Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended appropriations rep-
      resent amounts of authority, which are unobligated and have not been rescinded or withdrawn, and amounts obligated but
      for which legal liabilities for payments have not been incurred.

      Cumulative results of operations for the AFWCF represent the excess of revenues over expenses, less refunds to customers,
      and returns to the U.S. Treasury since fund inception.

      1.V. Treaties for Use of Foreign Bases
      The DoD Components have the use of land, buildings and other facilities that are located overseas and have been obtained
      through various international treaties and agreements negotiated by the Department of State. The DoD capital assets locat-
      ed overseas are purchased with appropriated funds, however the host country retains the title to the land and any improve-
      ments. Generally, treaty terms allow the DoD Components continued use of these properties until the treaties expire.
      These fixed assets are subject to loss in the event treaties are not renewed or the AFWCF does not reach agreements that
      allow for the continued use. Therefore, in the event treaties or other agreements are terminated and the use of foreign
      bases is not allowed the losses will be recorded for the value of any nonretrievable capital assets. Negotiations between the
      United States and the host country determine the amount to be paid the United States for such capital investments.

      1.W. Comparative Data
      Not applicable.

      1.X. Unexpended Obligations
      The AFWCF records obligations for goods and services that have been ordered but not yet received. No liability for pay-
      ment has been established in the financial statements because goods/services have yet to be delivered.




130
1.Y. Problem Disbursements
Problem disbursements represent disbursements of Air Force Working Capital funds reported by a disbursing station to the
Department of Treasury that have not yet been precisely matched against the specific source obligation. The problem dis-
bursements arise when the various contracting, disbursing, and accounting systems fail to match the data necessary to prop-
erly account for the transaction in all the applicable accounting systems.

 As of August 31, 2004                                                                                                       Decrease/Increase from
                                                            Sept 2002                Sept 2003             Sept 2004
                                                                                                                                 FY03 to FY04
 (Amounts in dollars and cents)

 1. Total Problem Disbursements, Absolute Value
    Unmatched Disbursements (UMDs)                             2,548,304.11             2,813,110.98          4,712,851.72              1,899,740.74
    Negative Unliquidated Obligations (NULOs)                 11,615,822.46             6,497,624.92          4,255,145.38             -2,242,479.54
 2. Total In-transit Disbursements, Net               $      537,627,452.62     $     464,048,716.87   $    415,521,508.49    $       -48,527,208.38



The Air Force Working Capital fund had a $342.7 thousand decrease in problem disbursements and $48,527.2 thousand
decrease in in-transit disbursements. Defense Finance and Accounting Service has efforts underway to improve the systems
and to resolve all previous problem disbursements and to process all in-transit disbursements. The amount over 180 days
old for UMD is $175.9 thousand, for NULO is $0.00, and for in-transit is $1,752.1 thousand. The amount over 120 days old
for UMD is $103.14, for NULO is $0.00, and for in-transit is $8,641.4 thousand. The current absolute value of in-transit dis-
bursements is $502,975.7 thousand.

Note 2. Non-entity Assets
 As of September 30                                   2004                    2003
 (Amounts in thousands)

 1. Intra-governmental Assets
    A. Fund Balance with Treasury                 $               0     $                0
    B. Investments                                                0                      0
    C. Accounts Receivable                                        0                      0
    D. Other Assets                                               0                      0
    E. Total Intra-governmental Assets            $               0     $                0

 2. Non-Federal Assets
    A. Cash and Other Monetary Assets             $               0     $                0
    B. Accounts Receivable                                        0                      0
    C. Loans Receivable                                           0                      0
    D. Inventory & Related Property                               0                      0
    E. General PP&E                                               0                      0
    F. Investments                                                0                      0
    G. Other Assets                                               0                      0
    H. Total Non-Federal Assets                   $               0     $                0

 3. Total Non-Entity Assets                       $               0     $                0

 4. Total Entity Assets                           $       24,742,804    $      25,740,673

 5. Total Assets                                  $       24,742,804    $      25,740,673



Asset accounts are categorized as either entity or non-entity. Entity accounts consist of resources that are available for use
in the operations of the entity. The Air Force is authorized to decide how to use resources in entity accounts. The Air
Force may be legally obligated to use these resources to meet entity obligations. Non-entity accounts, on the other hand,
consist of assets that are held by an entity but are not available for use in the operations of the entity.

The Air Force Working Capital Fund does not have any non-entity assets.


                                                                                                                                                       131
                  United States Air Force • 2004 Annual Financial Statement




      Note 3.A. Fund Balance with Treasury
       As of September 30                                   2004                 2003
       (Amounts in thousands)

       1. Fund Balances
           A. Appropriated Funds                      $               0    $               0
           B. Revolving Funds                                 1,051,110              732,842
           C. Trust Funds                                             0                    0
           D. Other Fund Types                                        0                    0
           E. Total Fund Balances                     $       1,051,110    $         732,842

       2. Fund Balances Per Treasury Versus
           A. Fund Balance per Treasury               $       1,703,858    $       2,475,046
           B. Fund Balance per AFWCF                          1,051,110              732,842
       3. Reconciling Amount                          $         652,748    $       1,742,204



      The reconciling amount on line 3 above represents $652,746.5 thousand for the United States Transportation Command
      (USTC), which is reported at the Department of the Treasury as part of the Air Force Working Capital Fund (AFWCF).
      However, for the purposes of Audited Financial Statements (AFS), USTC is included with the Other Defense Organizations
      (ODO) reporting, which is separate from the AFWCF. Therefore, USTC cash is not included on the AFWCF
      AFS statements.

      Fluctuations and Abnormalities
      Fund Balance with Treasury increased $318,268.2 thousand in FY 2004. The increase can be attributed to three primary
      factors. First, the Supply Management Activity Group (SMAG) and the Depot Maintenance Activity Group (DMAG) both had
      increases in fund balances from the prior year, which is attributed to favorable financial performance. Net operating results
      for the two business areas, before elimination and AFS required adjustments, totaled $619,075.5 thousand, which represents
      a source of cash. Secondly, a $343,635.1 thousand increase to the fund balance is attributed to favorable balance sheet per-
      formance. This increase was the result of the collection of an additional $94,327.7 thousand in accounts receivable over the
      prior year, coupled with an increase in accounts payable in the amount of $249,307.4 thousand. These increases are dis-
      cussed in Note 5 and Note 12, respectively. Overall, the increase to cash was $962,710.6 thousand, which was offset by a
      mandated cash pull totaling $578,400.0 thousand, accounting for an overall increase of $384,310.6 thousand. The remaining
      decrease of $66,042.4 thousand can be attributed to normal business fluctuations in other areas of the Working Capital Fund.

      Note Reference
      See Note Disclosure 1.I, Significant Accounting Policies, for additional discussion on financial reporting requirements and
      Department of Defense policies governing funds with the U.S. Treasury.

      Note 3.B. Disclosures Related to Suspense/Budget Clearing Accounts
      Not applicable.




132
Note 4. Investments
Not applicable.

Note 5. Accounts Receivable
 As of September 30                                                         2004                               2003
                                                                       Allowance
                                                                                                           Accounts
                                                         Gross             For            Accounts
                                                                                                          Receivable,
                                                       Amount Due      Estimated        Receivable, Net
                                                                                                             Net
                                                                      Uncollectibles
 (Amounts in thousands)

 1. Intra-governmental Receivables:                     $   576,396               N/A     $     576,396    $     605,077

 2. Non-Federal Receivables (From the Public):          $   103,189    $          -78     $     103,111    $     167,764

 3. Total Accounts Receivable:                          $   679,585    $          -78     $     679,507    $     772,841



Other information
Fluctuations
Non-federal receivables decreased $64,653.4 thousand. The amount consists of a decrease in the Supply Management
Activity Group (SMAG) which is offset by an increase in the Depot Maintenance Activity Group (DMAG). SMAG had a
decrease of $78,283.4 thousand, which is attributed to two factors. At the end of FY 2003, accounts receivable deliveries
suspense were reclassified from other assets to non-federal receivables. Deliveries suspense are receivables from sales
transactions to foreign governments. While the original transaction is recorded at the standard rates, foreign policy often
dictates the actual amount to be collected from the foreign government. Once the amount is determined, the billing is
processed. In FY 2004 it was determined that the amount should be reported in other assets until the billing occurs and the
receivable is established. The reclassification resulted in a decrease of $117,903.1 thousand. The decrease is offset by an
increase of $19,810.1 thousand, which is the result of reclassification of unsupported undistributed collections to U. S.
Standard General Ledger (USSGL) account 2400. In FY 2003, the unsupported undistributed collections were netted with
the unsupported undistributed disbursements; therefore there was no impact on receivables. The remaining increase in
SMAG can be attributed to a $18,023.1 thousand reclassification of receivables from intra-governmental to non-federal for
foreign military sales receivables that were previously recorded incorrectly. The DMAG increase of $12,997.8 thousand is
primarily attributed to an uncollected demand letter to Boeing for an overpayment of approximately $8,456.4 thousand on a
KC-135 contract. The letter is currently under dispute by Boeing. The remaining fluctuations are a result of normal business
operations.

Information Related to Accounts Receivables
Allowance Method
The SMAG uses an allowance method based on historical data for non-federal receivables. The Depot Maintenance and the
Information Services Activity Groups generally use the direct write-off method for uncollectible accounts.

Allocation of Undistributed Collections
The Department of Defense (DoD) policy is to allocate supported undistributed collections between federal and non-federal
categories based on the percentage of federal and non-federal accounts receivable. Unsupported undistributed collections




                                                                                                                               133
                  United States Air Force • 2004 Annual Financial Statement



      are recorded in USSGL account 2400, Liability For Deposit Funds, Clearing Accounts, and Undeposited Collections. The Air
      Force Working Capital Fund (AFWCF) followed this allocation procedure, applying $(2,980.0) thousand in undistributed col-
      lections to accounts receivable and recording $18,913.2 thousand of unsupported undistributed to USSGL account 2400.

      Elimination Adjustments
      Accounts receivable within the AFWCF have been eliminated for statement presentation purposes. The total value of the
      receivables that were eliminated on these financial statements is $341,080.9 thousand.

      The Air Force accounting systems do not capture trading partner data at the transaction level in a manner that facilitates
      trading partner aggregations. Therefore, the Air Force was unable to reconcile intra-governmental accounts receivable bal-
      ances with its trading partners. Through the ongoing Business Management Modernization Program, the Department
      intends to develop long-term systems improvements that will capture the data necessary to perform reconciliations.

      Receivables over 180 Days
      The Air Force has $13,643.1 thousand intragovernment receivables and $18,488.3 thousand non-federal receivables over
      180 days. Processes have been implemented to closely monitor the delinquent receivables and to refer them to the appro-
      priate entity for resolution.

      Note Reference
      See Note Disclosure 1.K., Significant Accounting Policies, for additional discussion on financial reporting requirements and
      DoD policies governing accounts receivable.

      Note 6. Other Assets
       As of September 30                                                    2004                 2003
       (Amounts in thousands)

       1. Intra-governmental Other Assets:
           A. Advances and Prepayments                                  $              10    $               3
           B. Other Assets                                                              0                    0
           C. Total Intra-governmental Other Assets                     $              10    $               3


       2. Non-Federal Other Assets:
           A. Outstanding Contract Financing Payments                   $               0    $               0
           B. Other Assets (With the Public)                                      788,966             380,362
           C. Total Non-Federal Other Assets                            $         788,966    $        380,362

       3. Total Other Assets:                                           $         788,976    $        380,365


      Other Information Related to Other Assets:
      Fluctuations and Abnormalities
      Intra-governmental other assets (Line 1)

      The $7.3 thousand increase to intra-governmental other assets is caused by an increase in unearned revenue reported by
      seller side data. The unearned revenue is reported as advances in the Supply Management Activity Group (SMAG).



134
Non-federal other assets (Line 2)

The $408,604.7 thousand increase in non-federal other assets consists of a $27,389.9 thousand decrease in the Depot
Maintenance Activity Group (DMAG) and a $435,994.6 thousand increase in SMAG.

For DMAG, the decrease in advances is largely due to the phaseout of Contract DMAG. The increase in other assets is due
to the unallocated labor and material expenditures account. This account is used to record expenditures that can not be
identified to a specific job order number. The Air Logisitics Centers have been notified of the increase and will continue to
research the issue. The remaining increases or decreases for DMAG’s advances and other assets are a result of normal operations.

For SMAG, the $246,139.0 thousand increase in advances was largely due to paid intransits from vendors that were reported
in FY 2003 as inventory. In FY 2004 this was corrected to be reported as non-federal advances. For FY 2003 the ending
balance of paid intransits was $278,486.9 thousand. The $189,855.9 thousand increase in other assets is due to two events.
The first is due to other assets accounts receivable deliveries suspense that were reported in FY 2003 as accounts receiv-
ables for 4th Quarter only. During 1st Quarter, FY 2004 this error was corrected and the transactions are properly record-
ed as other assets. For FY 2003 the ending balance of the account was $117,903.1 thousand. The second event is an
increase of $71,780.0 thousand in returns to vendors pending credit. The Materiel Support Division is continuing its
research the reason for the increase. The remaining increases or decreases for SMAG’s advances and other assets are a
result of normal operations.
Non-Federal Other Assets (in Thousands)

Types of Asset                                                       2004                           2003

SMAG – Advances and Prepayments to Contractors                     $374,443                       $128,304

DMAG – Advances and Prepayments to Contractors                         7,044                        38,899

SMAG – Other Assets                                                 401,543                        211,688

DMAG – Other Assets                                                    5,936                         1,471

Total Non-Federal Other Assets                                     $788,966                      $380,362

Note Reference
See Note Disclosure 1.R., Significant Accounting Policies, for additional discussion on financial reporting requirements and
DoD policies governing other assets.

Note 7. Cash and Other Monetary Assets

 As of September 30                                                                2004            2003
 (Amounts in thousands)

 1. Cash                                                                       $           0 $             0
 2. Foreign Currency (non-purchased)                                                       0               0
 3. Other Monetary Assets                                                                  0               0
 4. Total Cash, Foreign Currency, and Other Monetary Assets                    $           0 $             0




                                                                                                                                   135
                   United States Air Force • 2004 Annual Financial Statement




      Other Information Pertaining to Entity Cash and Other Monetary Assets
      Definitions
      Cash—The total of cash resources under the control of the Working Capital Fund, including coin, paper currency, purchased
      foreign currency, negotiable instruments, and amounts on deposit in banks and other financial institutions. Cash available for
      agency use should include petty cash funds and cash held in revolving funds that will not be transferred into the U.S.
      Government General Fund.

      Foreign Currency—The total U.S. dollar equivalent of non-purchased foreign currencies held in foreign currency fund
      accounts. Non-purchased foreign currency is limited to the Treasury Index 97X7000 fund account (formerly called FT
      accounts).

      Other Monetary Assets—included gold, special drawing rights, and U.S. Reserve in the International Monetary Fund.
      This category is principally for use by the Department of Treasury.

      Note Reference
      See Note Disclosure 1.J., Significant Accounting Policies, for additional discussion on financial reporting requirements and
      Department of Defense (DoD) policies governing foreign currency.

      For regulatory discussion on other assets, see the DoD Financial Management Regulation, Volume 6B, Chapter 10,
      paragraph 1009.

      Note 8. Direct Loan and/or Loan Guarantee Programs
      Not applicable.

      Note 9. Inventory and Related Property
       As of September 30                                                      2004                       2003
       (Amounts in thousands)

       1. Inventory, Net (Note 9.A.)                                     $          20,492,890     $           21,869,635
       2. Operating Materials and Supplies, Net (Note 9.B.)                            532,638                    655,361
       3. Stockpile Materials, Net (Note 9.C.)                                               0                          0
       4. Total                                                          $          21,025,528     $           22,524,996




136
Note 9.A. Inventory, Net
 As of September 30                                                             2004                           2003
                                                             Inventory,     Revaluation      Inventory,      Inventory,   Valuation
                                                            Gross Value      Allowance          Net             Net        Method
 (Amounts in thousands)

 1. Inventory Categories:
    A. Available and Purchased for Resale               $    22,004,327 $    -11,311,957 $    10,692,370 $   15,118,285 LAC/O/MAC
    B. Held for Repair                                       13,419,021       -4,088,513       9,330,508      6,057,706 LAC/O/MAC
    C. Excess, Obsolete, and Unserviceable                      753,522         -753,522               0              0
    D. Raw Materials                                                  0                0               0              0
    E. Work in Process                                          470,012                0         470,012        693,644    AC
    F. Total                                            $    36,646,882 $    -16,153,992 $    20,492,890 $   21,869,635

 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for                       NRV = Net Realizable Value
   holding gains and losses                                                 O = Other
 SP = Standard Price
 AC = Actual Cost


Restrictions of Inventory Use, Sale, or Disposition
There are no restrictions on the use, sale, or disposition of inventory except in the following situations:

(1) Distributions without reimbursement are made when authorized by Department of Defense (DoD) directives.

(2) War Reserve Material includes fuels and subsistence items that are considered restricted.

(3) Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments, private parties, and
    contractors in accordance with current policies and guidance or at the direction of the President.

Other Information
Definitions
Inventory available and purchased for resale includes consumable spare and repair parts as well as repairable items owned
and managed by the Department. Material available and purchased for resale includes material held due to a managerial
determination that it should be retained to support military or national contingencies.

Inventory held for repair is damaged inventory that requires repair to make it suitable for sale. Many of the inventory items
are more economical to repair than to procure. In addition, because the Department often relies on weapon systems and
machinery no longer in production, the Department supports a process that encourages the repair and rebuilding of certain
items. This repair cycle is essential to maintaining a ready, mobile, and armed military force.

Excess, obsolete, and unserviceable inventory consists of scrap materials or items that cannot be economically repaired and
are awaiting disposal. Potentially reusable material, presented in previous years as excess, obsolete, and unserviceable, is
included in the held for use or held for repair categories, according to its condition.

Work in process balances include costs related to the production or servicing of items, including direct material, direct labor,
applied overhead, and other direct costs. Work in process also includes the value of finished products or completed services
pending the submission of bills to the customer. The work in process designation may also be used to accumulate the
amount paid to a contractor under cost-reimbursable contracts, including the amount withheld from payment to ensure perform-
ance and the amount paid to other government plants for accrued costs of end-items of material ordered but not delivered.




                                                                                                                                      137
                   United States Air Force • 2004 Annual Financial Statement




      Fluctuations
      Inventory decreased $1,376,744.7 thousand due to the following factors.

      Gross inventory values for the Supply Management Activity Group (SMAG) had an increase of $845,962.5 thousand after FY
      2003 was restated. Two events caused the increase for SMAG. First was an increase of $1,124,449.4 thousand (5.5% of
      total net inventory) that is a result of normal operations. The second event was a change in the accounting for intransit
      inventory and caused a decrease of $278,486.9 thousand to inventory available and purchased for resale. In FY 2003 paid
      intransit from vendors were recorded in the inventory available and purchased for resale account. In FY 2004 this was cor-
      rected and is now recorded in the advance account in the other assets line. See Note 6 for further details. Each category
      related to SMAG did have fluctuations however, these were related to the movement of inventory from the category of
      available and purchased for resale to the category of held for repair and the recent population of the excess, obsolete and
      unserviceable inventory category. Work in process (WIP) had a decrease of $223,632.5 thousand. The continuing phase out
      of Contract Depot Maintenance Activity Group (DMAG) operations resulted in a decrease of WIP of $178,621.2 thousand.
      DMAG had a decrease of $45,011.3 thousand. This is attributed to the clean-up of problematic invoices that resulted from
      the DMAPS/DIFMS implementation. Once the bills were able to be processed, the associated WIP was relieved.

      The revaluation allowance values increased $1,999,074.7 thousand, which leads to the decrease in total inventory. In FY
      2004 SMAG changed its inventory valuation method for the portions of its General and Materiel Support Divisions that are
      reported by FIABS. The new inventory method is Moving Average Cost. The change impacted total inventory by an
      increase in the amount of $11,370,455.9 thousand. This adjustment was processed as a prior period adjustment, and the FY
      2003 total inventory has been restated by this amount. The original FY 2003 inventory amount was $10,499,179.0 thousand.

      General Composition of Inventory
      Inventory includes spare and repair parts, clothing and textiles, fuels, and ammunition. Inventory is tangible personal proper-
      ty that is (1) held for sale or held for repair for eventual sale, (2) in the process of production for sale, or (3) to be consumed
      in the production of goods for sale or in the provision of services for a fee.

      The category inventory held for repair consists of damaged material that requires repair to make it usable. Excess inventory
      is condemned material that must be retained for management purposes. The category held for sale includes all issuable
      material. The category held for repair includes all economically reparable material. Work in process includes depot mainte-
      nance work with its associated labor, applied overhead, and supplies used in the delivery of maintenance services. The U.S.
      Standard General Ledger does not include a separate work in process account unrelated to sales. Inventory is assigned to
      categories based on guidance in the DoD Financial Management Regulation, Volume 11B.

      Note Reference
      See Note Disclosure 1.M., Significant Accounting Policies, for additional discussion on financial reporting requirements and
      DoD policies governing inventory and related property.




138
Note 9.B. Operating Materials and Supplies (OM&S), Net
 As of September 30                                                 2004                             2003
                                                  OM&S           Revaluation         OM&S,           OM&S,       Valuation
                                             Gross Value         Allowance            Net             Net         Method
 (Amounts in thousands)

 1. OM&S Categories:
    A. Held for Use                          $       532,638 $                 0 $    532,638    $     655,361
    B. Held for Repair                                       0                 0             0               0
    C. Excess, Obsolete, and Unserviceable                 0                   0            0                0
    D. Total                                 $       532,638 $                 0 $    532,638    $     655,361


 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost          NRV = Net Realizable Value
   adjusted for holding gains and losses         O = Other
 SP = Standard Price
 AC = Actual Cost


Other Information
Fluctuations
The OM&S category held for use (Line 1A) decreased $122,723.3 thousand for the following reasons. A decrease of
$85,624.9 thousand is a result of the phase out of Contract DMAG operations. A decrease of $26,505.6 thousand can be
attributed to the write off of obsolete floating stock, coupled with the clean up of the unmatched OM&S accounts for
Organic DMAG. The remaining fluctuations are a result of normal operations.

General Composition of Operating Materials and Supplies
OM&S include spare and repair parts. The OM&S data reported on the financial statements are derived from logistics sys-
tems designed for material management purposes, i.e. accountability and visibility. The reported balances from these sys-
tems are not recorded at historical cost, in conformance with the valuation requirements in the Statement of Federal
Financial Accounting Standard (SFFAS) No. 3, “Accounting for Inventory and Related Property.” Instead, the Air Force uses
standard price to value OM&S without computing unrealized holding gains or losses. Furthermore, past audit results have
led to uncertainties pertaining to the completeness and existence of the OM&S quantities used to derive the balances report-
ed in the financial statements.

For the most part, DMAG uses the consumption method of accounting for OM&S, since OM&S is defined in the SFFAS No.
3 as material which has not yet been issued to the end user. Once issued, the material is expensed. As stated above, cur-
rent financial and logistics systems cannot fully support the consumption method. According to federal accounting standards,
the consumption method of accounting should be used to account for OM&S unless (1) the amount of OM&S is not signifi-
cant, (2) OM&S are in the hands of the end user for use in normal operations, or (3) it is cost-beneficial to expense OM&S
when purchased (purchase method). The DoD, in consultation with its auditors, is (1) developing specific criteria for deter-
mining when OM&S amounts are not significant for the purpose of using the consumption method, (2) developing functional
requirements for feeder systems to support the consumption method, (3) identifying feeder systems that are used to manage
OM&S items, and (4) developing plans to revise those systems to support the consumption method. For FY 2004, the
department reported significant amounts using the purchase method either because the systems could not support the con-
sumption method or because management deems that the item is in the hands of the end user.




                                                                                                                               139
                      United States Air Force • 2004 Annual Financial Statement




      Note Reference
      See Note Disclosure 1.M., Significant Accounting Policies, for additional discussion on financial reporting requirements and
      DoD policies governing Inventory and related property.

      Note 9.C. Stockpile Materials, Net
      Not applicable

      Note 10. General Property, Plant, and Equipment (PP&E), Net
       As of September 30                                                               2004                                             2003
                                                       Depreciation/                                 (Accumulated
                                                                        Service       Acquisition                      Net Book        Prior FY Net
                                                       Amortization                                  Depreciation/
                                                                         Life           Value                           Value          Book Value
                                                         Method                                      Amortization)
       (Amounts in thousands)


       1. Major Asset Classes:
           A. Land                                          N/A            N/A    $            0               N/A $          0 $                0
           B. Buildings, Structures, and Facilities         S/L         20 or 40         809,196 $        -559,967      249,229            235,804
           C. Leasehold Improvements                        S/L        lease term              0                 0             0                  0
           D. Software                                      S/L         2-5 or 10        978,030          -608,565       369,465            809,852
           E. General Equipment                             S/L          5 or 10       2,044,958        -1,493,532       551,426            227,317
           F. Military Equipment                            S/L          various               0                 0             0                  0
           G. Assets Under Capital Lease [1]                S/L        lease term              0                 0             0                  0
           H. Construction-in-Progress                      N/A            N/A            27,563               N/A        27,563             27,884
           I. Other                                                                            0                 0             0             28,772
           J. Total General PP&E                                                  $    3,859,747 $      -2,662,064 $   1,197,683   $      1,329,629

       [1]
         Note 15.B for additional information on Capital Leases
       Legend for Valuation Methods:
       S/L = Straight Line     N/A = Not Applicable



      Other Information
      Fluctuations and Abnormalities
      The decrease of $28,772.2 thousand in other property, plant and equipment is caused by an incorrect general ledger account
      used during FY 2003. In FY 2004 the correct general ledger account of general equipment was used. Acquisition values for
      software and general equipment only increased 3 percent, however depreciation values caused fluctuations for the net book
      value. The fluctuation in depreciation is caused by a change made in General Accounting and Finance System – Rehost
      (GAFS-R). In FY 2003, $377,348.7 thousand was erroneously reported as general equipment accumulated depreciation. In
      FY2004 it was correctly reported as software accumulated depreciation. Since software can depreciate faster than general
      equipment, the amount of overall depreciation has therefore increased. Additional increases or decreases represent normal
      operations and do not exceed the 10 percent threshold.

      Information Related to General PP&E, Net
      Real property reported by the Automated Civil Engineering System (ACES) and personal property reported by the Air Force
      Equipment Management System (AFEMS) and the Information Processing Management System (IPMS) has not been validated
      and reconciled to reported figures received by Defense Finance and Accounting Service (DFAS) from the field activities.
      However, the Depot Maintenance ALCs and Aerospace Maintenance and Regeneration Center (AMARC) use the ACES to
      capture the costs of real property based on preponderance of use for each building. They use the straight-line method for




140
recording depreciation maintained on spreadsheets in place of the ACES schedule. The accounting entries are recorded
directly into the field-level trial balances.

Any Working Capital Fund Special Tools and Special Test equipment in the possession and control of the Air Force are
reported in the Air Force General Fund financial statements.

The value of Air Force General PP&E real property in the possession of contractors is included in the value reported above
for the Major Asset Classes of Land and Buildings, Structures, and Facilities. The value of General PP&E personal property
(Major Asset Classes of Software and Equipment) does not include all of the General PP&E in the possession of contractors
that is above the Department of Defense (DoD) capitalization threshold. The net book amount of such property is immate-
rial in relation to the total General PP&E net book value. In accordance with a strategy approved by the Office of
Management and Budget, the General Accounting Office, and the Inspector General, DoD, the Department is developing
new policies and a contractor-reporting process to capture General PP&E information for future reporting purposes in com-
pliance with generally accepted accounting practices.

Past audit results have identified uncertainties as to whether all General PP&E assets in the possession or control (existence)
of the Department are properly and accurately recorded in the system (completeness).

Note Reference
See Note Disclosure 1.N., Significant Accounting Policies, for additional discussion on financial reporting requirements and
DoD policies governing General PP&E.

Note 10.A. Assets Under Capital Lease
Not applicable.

Note 11. Liabilities Not Covered by Budgetary Resources
 As of September 30                                               2004              2003
 (Amounts in thousands)

 1. Intra-governmental Liabilities
     A. Accounts Payable                                     $             0    $           0
     B. Debt                                                               0                0
     C. Environmental Liabilities                                          0                0
     D. Other                                                              0                0
    E. Total Intra-governmental Liabilities                  $             0    $           0

 2. Non-Federal Liabilities
     A. Accounts Payable                                     $             0    $           0
     B. Military Retirement Benefits and Other
        Employment-Related Actuarial Liabilities                     238,729           275,132
     C. Environmental Liabilities                                          0                 0
     D. Loan Guarantee Liability                                           0                 0
     E. Debt Held by Public                                                0                 0
     F. Other Liabilities                                                  0                 0
     G. Total Non-Federal Liabilities                        $       238,729    $      275,132

 3. Total Liabilities Not Covered by Budgetary Resources     $       238,729    $      275,132

 4. Total Liabilities Covered by Budgetary Resources         $      2,613,686   $    2,557,997

 5. Total Liabilities                                        $      2,852,415   $    2,833,129




                                                                                                                                  141
                   United States Air Force • 2004 Annual Financial Statement




      Other Information
      Fluctuations and Abnormalities
      The amounts recorded on line 2B represent the Federal Employees Compensation Act (FECA) actuarial liabilities provided
      by the Department of Labor. The $36,402.5 thousand decrease is due to a decrease in the number of employees.

      Definitions
      Liabilities Not Covered and Covered by Budgetary Resources – These are liabilities that are not considered covered
      by realized budgetary resources as of the balance sheet date. Budgetary resources include the following:

      •   New budget authority

      •   Spending authority from offsetting collections (credited to an appropriation or fund account)

      •   Recoveries of unexpired budget authority through downward adjustments of prior-year obligations

      •   Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior-year balances during
          the year

      •   Borrowing authority or permanent indefinite appropriations that have been enacted and signed into law as of the bal
          ance sheet date, provided that the Office of Management and Budget (OMB) can apportion the resources without first
          meeting a contingency or without additional action by the Congress.

      Liabilities Covered by Budgetary Resources

      These are resources the reporting entity incurred that are covered by realized budget resources as of the balance sheet
      date. Budgetary resources encompass not only new budget authority but also other resources available to cover liabilities
      for specified purposes in a given year. Available budgetary resources include the following:

      •   New budget authority

      •   Spending authority from offsetting collections (credited to an appropriation or fund account)

      •   Recoveries of unexpired budget authority through downward adjustments of prior-year obligations

      •   Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior-year balances during
          the year

      •   Borrowing authority or permanent indefinite appropriations that have been enacted and signed into law as of the bal
          ance sheet date, provided that the OMB can apportion the resources without first meeting a contingency or without
          additional action by the Congress.

      Note Reference
      For additional line item discussion, see:

      •   Note 8, Direct Loans and/or Loan Guarantee Programs

      •   Note 12, Accounts Payable

      •   Note 13, Liabilities Not Covered and Covered by Budgetary Resources




142
•      Note 14, Environmental Restoration Liabilities and Environmental Disposal Liabilities

•      Note 15, Other Liabilities

•      Note 16, Commitments and Contingencies

•      Note 17, Military Retirement Benefits and Other Employment Related

Note 12. Accounts Payable
 As of September 30                                                2004                                2003
                                                                 Interest,
                                                 Accounts      Penalties, and
                                                 Payable       Administrative         Total            Total
    (Amounts in thousands)


 1. Intra-governmental Payables:             $       256,763               N/A $         256,763   $      231,725

 2. Non-Federal Payables (to the Public):    $       497,471 $                  0 $      497,471   $       88,984

 3. Total                                    $       754,234 $                  0 $      754,234   $      320,709



Other Information
Definition
Intra-governmental payables consist of amounts owed to other federal agencies for goods or services ordered and received
but not yet paid for. Interest, penalties, and administrative fees are not applicable to intra-governmental payables. Non-fed-
eral payables (to the public) are payments to non-federal entities.

Fluctuations and Abnormalities
Intra-governmental payables increased by $25,033.7 thousand. An increase of $80,841.3 thousand is attributed to the Supply
Management Activity Group (SMAG). SMAG is reporting increased accounts payable to the US Army and US Navy that the
Air Force Material Command is currently researching. The increase is offset by the elimination adjustments processed to
match the accounts receivables as reported by other government agencies.

Non-federal payables increased by $408,487.9 thousand. The Supply Management Activity Group (SMAG) accounted for
$419,095.5 thousand of the increase, which is offset by normal operations in the remaining business areas. An increase of
$206,458.6 thousand is attributed to a change in allocation method regarding undistributed disbursements. In FY 2003, the
undistributed was allocated to non-federal payables, which decreased the total payables reported. In FY 2004, the undistrib-
uted was all allocated to intragovernmental payables due to systems changes. The change in allocations did not affect the
intragovernmental payable balance as the undistributed was eliminated within the AFWCF. The remaining increase of
$202,029.3 thousand is attributable to an increase in expense volume in September 2004 in comparison to September 2003.
Expenses incurred in one month are generally paid in the subsequent month, resulting in the subsequent increase in accounts
payable at the end of September 2004.

Undistributed Disbursements
Undistributed disbursements consist of the difference between (1) disbursements/collections recorded at the transaction
level to a specific obligation, payable, or receivable in the activity field records, and (2) those disbursements/collections
reported by the U.S. Treasury via the reconciled DD1329 and DD1400. The total undistributed disbursement amounts dis-
played in this note should agree with the undistributed amounts reported on accounting reports (SF 133/(M) 1002/(M)
1307). In-transit payments are payments that have been made for other agencies or entities that have not been recorded in




                                                                                                                                 143
                  United States Air Force • 2004 Annual Financial Statement



      their accounting records. These payments are applied to each entity's outstanding accounts payable balance at year-end.
      Accounts payable were adjusted downward in the amount of $644,649.2 thousand for these payments.

      Allocation of Undistributed Disbursements
      The Department of Defense (DoD) policy is to allocate supported undistributed disbursements between intragovernmental
      and non-federal categories based on the percentage of intragovernmental and non-federal accounts payable. Unsupported
      undistributed disbursements should be recorded in U.S. Standard General Ledger account (USSGLA) 2120, Disbursements in
      Transit. The AFWCF followed this allocation policy reporting $67,014.5 thousand in USSGLA 2120.

      Intragovernmental Eliminations
      For the majority of intra-agency sales, the AFWCF accounting systems do not capture trading partner data at the transaction
      level in a manner that facilitates trading partner aggregations. Therefore, the AFWCF was unable to reconcile intragovern-
      mental accounts payable to the related intragovernmental accounts receivable that generated the payable. Elimination
      adjustments are made at the consolidated business activity level instead of at the fund-code level, resulting in less distortion
      of the actual payable amounts.

      The DoD intends to develop long-term systems improvements that will include sufficient up-front edits and controls to elim-
      inate the need for after-the-fact reconciliations. The volume of intragovernmental transactions is so large that after-the-fact
      reconciliations cannot be accomplished with the existing or foreseeable resources.

      Note Reference
      See Note Disclosure 1.G., Significant Accounting Policies, for additional discussion on financial reporting requirements and
      DoD policies governing accounting for intragovernmental activities.

      Note 13. Debt
      Not applicable.

      Note 14. Environmental Liabilities and Disposal Liabilities
      Not applicable.




144
Note 15.A. Other Liabilities
As of September 30                                                                               2004                              2003
                                                                               Current       Noncurrent
                                                                               Liability      Liability           Total            Total
(Amounts in thousands)

1. Intra-governmental:
     A. Advances from Others                                               $       234,529   $            0   $      234,529   $    339,302
     B. Deferred Credits                                                                 0                0                0              0
     C. Deposit Funds and Suspense Account Liabilities                                   0                0                0              0
     D. Resources Payable to Treasury                                                    0                0                0              0
     E. Disbursing Officer Cash                                                          0                0                0              0
     F. Non-environmental Disposal Liabilities:
        (1) National Defense PP&E (Nonnuclear)                                           0                0                0              0
        (2) Excess/Obsolete Structures                                                   0                0                0              0
        (3) Conventional Munitions Disposal                                              0                0                0              0
        (4) Other                                                                        0                0                0              0
     G. Accounts Payable—Cancelled Appropriations                                        0                0                0              0
     H. Judgement Fund Liabilities                                                       0                0                0              0
     I. FECA Reimbursement to the Department of Labor                                    0                0                0              0
     J. Capital Lease Liability                                                          0                0                0              0
     K. Other Liabilities                                                            8,602                0            8,602          6,135
     L. Total Intra-governmental Other Liabilities                         $       243,131   $            0   $      243,131   $    345,437
2. Non-Federal:
     A. Accrued Funded Payroll and Benefits                                $       135,633   $            0   $      135,633   $    161,111
     B. Advances from Others                                                        15,256                0           15,256          5,542
     C. Deferred Credits                                                                 0                0                0              0
     D. Loan Guarantee Liability                                                         0                0                0              0
     E. Liability for Subsidy Related to Undisbursed Loans                               0                0                0              0
     F. Deposit Funds and Suspense Accounts                                         18,913                0           18,913            -22
     G. Temporary Early Retirement Authority                                             0                0                0              0
     H. Non-environmental Disposal Liabilities:
        (1) National Defense PP&E (Nonnuclear)                                           0                0                0               0
        (2) Excess/Obsolete Structures                                                   0                0                0               0
        (3) Conventional Munitions Disposal                                              0                0                0               0
        (4) Other                                                                        0                0                0               0
     I. Accounts Payable—Cancelled Appropriations                                        0                0                0               0
     J. Accrued Unfunded Annual Leave                                                    0                0                0               0
     K. Accrued Entitlement Benefits for Military Retirees and Survivors                 0                0                0               0
     L. Capital Lease Liability                                                          0                0                0               0
     M.Other Liabilities                                                         1,446,519                0        1,446,519       1,725,220
     N. Total Non-Federal Other Liabilities                                $     1,616,321   $            0   $    1,616,321   $   1,891,851
3. Total Other Liabilities:                                                $     1,859,452   $            0   $    1,859,452   $   2,237,288




Other Information Pertaining to Other Liabilities
Fluctuations and Abnormalities
Line 1.A—Intra-governmental advances from others decreased due largely to the decrease in the Depot Maintenance
Activity Group (DMAG) Contract progress billings. Contract DMAG is phasing out of the Working Capital Fund (WCF).

Line 1.K—The other intra-governmental liabilities increase represents employee benefits that are payable to the Office of
Personnel Management (OPM). Liabilities fluctuate based on staffing levels and participation in benefit programs by employees.

Line 2.A—The decrease in accrued funded payroll and benefits is a result of fewer days accrued in FY 2004. In FY 2003,
there were nine days of accrued payroll and benefits and in FY 2004 there were four days.




                                                                                                                                               145
                   United States Air Force • 2004 Annual Financial Statement



      Line 2.B—The increase of advances from others is caused by DMAG. This increase is largely due to a problem with the
      billing of public workload. DMAG receives advances from the public. This is recorded as a liability until the work is com-
      pleted and the revenue can be reported as earned. Since DMAG was unable to process the bills for work that was complet-
      ed, the advances from others amount was not moved to earned revenue from the public. The Air Logistics Centers are
      aware of the issue and are working to resolve it. The remaining fluctuations are a result of normal operations.

      Line 2.F—The fluctuation represents unsupported undistributed collections, for which guidance was issued to reclassify to
      deposit funds and suspense accounts. In FY 2003 the reclassification was not prepared for the Supply Management Activity
      Group (SMAG). If the reclassification has been prepared the amount would have little fluctuation from the amount
      processed in FY 2004.

      Information Related to Other Liabilities (Line 2.M)
               As of Septemb 30                                                          FY2004                   FY 2003

               DMAG/Information Services Activity Group (ISAG) – Progress Billings
                                                                                                         0                         1
               DMAG – WIP Accrued Expenses                                           $                        $
                                                                                                  1,377,793                 1,616,599
               SMAG – Future Purchase - Foreign Military Sales                       $                        $
                                                                                                    29,049                    62,521
               SMAG – Other Accrued Liabilities                                      $                        $
                                                                                                     4,140                    10,630
               Component – Reclass of Abnormal Non-Federal Accounts Receivable       $                        $
                                                                                                     35,537                    35,469
               Total                                                                 $            1,446,519   $             1,725,220




      DMAG work in process accrued expenses has decreased as a result of the removing Contract DMAG from the Working
      Capital Funds, which has resulted in a decline in material, labor, and overhead cost accruals.

      SMAG other liabilities related to foreign military sales consist of money that various countries have deposited with the SMAG as
      a buy-in on future purchases they plan to make under the foreign military sales program. These funds are considered a liability
      as the funds are returned if the countries do not make future purchases. Revenue is not recognized on these transactions until
      the purchase takes place. The decrease in this account is caused by some foreign governments canceling agreements.

      The Component other liability is related to an abnormal non-federal accounts receivable amount. The amount was abnor-
      mal because of Undistributed Collections. FACTS I will not accept an abnormal balance in non-federal accounts receivable;
      therefore, the amount was reclassified as a non-federal other liability.

      Note Reference
      See Note Disclosure 1.S., Significant Accounting Policies, for additional discussion on financial reporting requirements and
      Department of Defense policies governing contingencies and other liabilities.

      Note 15.B. Capital Lease Liability
      Not applicable.

      Note 16. Commitments and Contingencies
      Not applicable.




146
Note 17. Military Retirement Benefits and Other Employment Related Actuarial
Liabilities
 As of September 30                                                                 2004                                              2003

                                                   Actuarial Present        Assumed      (Less: Assets         Unfunded             Unfunded
                                                   Value of Projected        Interest   Available to Pay       Actuarial            Actuarial
                                                     Plan Benefits          Rate (%)       Benefits)            Liability            Liability

 (Amounts in thousands)


 1. Pension and Health Benefits:
     A. Military Retirement Pensions               $                    0               $              0   $                0   $                0
     B. Military Retirement Health Benefits                             0                              0                    0                    0
     C. Medicare-Eligible Retiree Benefits                              0                              0                    0                    0
     D. Total Pension and Health Benefits          $                    0               $              0   $                0   $                0

 2. Other:
     A. FECA                                       $          238,729                   $              0   $       238,729      $       275,132
     B. Voluntary Separation Incentive Programs                     0                                  0                 0                    0
     C. DoD Education Benefits Fund                                 0                                  0                 0                    0
     D. [Enter Program Name}                                        0                                  0                 0                    0
     E. Total Other                                $          238,729                   $              0   $       238,729      $       275,132

 3. Total Military Retirement Benefits and Other   $          238,729                   $              0   $      238,729       $       275,132
    Employment Related Actuarial Liabilities:


Other Information Pertaining to Military Retirement Benefits and Other Employment-Related
Actuarial Liabilities
Fluctuations and Abnormalities
The decrease of FECA is due to the decrease in total employees in FY 2004.

Federal Employee’s Compensation Act (FECA)
The Air Force Working Capital Fund’s actuarial liability for workers’ compensation benefits is developed by the Department
of Labor and provided to the Air Force at the end of each fiscal year. The liability includes the expected liability for death,
disability, medical, and miscellaneous costs for approved compensation cases. The liability is determined using a method that
utilizes historical benefit payment patterns related to predict the ultimate payments. The projected annual benefit payments
are then discounted to the present value using the Office of Management and Budget’s economic assumptions for 10-year
Treasury notes and bonds. Cost-of-Living Adjustments (COLAs) and medical inflation factors are also applied to the calcula-
tion of projected future benefits.

Interest rate assumptions utilized for discounting are as follows:

                                          2002                    2003                             2004
                                     5.20% in year 1         3.84% in year 1                  4.883% in year 1
                                     5.20% in year 2         4.35% in year 2                  5.235% in year 2
                                      and thereafter          and thereafter                   and thereafter

To provide more specifically for the effects of inflation on the liability for workers’ compensation benefits, wage inflation fac-
tors (COLAs) and medical inflation factors (Consumer Price Index Medical or CPIMs) were applied to the calculation of pro-
jected future benefits. These factors were also used to adjust the methodology’s historical payments to current year con-
stant dollars.



                                                                                                                                                     147
                  United States Air Force • 2004 Annual Financial Statement



      The compensation COLAs and CPIMs used in the projections for various charge-back years (CBYs) are as follows:

                                              CBY                  COLA                 CPIM

                                              2005                 2.03%                4.14%

                                              2006                 2.73%                3.96%

                                              2007                 2.40%                3.98%

                                              2008                 2.40%                3.99%

                                              2009+                2.40%                4.02%

      The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis was based on two
      tests: (1) a comparison of the percentage change in the liability amount by agency to the percentage change in actual pay-
      ments, and (2) a comparison of the ratio of the estimated liability to the actual payment of the beginning year calculated for
      the current projection to the liability-payment ration calculated for the prior projection.

      Actuarial data and percentages are only updated at the end of the fiscal year; therefore, amounts referenced in this note are
      the balances at September 30, 2004 and September 30, 2003.

      Note Reference
      For regulatory discussion on “Military Retirement Benefits and Other Employment Related Actuarial Liabilities,” see
      Department of Defense Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1019.

      Note 18. Unexpended Appropriations
      Not applicable.

      Note 19.A. General Disclosures Related to the Statement of Net Cost
      Fluctuations and Abnormalities
      Intra-governmental Earned Revenue
      Intra-governmental revenue had a decrease of $1,429,325.2 thousand, which represents a 10.73 percent decrease. A por-
      tion of the decrease is attributed to the implementation of the General Accounting and Finance System - Rehost in FY 2004.
      For the Supply Management Activity Group (SMAG), in FY 2003 a portion of other income was erroneously reported as
      intra-governmental and in FY 2004 this error was corrected. It is currently reported as non-federal instead. The phase out
      of Contract Depot Maintenance Activity Group (DMAG) contributes significantly to the decrease in intra-governmental rev-
      enue. The Air Force Working Capital Fund is in the process of discontinuing to contract out Depot operations, therefore
      the related revenues are decreasing. Any remaining fluctuations are a result of normal operations.

      Earned Revenue from the Public
      Earned revenue from the public had an increase of $497,530.1 thousand. The increase is largely attributed to the implemen-
      tation of the General Accounting and Finance System - Rehost in FY 2004. For SMAG, in FY 2003 a portion of other income
      was erroneously reported as intra-governmental and in FY 2004 this error was corrected. It now reported as non-federal.
      The remaining fluctuation is a result of normal operations.




148
Information Related to the Statement of Net Cost
Statement of Net Cost
The Consolidated SoNC in the federal government is unique because its principles are based on understanding the net cost
and/or organizations that the federal government supports through appropriations or other means. This statement provides
gross and net cost information that can be related to the amount of output or outcome for a given program and/or organiza-
tion administered by a responsible reporting entity.

Working Capital Funds
While the Air Force Working Capital Fund (AFWCF) generally records transactions on an accrual basis as is required by gen-
erally accepted accounting principles, the systems do not always capture actual costs. Information presented on the SoNC is
primarily based on budgetary obligations, disbursements, or collection transactions, as well as information from nonfinancial
feeder systems.

Note 19.B. Gross Cost and Earned Revenue by Budget Functional Classification
Not applicable.

Note 19.C. Gross Cost to Generate Intra-governmental Revenue and Earned
Revenue (Transactions with Other Federal-Non-DoD-Entities) by Budget
Functional Classification
Relevant Information for Comprehension
The Air Force’s accounting systems do not capture cost data in a manner that enables the Air Force to determine if the cost
was incurred to generate intra-governmental revenue. Therefore, this note could not be completed. The Department is in
the process of upgrading its financial and feeder systems and will be addressing this issue. Additionally, the identification of
intra-governmental revenue and expenses is a government-wide problem. The Office of Management and Budget and the
Department of the Treasury are developing government-wide guidance to enable accurate reporting of intra-governmental
transactions.

Note 19.D. Imputed Expenses
 As of September 30                                    2004                2003
 (Amounts in thousands)

 1. Civilian (e.g.,CSRS/FERS) Retirement          $           63,443   $          64,298
 2. Civilian Health                                           95,320              80,667
 3. Civilian Life Insurance                                     255                 241
 4. Military Retirement Pension                                   0                   0
 5. Military Retirement Health                                    0                   0
 6. Judgment Fund                                               0                   0
 7. Total Imputed Expenses                        $       159,018      $      145,206



Other Information
The increase in imputed expenses can be attributed to rising cost of employee benefit programs.




                                                                                                                                   149
                   United States Air Force • 2004 Annual Financial Statement




      Note 19.E. Benefit Program Expenses
      Not applicable.

      Note 19.F. Exchange Revenue
      Definition
      Exchange Revenue arises when a government entity provides goods and services to the public or to another government
      entity for a price (earned revenue). Exchange revenue includes most user charges other than taxes, i.e., regulatory user
      charges.

      Note 19.G. Amounts for Foreign Military Sales (FMS) Program Procurements from
      Contractors
      Not applicable.

      Note 19.H. Stewardship Assets
      Not applicable.

      Note 19.I. Intra-governmental Revenue and Expense
      Information Related to Intra-governmental Revenue and Expense
      Intra-governmental Revenue
      The AFWCF’s accounting systems do not capture trading partner data at the transaction level in a manner that facilitates
      trading partner aggregations. Therefore, the AFWCF was unable to reconcile intra-governmental revenue balances with its
      trading partners. The Department intends to develop long-term systems improvements that will include sufficient up-front
      client edits and controls to eliminate the need for after-the-fact reconciliations. The volume of intra-governmental transac-
      tions is so large that such reconciliations cannot be accomplished with the existing or foreseeable resources.

      Intra-governmental Operating Expenses
      The AFWCF’s operating expenses were adjusted based on a comparison between the AFWCF’s accounts payable and the
      DoD summary- level seller accounts receivables. An adjustment was posted to accounts payable and operating expenses to
      reflect unrecognized accounts payable and operating expenses. The operating expenses of the AFWCF were adjusted
      upward in the amount of $107,916.5 thousand.

      Note 19.J. Suborganization Program Costs
      Not applicable.




150
Note 20. Disclosures Related to the Statement of Changes in Net Position
 As of September 30                                     Cumulative Results         Unexpended        Cumulative Results      Unexpended
                                                          of Operations          of Appropriations      Operations          Appropriations
                                                              2004                    2004                 2003                 2003
 (Amounts in thousands)

 1. Prior Period Adjustments Increases (Decreases)
   to Net Position Beginning Balance:
     A. Changes in Accounting Standards                     $        699,393 $                   0    $                0     $            0
     B. Errors and Omissions in Prior Year
        Accounting Reports                                       11,370,456                      0            11,315,328                  0
     C. Other Prior Period Adjustments                                    0                      0                     0                  0
     D. Total Prior Period Adjustments                      $    12,069,849 $                    0    $       11,315,328     $            0


 2. Imputed Financing:
     A. Civilian CSRS/FERS Retirement                       $         63,443 $                   0    $            64,298    $            0
     B. Civilian Health                                               95,319                     0                 80,667                 0
     C. Civilian Life Insurance                                         255                      0                   241                  0
     D. Military Retirement Pension                                          0                   0                     0                  0
     E. Military Retirement Health                                           0                   0                     0                  0
     F. Judgment Fund                                                        0                   0                      0                 0
     G. Total Imputed Financing                             $        159,017 $                   0    $           145,206    $            0



Other Information
Information Related to the Statement of Changes in Net Position
Prior Period Adjustments. Materiel Support Division inventory valued at LAC was converted to Moving Average Cost
historical cost basis valuation on October 1, 2003. This change in inventory valuation method was required by the Office of
the Under Secretary of Defense (OUSD) policy. Historical cost does not require an allowance for gains and losses. The
change in accounting policy created a prior period adjustment in FY 2004 of $11,604,540.3 thousand for the elimination of
the allowance for gains and losses, the establishment of an allowance for repairs and the revaluation of inventory. The
amount $699,393.4 thousand represents standard price changes. The table below provides detail by USSGL of the prior
period adjustment. In addition, there is an ongoing effort by the OUSD Comptroller regarding the baselining of inventory,
which may result in changes in inventory valuation in subsequent periods.

USSGL             Description                                                                      Debit                         Credit
1521              Serviceable Inventory                                             $         82,823,884
1523              Unserviceable Inventory                                                  3,917,057,191
1524              Excess, Obsolete & Unserviceable Inventory                               3,917,057,191
1529 1R01         Standard Price Change Loss                                                 663,591,208
1529 1G01         Standard Price Change Gain                                                                  $       4,851,105,837
Inventory Revaluation to MAC from LAC/Carcass - 1 Oct 2003

6500               Cost of Goods Sold                                               $      4,241,778,398
1529 3A03          Allowance for Repairs                                                                      $       4,241,778,398
Establish the Allowance for Repairs - 1 Oct 2003

1521/23/24        Inventory                                                         $     11,658,804,025
1529 1001         Inventory – Allowance for Holding Gains & Losses                                            $     11,658,804,025
Original Entries into the Inventory Allowance account

1529               Inventory – Allowance                                            $     11,604,540,255
7401               Prior Period Adjustment – Restated                                                         $     10,905,146,882
7400               Prior Period Adjustment – Not restated                                                              699,393,373
Adjustment to eliminate the allowance account




                                                                                                                                              151
                     United States Air Force • 2004 Annual Financial Statement



      The General Support Division inventory valued at LAC was converted to Moving Average Cost historical cost basis valuation
      on October 1, 2003. This change in inventory valuation method was required by the Office of the Under Secretary of
      Defense (OUSD) policy. Historical cost does not require an allowance for gains and losses. The change in accounting policy
      created a prior period adjustment in FY 2004 of $133,808.6 thousand for the elimination of the allowance for gains and loss-
      es and the elimination of the potential excess allowance of $331,500.5 thousand. The table below provides detail by USSGL
      of the prior period adjustment. The entry was recorded to GLA 7400 in the General Accounting and Finance System -
      Rehost (GAFS-R). Due to year-end processing problems in GAFS-R, the reclassification to GLA 7401 will be accomplished in
      the Defense Departmental Reporting System - Audited Financial Statements (DDRS-AFS). In addition, there is an ongoing
      effort by the OUSD Comptroller regarding the baselining of inventory, which may result in changes in inventory valuation in
      subsequent periods.

      USSGL               Description                                                      Debit                   Credit
      1521/23/24          Inventory                                             $    133,808,567
      1529                Inventory – Allowance                                                          $    133,808,567
      Original Entries into the Inventory Allowance Account

      7110               Loss                                                   $    331,500,483
      1529               Potential Excess Allowance                                                      $    331,500,483
      Original Entries into Potential Excess Allowance

      1529                Inventory - Allowance                                 $    133,808,567
      7401                Prior Period Adjustment – Restated                                             $    133,808,567
      Adjustment to eliminate the allowance account

      1529             Potential Excess Allowance                               $    331,500,483
      7401             Prior Period Adjustment – Restated                                                $    331,500,483
      Adjustment to eliminate the allowance account


      Imputed Financing
      The amounts remitted to the Office of Personnel Management (OPM) by and for employees covered by the Civil Service
      Retirement System, Federal Employee Retirement System, Federal Employees Health Benefits program, and the Federal
      Employee Group Life Insurance program do not fully cover the Government’s cost to provide these benefits. An imputed
      cost is recognized as the difference between the Government’s cost of providing these benefits to the employees and contri-
      butions made by and for them. The OPM provides the cost factors to the Defense Finance and Accounting Service (DFAS)
      for computation of imputed financing cost. Then DFAS provides the costs to the OUSD (Personnel and Readiness) for vali-
      dation. Approved imputed costs are provided to the reporting components for inclusion in their financial statements.

      Note 21. Disclosures Related to the Statement of Budgetary Resources
       As of September 30                                                           2004          2003
       (Amounts in thousands)



       1. Net Amount of Budgetary Resources Obligated for
          Undelivered Orders at the End of the Period                           $   7,117,842 $   6,166,726
       2. Available Borrowing and Contract Authority at the End of the Period       3,839,310     3,191,601




152
Other Information
Information Related to the Statement of Budgetary Resources
Intra-entity Transactions. The Statement of Budgetary Resources (SBR) does not include intra-entity transactions because
the statements are presented as combined and combining.

Apportionment Categories. Office of Management and Budget Bulletin No. 01-09, section 9.27, specifically requires dis-
closure of the amount of direct and reimbursable obligations incurred against amounts apportioned under categories A, B,
and exempt from apportionment. This disclosure should agree with the aggregate of the related information as included in
each reporting entity’s SF 133 and lines 8A and 8B in the SBR. Category A direct obligations total $2,027.2 thousand, which
represents an adjusting entry. Category A reimbursable obligations total $17,271,941.4 thousand. There are no category B
or exempt obligations.

Undelivered Orders. Undelivered orders presented in the SBR includes undelivered orders-unpaid for both direct and
reimbursable funds.

Spending Authority from Offsetting Collections. Adjustments in funds that are temporarily not available pursuant to
Public Law, and those that are permanently not available (included in the “Adjustments” line on the SBR), are not included in
the “Spending Authority from Offsetting Collections and Adjustments” line on the SBR or the “Spending Authority for
Offsetting Collections and Adjustments” line on the Statement of Financing.

Note 22. Disclosures Related to the Statement of Financing
Other Disclosures
The objective of the Statement of Financing is to reconcile the difference between budgetary obligations and the net cost of
operations reported. It is presented as combined or combining statements rather than consolidated statements because
intra-governmental transactions are not eliminated. Because of limitations in the Air Force Working Capital Fund’s financial
system, budgetary data is not in agreement with proprietary expenses and assets capitalized. Differences between budget-
ary and proprietary data constitute a previously identified deficiency.

Note 1A and Note 1F provide additional detail.

Other Information Related to the Statement of Financing
Statement of Financing Adjustments
Budgetary data is not in agreement with Proprietary Expenses and Assets Capitalized. This causes a difference in Net Cost
between the Statement of Net Cost (SoNC) and the Statement of Financing. Line 15 on the Statement of Financing,
“Resources that finance the acquisition of assets,” is adjusted in order to align the amount of net cost on the Statement of
Financing with the amount reported on the (SoNC). Line 15 was adjusted by an absolute value of $1,147,112.4 thousand to
balance the report. The adjustment will be researched to determine the cause of the increase over prior reporting periods.

Note 23. Disclosures Related to the Statement of Custodial Activity
Not applicable.




                                                                                                                                153
                  United States Air Force • 2004 Annual Financial Statement




      Note 24.A. Other Disclosures
      Undistributed Collections and Disbursements
      Differences often occur between the time that the Department of the Treasury records cash transactions and the time that
      the field records transactions in the general ledger. The timing differences are accounted for in the undistributed collection
      and disbursements accounts, which offset accounts receivable and accounts payable in the accounting records.
      Undistributed amounts are reconciled monthly to ensure that they are fully supported. Unsupported amounts are reclas-
      sifed to General Ledger Accounts 2400 and 2120.

      Various categories make up the total undistributed. In-transit items and uncleared interfund transactions represent the
      majority of the undistributed. The in-transit category consists of transactions that are paid/collected by one entity on behalf
      of another entity. The transaction is recorded at Treasury in the month of occurrence; however, it generally takes 30-60
      days to be distributed to the accountable entity. Interfund transactions are intra-governmental, no-check-drawn transactions
      that are generated by the billing activity at the end of the month. They are then transmitted to a central location to be dis-
      tributed to the accountable entity. Since this is an end-of-month process, the accountable entity does not receive the data
      until the next month. Recons and suspense are also categories of undistributed. Recons are created when the cumulative
      disbursements and collections reported by the field entities on monthly reports do not equal cumulative amounts generated
      from current-month transactions. When differences occur between the field-level weekly and monthly reports, the amount
      is suspensed until anything out-of-balance can be researched and corrected in subsequent months. The suspense category
      may also contain amounts that are not supported by voucher data but have been reported to Treasury. Once again, this data
      is researched and corrected. Other miscellaneous posting errors can contribute to undistributed balances, which are identi-
      fied monthly and corrected at the appropriate location.




154
                       United States Air Force




Working Capital Fund

  Consolidating and
Combining Statements




                                           155
                    United States Air Force • 2004 Annual Financial Statement




      Consolidating Balance Sheet—Working Capital Fund
      As of September 30, 2004 and 2003 ($ in Thousands)
                                                                           Depot                Supply                Information
                                                                        Maintenance           Management                Services
      ASSETS (Note 2)
          Intra-governmental:
             Fund Balance with Treasury (Note 3)
             Entity                                                 $           537,530   $             466,474   $           30,350
             Non-Entity Seized Iraqi Cash                                             0                       0                    0
             Non-Entity-Other                                                         0                       0                    0
             Investments (Note 4)                                                     0                       0                    0
             Accounts Receivable (Note 5)                                       411,812                 437,397               55,774
             Other Assets (Note 6)                                                    0                 104,722                    0
             Total Intra-governmental Assets                        $           949,342   $           1,008,593   $           86,124
          Cash and Other Monetary Assets (Note 7)                   $                 0   $                   0   $                0
          Accounts Receivable (Note 5)                                           49,520                  52,333                  641
          Loans Receivable (Note 8)                                                   0                       0                    0
          Inventory and Related Property (Note 9)                             1,002,650              20,022,878                    0
          General Property, Plant and Equipment (Note 10)                     1,038,003                 129,255               30,418
          Investments (Note 4)                                                        0                       0                    0
          Other Assets (Note 6)                                                  12,980                 775,986                    0
      TOTAL ASSETS                                                  $         3,052,495   $          21,989,045   $          117,183

      LIABILITIES (Note 11)
           Intra-governmental:
              Accounts Payable (Note 12)                            $          259,752 $               305,197 $              10,235
              Debt (Note 13)                                                         0                       0                     0
              Environmental Liabilities (Note 14)                                    0                       0                     0
              Other Liabilities (Note 15 and Note 16)                          346,651                     798                   394
              Total Intra-governmental Liabilities                  $          606,403 $               305,995 $              10,629
           Accounts Payable (Note 12)                               $           13,248 $               465,655 $             136,792
           Military Retirement Benefits and Other                              206,663                  22,457                 9,609
           Employment-Related Actuarial Liabilities (Note 17)
           Environmental Liabilities (Note 14)                                        0                      0                     0
           Loan Guarantee Liability (Note 8)                                          0                      0                     0
           Other Liabilities (Note 15 and Note 16)                            1,510,123                 60,540                10,121
           Debt Held by Public                                                        0                      0                     0
      TOTAL LIABILITIES                                             $         2,336,437 $              854,647 $             167,151

      NET POSITION
         Unexpended Appropriations (Note 18)                        $                0 $                      0 $                  0
         Cumulative Results of Operations                                      716,058               21,134,398              -49,968
      TOTAL NET POSITION                                            $          716,058 $             21,134,398 $            -49,968

      TOTAL LIABILITIES AND NET POSITION                            $         3,052,495 $            21,989,045 $            117,183




      The accompanying notes are an integral part of the financial statements. See notes 1 and 21.


156
                            Component            Combined                                    2004                  2003
     Transportation           Level                Total             Eliminations         Consolidated          Consolidated




 $             10,223   $            6,533   $       1,051,110   $               0    $         1,051,110   $          732,842
                    0                    0                   0                   0                      0                    0
                    0                    0                   0                   0                      0                    0
                    0                    0                   0                   0                      0                    0
                    0                   -1             904,982             328,586                576,396              605,077
                    0                    0             104,722             104,712                     10                    3
 $             10,223   $            6,532   $       2,060,814   $         433,298    $         1,627,516   $        1,337,922
 $                  0   $                0   $               0   $               0    $                 0   $                0
                  617                    0             103,111                   0                103,111              167,764
                    0                    0                   0                   0                      0                    0
                    0                    0          21,025,528                   0             21,025,528           22,524,996
                    7                    0           1,197,683                   0              1,197,683            1,329,629
                    0                    0                   0                   0                      0                    0
                    0                    0             788,966                   0                788,966              380,362
 $             10,847   $            6,532   $      25,176,102   $         433,298    $        24,742,804   $       25,740,673




 $                  1 $             10,164 $           585,349 $           328,586 $             256,763 $             231,725
                    0                    0                   0                   0                     0                     0
                    0                    0                   0                   0                     0                     0
                    0                    0             347,843             104,712               243,131               345,437
 $                  1 $             10,164 $           933,192 $           433,298 $             499,894 $             577,162
 $              1,693 $           -119,917 $           497,471 $                 0 $             497,471 $              88,984
                    0                    0             238,729                   0               238,729               275,132

                    0                    0                   0                   0                      0                    0
                    0                    0                   0                   0                      0                    0
                    0               35,537           1,616,321                   0              1,616,321            1,891,851
                    0                    0                   0                   0                      0                    0
 $              1,694 $            -74,216 $         3,285,713 $           433,298 $            2,852,415 $          2,833,129


 $                  0 $                  0 $                 0 $                    0 $                 0 $                  0
                9,153               80,748          21,890,389                      0          21,890,389           22,907,544
 $              9,153 $             80,748 $        21,890,389 $                    0 $        21,890,389 $         22,907,544

 $             10,847 $              6,532 $        25,176,102 $           433,298 $           24,742,804 $         25,740,673




The accompanying notes are an integral part of the financial statements. See notes 1 and 21.


                                                                                                                                 157
                   United States Air Force • 2004 Annual Financial Statement




      Consolidating Statement of Net Cost—Working Capital Fund
      For the years ended September 30, 2004 and 2003 ($ in Thousands)
                                                                      Combined                                  2004                2003
                                                                        Total            Eliminations        Consolidated        Consolidated
      Program Costs
      B. Component Level                                                         0
              Intra-governmental Gross Costs                      $         10,166   $              0    $          10,166   $                  1
              (Less: Intra-governmental Earned Revenue)                          0                  0                    0                      1
              Intra-governmental Net Costs                        $         10,166   $              0    $          10,166   $                  2
              Gross Costs With the Public                                        0                  0                    0                      0
              (Less: Earned Revenue From the Public)                             0                  0                    0                      0
              Net Costs With the Public                           $              0   $              0    $               0   $                  0
              Total Net Cost                                      $         10,166   $              0    $          10,166   $                  2
      C. Depot Maintenance                                                       0
              Intra-governmental Gross Costs                      $      2,706,901   $       2,091,148   $         615,753   $        1,198,929
              (Less: Intra-governmental Earned Revenue)                 -6,811,091          -2,950,348          -3,860,743           -4,653,703
              Intra-governmental Net Costs                        $     -4,104,190   $        -859,200   $      -3,244,990   $       -3,454,774
              Gross Costs With the Public                                3,940,937                   0           3,940,937            4,291,719
              (Less: Earned Revenue From the Public)                      -168,063                   0            -168,063             -199,659
              Net Costs With the Public                           $      3,772,874   $               0   $       3,772,874   $        4,092,060
              Total Net Cost                                      $       -331,316   $        -859,200   $         527,884   $          637,286
      D. Information Services                                                    0
              Intra-governmental Gross Costs                      $         59,464   $              20   $          59,444   $          83,811
              (Less: Intra-governmental Earned Revenue)                   -708,754            -140,870            -567,884            -475,537
              Intra-governmental Net Costs                        $       -649,290   $        -140,850   $        -508,440   $        -391,726
              Gross Costs With the Public                                  670,818                   0             670,818             589,886
              (Less: Earned Revenue From the Public)                        -2,865                   0              -2,865                   0
              Net Costs With the Public                           $        667,953   $               0   $         667,953   $         589,886
              Total Net Cost                                      $         18,663   $        -140,850   $         159,513   $         198,160
      E. Supply Management                                                       0
              Intra-governmental Gross Costs                      $      7,782,043   $       3,067,613   $       4,714,430   $        4,165,569
              (Less: Intra-governmental Earned Revenue)                 -9,527,399          -2,067,564          -7,459,835           -8,188,549
              Intra-governmental Net Costs                        $     -1,745,356   $       1,000,049   $      -2,745,405   $       -4,022,980
              Gross Costs With the Public                                4,063,032                   0           4,063,032            3,343,049
              (Less: Earned Revenue From the Public)                      -719,910                   0            -719,910             -194,230
              Net Costs With the Public                           $      3,343,122   $               0   $       3,343,122   $        3,148,819
              Total Net Cost                                      $      1,597,766   $       1,000,049   $         597,717   $         -874,161
      F. Transportation                                                          0
              Intra-governmental Gross Costs                      $              0   $              0    $               0   $               0
              (Less: Intra-governmental Earned Revenue)                          0                  0                    0                   0
              Intra-governmental Net Costs                        $              0   $              0    $               0   $               0
              Gross Costs With the Public                                        0                  0                    0                 174
              (Less: Earned Revenue From the Public)                          -581                  0                 -581                   0
              Net Costs With the Public                           $           -581   $              0    $            -581   $             174
              Total Net Cost                                      $           -581   $              0    $            -581   $             174
      G. Total Program Costs                                                     0
              Intra-governmental Gross Costs                      $     10,558,574   $       5,158,781   $       5,399,793   $        5,448,310
              (Less: Intra-governmental Earned Revenue)                -17,047,244          -5,158,782         -11,888,462          -13,317,788
              Intra-governmental Net Costs                        $     -6,488,670   $              -1   $      -6,488,669   $       -7,869,478
              Gross Costs With the Public                                8,674,787                   0           8,674,787            8,224,828
              (Less: Earned Revenue From the Public)                      -891,419                   0            -891,419             -393,889
              Net Costs With the Public                           $      7,783,368   $               0   $       7,783,368   $        7,830,939
              Total Net Cost                                      $      1,294,698   $              -1   $       1,294,699   $          -38,539
        Cost Not Assigned to Programs                                            0                   0                   0                    0
        (Less: Earned Revenue Not Attributable to Programs)                      0                   0                   0                    0
        Net Cost of Operations                                    $      1,294,698   $              -1   $       1,294,699   $          -38,539




      The accompanying notes are an integral part of the financial statements. See notes 1 and 19.


158
This page intentionally left blank.




                                      159
                    United States Air Force • 2004 Annual Financial Statement




      Consolidating Statement of Changes in Net Postition—Working Capital Fund
      For the years ended September 30, 2004 and 2003 ($ in Thousands)

                                                                                   Depot               Supply           Information
                                                                                 Maintenance         Management           Services
      CUMULATIVE RESULTS OF OPERATIONS
       Beginning Balances                                                   $           609,469 $        10,868,004 $          -39,871
       Prior period adjustments (+/-)
        Prior Period Adjustments - Restated (+/-)                                             0          11,370,456                  0
        Beginning Balance, Restated                                                     609,469          22,238,460            -39,871
        Prior Period Adjustments - Not Restated (+/-)                                         0             699,393                  0
       Beginning Balances, as adjusted                                                  609,469          22,937,853            -39,871
       Budgetary Financing Sources:
        Appropriations received                                                                0                  0                   0
        Appropriations transferred-in/out (+/-)                                                0                  0                   0
        Other adjustments (rescissions, etc) (+/-)                                             0                  0                   0
        Appropriations used                                                                    0                  0                   0
        Nonexchange revenue                                                                    0                  0                   0
        Donations and forfeitures of cash and cash equivalents                                 0                  0                   0
        Transfers-in/out without reimbursement (+/-)                                    -358,400           -222,500                   0
        Other budgetary financing sources (+/-)                                                0                  0                   0
       Other Financing Sources:
        Donations and forfeitures of property                                                  0                  0                  0
        Transfers-in/out without reimbursement (+/-)                                        -213                247                  0
        Imputed financing from costs absorbed by others                                  133,887             16,564              8,566
        Other (+/-)                                                                            0                  0                  0
       Total Financing Sources                                                          -224,726           -205,689              8,566
       Net Cost of Operations (+/-)                                                     -331,316          1,597,766             18,663
       Ending Balances                                                      $            716,059 $       21,134,398 $          -49,968


      UNEXPENDED APPROPRIATIONS
       Beginning Balances                                                   $                  0 $                0 $                 0
       Prior period adjustments (+/-)
        Prior Period Adjustments - Restated (+/-)                                              0                  0                   0
        Beginning Balance, Restated                                                            0                  0                   0
        Prior Period Adjustments - Not Restated (+/-)                                          0                  0                   0
       Beginning Balances, as adjusted                                                         0                  0                   0
       Budgetary Financing Sources:
        Appropriations received                                                                0                  0                   0
        Appropriations transferred-in/out (+/-)                                                0                  0                   0
        Other adjustments (rescissions, etc) (+/-)                                             0                  0                   0
        Appropriations used                                                                    0                  0                   0
        Nonexchange revenue                                                                    0                  0                   0
        Donations and forfeitures of cash and cash equivalents                                 0                  0                   0
        Transfers-in/out without reimbursement (+/-)                                           0                  0                   0
        Other budgetary financing sources (+/-)                                                0                  0                   0
       Other Financing Sources:
        Donations and forfeitures of property                                                  0                  0                   0
        Transfers-in/out without reimbursement (+/-)                                           0                  0                   0
        Imputed financing from costs absorbed by others                                        0                  0                   0
        Other (+/-)                                                                            0                  0                   0
       Total Financing Sources                                                                 0                  0                   0
       Net Cost of Operations (+/-)
       Ending Balances                                                      $                  0 $                0 $                 0




      The accompanying notes are an integral part of the financial statements. See notes 1 and 20.


160
                            Component         Combined                                   2004                 2003
     Transportation           Level             Total           Eliminations          Consolidated         Consolidated


 $              8,572 $            90,914 $      11,537,088 $                  0 $         11,537,088 $         11,593,865

                    0                   0        11,370,456                    0           11,370,456           11,370,456
                8,572              90,914        22,907,544                    0           22,907,544           22,964,321
                    0                   0           699,393                    0              699,393              -55,128
                8,572              90,914        23,606,937                    0           23,606,937           22,909,193

                      0                 0                 0                    0                    0                    0
                      0                 0                 0                    0                    0                    0
                      0                 0                 0                    0                    0                    0
                      0                 0                 0                    0                    0               23,956
                      0                 0                 0                    0                    0                    0
                      0                 0                 0                    0                    0                    0
                      0                 0          -580,900                    0             -580,900                    0
                      0                 0                 0                    0                    0                    0

                    0                   0                 0                     0                   0                    0
                    0                   0                34                     0                  34             -209,350
                    0                   0           159,017                     0             159,017              145,206
                    0                   0                 0                     0                   0                    0
                    0                   0          -421,849                     0            -421,849              -40,188
                 -581              10,166         1,294,698                    -1           1,294,699              -38,539
 $              9,153 $            80,748 $      21,890,390 $                   1 $        21,890,389 $         22,907,544



 $                    0 $               0 $               0 $                  0 $                   0 $                  0

                      0                 0                 0                    0                     0                    0
                      0                 0                 0                    0                     0                    0
                      0                 0                 0                    0                     0                    0
                      0                 0                 0                    0                     0                    0

                      0                 0                 0                    0                     0              23,956
                      0                 0                 0                    0                     0                   0
                      0                 0                 0                    0                     0                   0
                      0                 0                 0                    0                     0             -23,956
                      0                 0                 0                    0                     0                   0
                      0                 0                 0                    0                     0                   0
                      0                 0                 0                    0                     0                   0
                      0                 0                 0                    0                     0                   0

                      0                 0                 0                    0                     0                    0
                      0                 0                 0                    0                     0                    0
                      0                 0                 0                    0                     0                    0
                      0                 0                 0                    0                     0                    0
                      0                 0                 0                    0                     0                    0

 $                    0 $               0 $               0 $                  0 $                   0 $                  0




The accompanying notes are an integral part of the financial statements. See notes 1 and 20.


                                                                                                                              161
                     United States Air Force • 2004 Annual Financial Statement




      Combining Statement of Budgetary Resources—Working Capital Fund
      For the years ended September 30, 2004 and 2003 ($ in Thousands)

                                                                               Depot                Supply           Information
                                                                             Maintenance          Management           Services
      BUDGETARY FINANCING ACCOUNTS
      BUDGETARY RESOURCES
        Budget Authority:
           Appropriations received                                       $                 0 $                0 $                0
           Borrowing authority                                                             0                  0                  0
           Contract authority                                                         26,598            656,341              1,439
           Net transfers (+/-)                                                             0                  0                  0
           Other                                                                           0                  0                  0
        Unobligated balance:
           Beginning of period                                                       483,862               8,991            17,397
           Net transfers, actual (+/-)                                              -358,400            -222,500                 0
             Anticipated Transfers Balances                                                0                   0                 0
        Spending authority from offsetting collections:
           Earned                                                                          0                   0                 0
             Collected                                                             6,999,114          10,106,978           718,664
             Receivable from Federal sources                                        -166,139             -21,808             1,616
           Change in unfilled customer orders                                              0                   0                 0
             Advance received                                                       -173,221                   0                 0
             Without advance from Federal sources                                   -531,460            -177,871           -24,584
           Anticipated for the rest of year, without advances                              0                   0                 0
           Transfers from trust funds                                                      0                   0                 0
           Subtotal                                                                6,128,294           9,907,299           695,696
        Recoveries of prior year obligations                                               0                   0                 0
        Temporarily not available pursuant to Public Law                                   0                   0                 0
        Permanently not available                                                          0             -36,669                 0
        Total Budgetary Resources                                        $         6,280,354 $        10,313,462 $         714,532


      STATUS OF BUDGETARY RESOURCES
        Obligations incurred:
             Direct                                                      $                 0 $                 0 $               0
             Reimbursable                                                          6,192,365          10,371,068           710,535
             Subtotal                                                              6,192,365          10,371,068           710,535
        Unobligated balance:
             Apportioned                                                              87,989             -57,606             3,997
             Exempt from apportionment                                                     0                   0                 0
             Other available                                                               0                   0                 0
        Unobligated Balances Not Available                                                 0                   0                 0
        Total, Status of Budgetary Resources                             $         6,280,354 $        10,313,462 $         714,532
      Relationship of Obligations to Outlays:
        Obligated Balance, Net - beginning of period                     $             -4,100 $        3,377,896 $          37,442
        Obligated Balance transferred, net (+/-)                                            0                  0                 0
        Obligated Balance, Net - end of period:
             Accounts receivable                                                     -465,342           -471,709            -56,652
             Unfilled customer order from Federal sources                          -2,064,652           -934,175           -266,643
             Undelivered orders                                                     1,355,747          5,056,743            197,737
             Accounts payable                                                       1,777,521            552,931            157,780
        Outlays:
             Disbursements                                                          6,282,591          9,744,854            738,724
             Collections                                                           -6,825,893        -10,106,978           -718,664
             Subtotal                                                                -543,302           -362,124             20,060
        Less: Offsetting receipts                                                           0                  0                  0
        Net Outlays                                                      $           -543,302 $         -362,124 $           20,060




      The accompanying notes are an integral part of the financial statements. See notes 1 and 21.


162
                            Component           2004             2003
     Transportation
                              Level           Combined         Combined




 $                    0 $               0 $             0 $          23,956
                      0                 0               0                 0
                      0                 0         684,378           -35,575
                      0                 0               0                 0
                      0                 0               0                 0

               5,966              90,914          607,130          305,847
                   0                   0         -580,900         -125,000
                   0                   0                0                0

                   0                   0                0                0
                   0                  67       17,824,823       17,643,264
                   0                 -67         -186,398           83,803
                   0                   0                0                0
                   0                   0         -173,221         -371,890
                   0                   0         -733,915          200,583
                   0                   0                0                0
                   0                   0                0                0
                   0                   0       16,731,289       17,555,760
               3,180                   0            3,180            2,027
                   0                   0                0                0
                   0                   0          -36,669         -119,535
 $             9,146 $            90,914 $     17,408,408 $     17,607,480




 $              2,027 $                 0 $         2,027 $         23,956
               -2,027                   0      17,271,941       16,976,393
                    0                   0      17,273,968       17,000,349

               9,146              90,914          134,440          607,132
                   0                   0                0                0
                   0                   0                0               -1
                   0                   0                0                0
 $             9,146 $            90,914 $     17,408,408 $     17,607,480

 $             3,963 $           -97,889 $      3,317,312 $      3,504,176
                   0                   0                0                0

                -617              35,537          -958,783       -1,145,183
                   0                   0        -3,265,470       -3,999,386
                   0                   0         6,610,227        6,166,726
               1,693            -119,917         2,370,008        2,295,155

                -293             -13,441        16,752,435       16,900,798
                   0                 -67       -17,651,602      -17,271,374
                -293             -13,508          -899,167         -370,576
                   0                   0                 0                0
 $              -293 $           -13,508 $        -899,167 $       -370,576




The accompanying notes are an integral part of the financial statements. See notes 1 and 21.


                                                                                               163
                       United States Air Force • 2004 Annual Financial Statement




      Combining Statement of Financing—Working Capital Fund
      For the years ended September 30, 2004 and 2003 ($ in Thousands)
                                                                                                           Depot              Supply          Information
                                                                                                        Maintenance         Management          Services
      Resources Used to Finance Activities:
      Budgetary Resources Obligated
       Obligations incurred                                                                         $         6,192,365 $      10,371,068 $          710,535
       Less: Spending authority from offsetting collections                                                  -6,128,294        -9,907,298           -695,695
       and recoveries (-)
       Obligations net of offsetting collections and recoveries                                                 64,071           463,770              14,840
       Less: Offsetting receipts (-)                                                                                 0                 0                   0
       Net obligations                                                                                          64,071           463,770              14,840
      Other Resources
       Donations and forfeitures of property                                                                         0                 0                   0
       Transfers in/out without reimbursement (+/-)                                                               -213               247                  -1
       Imputed financing from costs absorbed by others                                                         133,887            16,564               8,566
       Other (+/-)                                                                                                   0                 0                   0
       Net other resources used to finance activities                                                          133,674            16,811               8,565
       Total resources used to finance activities                                                              197,745           480,581              23,405

      Resources Used to Finance Items not Part
      of the Net Cost of Operations
        Change in budgetary resources obligated for goods,
        services and benefits ordered but not yet provided
              Undelivered Orders (-)                                                                          -203,832           -769,428             19,546
             Unfilled Customer Orders                                                                         -704,682           -177,871            -24,584
        Resources that fund expenses recognized in prior periods                                               -32,417             -1,716             -2,270
        Budgetary offsetting collections and receipts that                                                           0                  0                  0
        do not affect net cost of operations
        Resources that finance the acquisition of assets                                                      -136,998         -2,550,744             -8,623
        Other resources or adjustments to net obligated resources
        that do not affect net cost of operations
              Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)                     0                 0                  0
              Other (+/-)                                                                                           213              -247                  0
        Total resources used to finance items not                                                            -1,077,716        -3,500,006            -15,931
        part of the net cost of operations
        Total resources used to finance the net cost of operations                                            -879,971         -3,019,425              7,474

      Components of the Net Cost of Operations that will
      not Require or Generate Resources in the Current Period:
      Components Requiring or Generating Resources in Future
      Period:
       Increase in annual leave liability                                                                             0                  0                  0
       Increase in environmental and disposal liability                                                               0                  0                  0
       Upward/Downward reestimates of credit subsidy expense (+/-)                                                    0                  0                  0
       Increase in exchange revenue receivable from the the public (-)                                                0                  0                  0
       Other (+/-)                                                                                                    0                  0                  0
       Total components of Net Cost of Operations that                                                                0                  0                  0
       will require or generate resources in future periods
      Components not Requiring or Generating Resources:
       Depreciation and amortization                                                                           167,103             83,028              9,129
       Revaluation of assets or liabilities (+/-)                                                               35,196         -5,697,620              2,067
       Other (+/-)
              Trust Fund Exchange Revenue                                                                            0                  0                  0
              Cost of Goods Sold                                                                                     0          5,866,524                  0
              Operating Material & Supplies Used                                                               325,585                  0                  0
              Other                                                                                             20,771          4,365,259                 -7
       Total components of Net Cost of Operations that                                                         548,655          4,617,191             11,189
        will not require or generate resources
       Total components of net cost of operations that                                                         548,655          4,617,191             11,189
       will not require or generate resources in the current period
      Net Cost of Operations                                                                                  -331,316          1,597,766             18,663




      The accompanying notes are an integral part of the financial statements. See notes 1 and 22.


164
                         Component           2004             2003
    Transportation         Level           Combined         Combined



$                  0 $               0 $     17,273,968 $      17,000,349
              -3,180                 0      -16,734,467       -17,557,786

              -3,180                 0         539,501          -557,437
                   0                 0               0                 0
              -3,180                 0         539,501          -557,437

                   0                 0               0                 0
                   0                 0              33          -209,350
                   0                 0         159,017           145,206
                   0                 0               0                 0
                   0                 0         159,050           -64,144
              -3,180                 0         698,551          -621,581




              2,598                  0         -951,116         -468,106
                  0                  0         -907,137         -171,307
                  0                  0          -36,403                0
                  0                  0                0                0

                     0         10,166        -2,686,199        1,006,802



                  0                 0                 0                0
                  0                 0               -34                0
              2,598            10,166        -4,580,889          367,389

               -582            10,166        -3,882,338         -254,192




                     0               0                0                0
                     0               0                0                0
                     0               0                0                0
                     0               0                0                0
                     0               0                0           27,382
                     0               0                0           27,382



                     0               0          259,260          185,805
                     0               0       -5,660,357            2,466

                     0               0                0                0
                     0               1        5,866,525                0
                     0               0          325,585                0
                     0               1        4,386,024                0
                     0               2        5,177,037          188,271

                     0               2        5,177,037          215,653

               -582            10,168         1,294,699           -38,539




The accompanying notes are an integral part of the financial statements. See notes 1 and 22.


                                                                                               165
      United States Air Force • 2004 Annual Financial Statement




                            This page intentionally left blank.




166
                       United States Air Force




Working Capital Fund

     Required
   Supplementary
    Information




                                           167
      United States Air Force • 2004 Annual Financial Statement




                            This page intentionally left blank.




168
Schedule, Part A
DoD Intra-governmental Asset Balances                 Treasury     Fund Balance      Accounts            Loans
                                                                                                                    Investments     Other
($ in thousands)                                        Index      with Treasury     Receivable        Receivable
Department of Agriculture                                 12                         $            20
Department of Commerce                                   13                          $             2
Department of the Interior                               14                          $            43
Department of Justice                                    15                          $           501
Navy General Fund                                        17                          $         3,701
Department of State                                       19                         $            18
Department of the Treasury                                20       $    1,051,111    $           859
Army General Fund                                         21                         $         3,637
Office of Personnel Management                            24                         $             6
General Service Administration                            47                         $         5,598
National Science Foundation                               49                         $           998
General Accounting Office                                  5                         $             2
Air Force General Fund                                    57                         $       451,525                                $        0
Department of Transportation                              69                         $           982
Homeland Security                                         70                         $         1,048
Small Business Administration                             73                         $             0
National Aeronautics and Space Administration             80                         $           285
Department of Energy                                      89                         $           120
US Army Corps of Engineers                                96                         $            25
Other Defense Organizations General Funds                 97                         $        31,900
Other Defense Organizations Working Capital Funds      97-4930                       $        60,489
Army Working Capital Fund                            97-4930.001                     $         5,316                                $    10
Navy Working Capital Fund                            97-4930.002                     $         9,320




                                                                                                            Debts/
Schedule, Part B                                                        Treasury         Accounts         Borrowings
                                                                                                                               Other
DoD Intra-governmental entity liabilities                                 Index           Payable         From Other
($ in thousands)                                                                                           Agencies
Unidentifiable Federal Agency Entity (Other than DoD entities)               0                                             $            0
Navy General Fund                                                          17                                              $           66
Army General Fund                                                           21           $         876                     $          401
Office of Personnel Management                                              24                                             $        8,602
Air Force General Fund                                                      57           $      74,035                     $      228,984
National Aeronautics and Space Administration                               80                                             $           20
Other Defense Organizations General Funds                                  97            $      1,734                      $          219
Other Defense Organizations Working Capital Funds                        97-4930         $    171,651                      $        4,742
Army Working Capital Fund                                              97-4930.001       $      4,302                      $           78
Navy Working Capital Fund                                              97-4930.002       $      4,163
The General Fund of the Treasury                                            99                                             $            20




                                                                                                                                                 169
           United States Air Force • 2004 Annual Financial Statement




      Schedule, Part C
      DoD Intra-governmental revenue and related costs           Treasury    Earned Revenue
      ($ in thousands)                                             Index
      Department of Agriculture                                     12       $               20
      Department of the Interior                                   14        $               58
      Department of Justice                                        15        $            3,235
      Navy General Fund                                            17        $           81,341
      Department of State                                           19       $              287
      Department of the Treasury                                    20       $              835
      Army General Fund                                             21       $           20,817
      Office of Personnel Management                                24       $                6
      General Service Administration                                47       $               82
      National Science Foundation                                   49       $               12
      Securities and Exchange Commission                            50       $               51
      Air Force General Fund                                        57       $        9,794,922
      Department of Transportation                                  69       $            3,011
      Homeland Security                                             70       $            7,823
      Small Business Administration                                 73       $                3
      National Aeronautics and Space Administration                 80       $            1,800
      Department of Energy                                         89        $               45
      US Army Corps of Engineers                                    96       $                8
      Other Defense Organizations General Funds                    97        $        1,276,159
      Other Defense Organizations Working Capital Funds          97-4930     $          554,837
      Army Working Capital Fund                                97-4930.001   $           12,969
      Navy Working Capital Fund                                97-4930.002   $          130,141


      Schedule, Part E
      DoD Intra-governmental non-exchange revenues        Treasury   Transfers    Transfers
      ($ in thousands)                                      Index        In          Out
      Navy General Fund                                     17                    $          0
      Army General Fund                                      21                   $    350,000
      Air Force General Fund                                 57      $       34   $    220,000
      Other Defense Organizations Working Capital Funds   97-4930                 $     10,900




170
                       United States Air Force




Working Capital Fund

   Audit Opinion




                                           171
      United States Air Force • 2004 Annual Financial Statement




                            This page intentionally left blank.




172
This page intentionally left blank.




                                      173
      United States Air Force • 2004 Annual Financial Statement




174
175
      United States Air Force • 2004 Annual Financial Statement




176
177
      United States Air Force • 2004 Annual Financial Statement




178
179
      United States Air Force • 2004 Annual Financial Statement




                            This page intentionally left blank.




180
This page intentionally left blank.




                                      181
      United States Air Force • 2004 Annual Financial Statement




                            This page intentionally left blank.




182
The United States Air Force Annual Financial Statement is available for viewing on
                  the Air Force portal at: https://www.my.af.mil.
